<html>
<title> - LOST EDUCATIONAL OPPORTUNITIES IN ALTERNATIVE SETTINGS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
         LOST EDUCATIONAL OPPORTUNITIES IN ALTERNATIVE SETTINGS 

=======================================================================

                             JOINT HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                                and the

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                       COMMITTEE ON THE JUDICIARY

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 12, 2009

                               __________

        Serial No. 111-7                     Serial No. 111-5 
    (Committee on Education and Labor)     (Committee on the Judiciary)

                               __________

      Printed for the use of the Committee on Education and Labor
                   and the Committee on the Judiciary


                       Available on the Internet:
    http://www.gpoaccess.gov/congress/house/education/index.html and
                     http://www.house.gov/judiciary

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

47-722 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 




















                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
  Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Carol Shea-Porter, New Hampshire     Howard P. ``Buck'' McKeon, 
Paul Tonko, New York                     California
Jared Polis, Colorado                Brett Guthrie, Kentucky
George Miller, California            David P. Roe, Tennessee
[Vacant]                             Glenn Thompson, Pennsylvania
                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
LUIS V. GUTIERREZ, Illinois          JASON CHAFFETZ, Utah
BRAD SHERMAN, California             TOM ROONEY, Florida
TAMMY BALDWIN, Wisconsin             GREGG HARPER, Mississippi
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York
[Vacant]

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              J. RANDY FORBES, Virginia
SHEILA JACKSON LEE, Texas            TOM ROONEY, Florida
MAXINE WATERS, California            BOB GOODLATTE, Virginia
STEVE COHEN, Tennessee               DANIEL E. LUNGREN, California
ANTHONY D. WEINER, New York
DEBBIE WASSERMAN SCHULTZ, Florida

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Joint hearing held on March 12, 2009.............................     1

Statement of Members:
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities...................................     1
        Prepared statement of....................................     3
    Platts, Hon. Todd Russell, Senior Republican Member, 
      Subcommittee on Healthy Families and Communities...........     7
        Prepared statement of....................................     7
    Scott, Hon. Robert C. ``Bobby,'' Chairman, Subcommittee on 
      Crime, Terrorism, and Homeland Security....................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Blomberg, Thomas, professor of criminology, Florida State 
      University.................................................    12
        Prepared statement of....................................    15
        Responses to questions for the record....................    66
    Brooke, Linda, director, government relations and education 
      service, Juvenile Justice Alternative Education Programs...    18
        Prepared statement of....................................    20
    Cave, Cynthia A., Ph.D., Director, Office of Student 
      Services, Virginia Department of Education.................    24
        Prepared statement of....................................    26
        Responses to questions for the record....................    67
    Dixon, Leonard B., Executive Director, Wayne County, MI, 
      Juvenile Detention Facility................................    32
        Prepared statement of....................................    33
    Steel, Janeen, executive director, Learning Rights Law Center    37
        Prepared statement of....................................    38
        Responses to questions for the record....................    70
        Additional submissions:
            Table: ``Abstracts of Articles''.....................    76
            ``California Rules of Court and Welfare and 
              Institutions Code 241.1''..........................    77
            ``Foster Care Education Advocacy--Crossover Youth 
              Project''..........................................    81
    Whitmore, Robert C., D.Ed., CEO, Manito, Inc.................    29
        Prepared statement of....................................    30
        Responses to questions for the record....................    74


         LOST EDUCATIONAL OPPORTUNITIES IN ALTERNATIVE SETTINGS

                              ----------                              


                        Thursday, March 12, 2009

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

        Subcommittee on Crime, Terrorism, and Homeland Security

                       Committee on the Judiciary

                             Washington, DC

                              ----------                              

    The subcommittees met, pursuant to call, at 10:03 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the Healthy Families and Communities 
Subcommittee] presiding.
    Present from the Subcommittee on Healthy Families: 
Representatives McCarthy, Clarke, Scott, Shea-Porter, Platts, 
McKeon, and Guthrie.
    Present from the Subcommittee on Crime, Terrorism and 
Homeland Security: Scott, Pierluisi, Jackson Lee, Gohmert, Poe, 
and Goodlatte.
    Staff present from the Subcommittee on Healthy Families: 
Paulette Acevedo, Legislative Fellow; Tylease Alli, Hearing 
Clerk; Fran-Victoria Cox, Staff Attorney; David Hartzler, 
Systems Administrator; Fred Jones, Staff Assistant, Education; 
Jessica Kahanek, Press Assistant; Sharon Lewis, Senior 
Disability Policy Advisor; Joe Novotny, Chief Clerk; Lisa Pugh, 
Legislative Fellow, Education; Kim Zarish-Becknell, Policy 
Advisor, Subcommittee on Healthy Families and Communities; 
Stephanie Arras, Minority Legislative Assistant; James 
Bergeron, Minority Deputy Director of Education and Human 
Services Policy; Robert Borden, Minority General Counsel; 
Kirsten Duncan, Minority Professional Staff Member; and Linda 
Stevens, Minority Chief Clerk/Assistant to the General Counsel.
    Staff present from the Subcommittee on Crime, Terrorism and 
Homeland Security: Veronica Eligan, Professional Staff Member; 
Jesselyn McCurdy, Counsel; Bobby Vassar, Chief Counsel; Karen 
Wilkinson, (Fellow) Federal Public Defender Office Detailee; 
Kimani Little, Minority Counsel; and Caroline Lynch, Minority 
Counsel.
    Chairwoman McCarthy [presiding]. A quorum is present. The 
joint hearing of the House Committee on Education and Labor 
Subcommittee on Healthy Families and Communities and the House 
Committee on Judiciary Subcommittee on Crime, Terrorism, 
Homeland Security on lost education opportunities in 
alternative settings will come to order.
    Before we begin, I would like to ask everybody to take a 
moment to ensure that your cell phones and BlackBerries are on 
silent.
    Something just beeped over there.
    I now recognize myself, followed by Chairman Bobby Scott of 
the House Judiciary Committee's Subcommittee on Crime, 
Terrorism and Homeland Security.
    After Mr. Scott, the Subcommittee on Healthy Families and 
Communities ranking member, Todd Platts, from Pennsylvania, 
will be recognized for an opening statement, followed by the 
Congressman from Texas, the Subcommittee on Crime, Terrorism, 
Homeland Security and Ranking Member Gohmert. Thank you for all 
being here.
    I would like to thank you all for being here today. And I 
thank you for traveling and spending the time with us. I think 
it is very important.
    The testimony that we heard, or I should say read, is very 
interesting. And I was meeting with my National PTA people 
upstairs before I came down here, and one of things that was on 
their agenda was that a lot of young people were going into the 
juvenile justice system even just for truancy. And that is 
something I know that we are going to be discussing here.
    Each of us sitting here knows that the importance of 
education in a child's life--unfortunately there is a whole 
population of students not receiving adequate education 
services, and there is no or little to no accountability. This 
hearing will focus on youth who in many instances need the most 
help but all too often fall through the cracks. For them, the 
opportunity for a decent education is lost.
    The students we are talking about may be in day treatment 
programs, residential treatment centers, group homes, foster 
care settings, juvenile justice facilities or private 
therapeutic programs. Data reflects that minority youth, low-
income youth and youth with disabilities are overrepresented in 
these particular systems. Youth are commonly shuffled from one 
setting to the next with education services--in each placement 
locality and state.
    A 2007 report by the Government Accountability Office on 
residential facilities found state governments that are 
responsible for the oversight of juvenile facilities often do 
not monitor the quality of the education programs in these 
facilities or monitor them inconsistently. The consequences for 
the students include a lack of qualified teachers, shortened 
school days, low quality of curriculum and overall lost 
opportunities.
    In fact, data shows that only 17 percent of teachers in 
juvenile facilities are fully certified. We hear stories of 
teenage students being given coloring sheets as their 
schoolwork, teachers are not showing up to teach class, and 
lockdown situations that leave children without any form of 
education for days at a time.
    One of our witnesses, Dr. Blomberg, will touch on the 
school-to-prison pipeline where students begin in a traditional 
public school and are referred to alternative placements, many 
times for minor infractions, like truancy. Another witness, Ms. 
Steel, will talk about growing up with undiagnosed learning 
disabilities, dropping out of school and fighting her way back 
to become an attorney who protects the education rights of 
vulnerable, at-risk youth, including those in foster care and 
those with learning disabilities. I understand Ms. Steel's 
situation, as I was diagnosed with dyslexia at the age of 30.
    These students then receive substandard education and 
ultimately end the cycle from within a juvenile justice 
facility or incarcerated. It is not realistic to expect 
students receiving this type of education to graduate high 
school or let alone go to college.
    We know a good education is one of the most effective ways 
to prevent delinquency. The overall economic costs for 
individuals in the corrective system are astonishing. To 
address the educational needs of students from the beginning of 
a child's school career, before that child falls through the 
cracks, is not only economically sound but is simply the right 
thing to do. So each of our witnesses here today can speak to 
successes despite the odds. Success for these vulnerable youth 
is not the norm.
    Thank you all for joining us and I look forward to hearing 
your testimony.
    I now recognize the distinguished chairman of the House 
Judiciary Subcommittee on Crime, Terrorism and Homeland 
Security, who is also a member of this subcommittee, for his 
opening statement.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    I would like to thank you for being here today. Each of us sitting 
here knows the importance of education in a child's life.
    Unfortunately there is a whole population of students not receiving 
adequate education services, and there is little to no accountability. 
This hearing will focus on youth who, in many instances, need the most 
help but all too often fall through the cracks.
    For them the opportunity for a decent education is lost.
    The students we are talking about may be in day treatment programs, 
residential treatment centers, group homes, foster care settings, 
juvenile justice facilities or private therapeutic programs. Data 
reflects that minority youth, low-income youth and youth with 
disabilities are overrepresented in these systems.
    Youth are commonly shuffled from one setting to the next, with 
education services varying in each placement, locality and state.
    A 2007 Report by the Government Accountability Office on 
residential facilities found state governments that are responsible for 
the oversight of juvenile facilities often do not monitor the quality 
of the educational programs in these facilities or monitor them 
inconsistently. The consequences for the students include a lack of 
qualified teachers, shortened school days, low quality of curriculum 
and overall lost opportunities. In fact, data shows that only seventeen 
percent of teachers in juvenile facilities are fully certified.
    We hear stories of teenage students being given coloring sheets as 
their school work, teachers not showing up to teach class, and lock 
down situations that leave children without any form of education for 
days at a time.
    One of our witnesses, Dr. Blomburg, will touch on the school to 
prison pipeline, where students begin in a traditional public school 
and are referred to alternative placements, many times for minor 
infractions like truancy.
    Another witness, Ms. Steele, will talk about growing up with an 
undiagnosed learning disability, dropping out of school, and fighting 
her way back to become an attorney who protects the educational rights 
of vulnerable and at-risk youth, including those in foster care and 
those with learning disabilities. I understand Ms. Steele's situation, 
as I was not diagnosed with dyslexia until my thirties.
    These students then receive substandard education and ultimately 
end the cycle within a juvenile justice facility or incarcerated. It is 
not realistic to expect students receiving this type of education to 
graduate high school, let alone go to college. We know a good education 
is one of the most effective ways to prevent delinquency.
    The overall economic costs for individuals in the correctional 
system are astounding. To address the educational needs of students 
from the beginning of a child's school career before that child falls 
thought the cracks is not only economically sound, but it is simply the 
right thing to do.
    Though each of our witnesses here today can speak to successes 
despite the odds, success for these vulnerable youth is not the norm.
    Thank you all for joining us on this issue. I look forward to 
hearing your testimony.
                                 ______
                                 
    Mr. Scott. Thank you, Chairwoman McCarthy, and I am pleased 
to join you in welcoming members, witnesses and guests to 
today's joint hearing, entitled ``Lost Educational 
Opportunities in Alternative Settings,'' before the Committee 
on Education and Labor's Subcommittee on Healthy Families and 
Communities and the Subcommittee on Judiciary--Crime, Terrorism 
and Homeland Security, which I chair.
    I believe this is a timely hearing on a timely subject of 
ensuring that all children receive a world-class education that 
will allow them to compete for jobs and prosperity in a rapidly 
changing and challenging world economy. It is, I think, 
interesting to note that it is an Education and Judiciary 
Committee joint hearing, because, Madam Chairwoman, if we don't 
get it right in your subcommittee on Healthy Families, I am 
going to have to deal with it in my subcommittee on Crime.
    So I am particularly pleased to welcome one of our expert 
witnesses today, Dr. Cynthia Cave, who is director of the 
Office of Student Services at the Virginia Department of 
Education, whom I had the pleasure to work with when I was in 
the General Assembly and I will be introducing her a bit later.
    Today's hearing will examine the challenges associated with 
educating children in an alternative setting and how to 
overcome obstacles in providing quality education in these 
settings. For many reasons, children in this country are 
educated with public funds in settings other than traditional 
public schools.
    Generally, alternative settings, such as alternative 
schools, juvenile detention facilities and foster care 
settings, were established with the objective of addressing 
children's individualized needs while educating them so that 
they can eventually move back to the public school system. Not 
providing an educational setting to children when they have 
been suspended or expelled from their home is not only 
counterproductive but morally wrong. Society pays a much higher 
cost financially and otherwise if we don't provide an 
educational alternative than if we do.
    Given the importance of a solid education in achieving a 
successful life, we must make sure that the quality of 
education that young people receive in alternative settings is 
sufficient for them to continue on to vocational training or 
college, just as any other student. Some alternative settings 
have created positive therapeutic environments for young people 
that have proved to be very successful, and we need to learn 
from these models.
    Unfortunately, it is clear that not all children who are 
educated in alternative schools are being provided with the 
educational opportunities--with the good educational 
opportunities that they need to become successful in life. 
Families and educators alike are concerned that instead of 
addressing the individualized needs of students, some 
alternative schools are pushing students out of school and into 
the streets and eventually into the juvenile and criminal 
justice system.
    The school system has become a gateway to the juvenile 
justice system through disciplinary policies such as zero 
tolerance that require school suspension, expulsion and arrest 
for an increasing number of common student behaviors and rule 
violations. The National Center for Educational Statistics 
found that 31 percent of students who have been suspended three 
or more times before the 10th grade drop out of school compared 
to only 6 percent of those who have never been suspended.
    The high and growing percentage of youth who are suspended 
or expelled from school are youth of color; African American, 
Latino, Asian and Native Americans are 58 percent of students 
suspended or expelled from school. Indeed, many children of 
color start on a trajectory of school failure, suspension, 
expulsion and then to prison. They start on that trajectory at 
birth.
    The Sentencing Project estimates that one out of every 
three black male students born today can expect to go to prison 
in their lifetime if the current trends continue. This 
development has led the Children's Defense Fund to conclude 
that many black children are born on what they call the cradle-
to-prison pipeline. We have to change that trajectory and put 
these children on a cradle-to-college or cradle-to-the-
workforce pipeline, because it is not only tragic but also much 
more costly to our society in the long run if we don't.
    Department of Justice and other estimates show that we 
spend an average of over $23,000 per inmate per year to 
incarcerate, while it only costs $8,000 a year to educate them. 
The Alliance for Excellence in Education projects that if the 
male graduation rate is increased by only 5 percent, the nation 
would see an annual savings of almost $5 billion in reduction 
in crime-related costs. A report by the American Youth Policy 
Forum indicates that dropouts are three and a half times more 
likely than high school graduates to be incarcerated during 
their lifetime, so we know that education is key to keeping our 
children away from the prison cell and getting them back on the 
right track towards a college dorm room or the workforce.
    An issue of quality education in an alternative setting is 
especially important with the new accountability under No Child 
Left Behind as well as mandates for students who are under the 
Individuals with Disabilities Act. All students must have a 
challenging curriculum that will prepare them to pass state 
standardized tests and to graduate them from high school.
    Other challenging educational settings in educating 
children--another educational setting educating children is 
foster care. These children have many obstacles to getting a 
quality education as youth in the juvenile justice system. 
Young people in foster care often experience numerous changes 
in their home placements that require them to change schools 
frequently. Foster care children have to adjust to new 
teachers, classmates, curricula and rules in every new home 
placement, and as a result, children often end up losing 
academic credits, experiencing delays in student record 
transfers, delayed enrollment and reporting of grades. So we 
must be concerned about foster care students, regardless of 
whether they are in the traditional or alternative educational 
placements due to these challenges.
    I look forward to listening to the testimony from today's 
witnesses and hearing more about how we can assist school 
systems in successfully overcoming the challenges in providing 
quality education to children in alternative settings and to 
foster care students particularly in all settings.
    And thank you, Madam Chairman, for holding this hearing.
    [The statement of Mr. Scott follows:]

    Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Chairman, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Good morning, I am pleased to welcome you to today's joint hearing 
titled ``Lost Educational Opportunities in Alternative Settings'' 
before the Committee on Education and Labor's Subcommittee on Health 
Families and Communities and the Committee on the Judiciary's 
Subcommittee on Crime, Terrorism, and Homeland Security.
    Among our expert witnesses today, we are joined by Dr. Cynthia 
Cave, Director of the Office of Student Services for the Virginia 
Department of Education. Dr. Cave oversees alternative education for 
the Department of Education in Virginia and she works closely with 
Virginia's bipartisan Commission on Youth to study the quality and 
areas for improvement in the education of at-risk youth. She has also 
been involved in intensive dropout prevention and truancy reduction 
efforts.
    Today's hearing will examine the challenges associated with 
educating children in alternative settings and how to overcome 
obstacles in providing quality education in these settings. For many 
reasons, children in this country are educated with public funds in 
settings other than traditional public schools. Generally, alternative 
settings such as alternative schools, juvenile detention facilities and 
foster care settings were established with the objective of addressing 
children's individualized needs while educating them so that they can 
eventually move back to the public school system. Providing an 
educational setting to children when they have been suspended or 
expelled from their home schools is a better alternative than leaving 
them with them out on the street. However, we must make sure that the 
quality of education that young people in alternative settings is 
sufficient enough for them to continue on to vocational training or 
college. Some alternative schools settings have created positive 
therapeutic environments for young people and we need to learn from 
these model schools.
    Nonetheless, it is not clear whether children who are educated in 
other alternative schools are being provided the educational 
opportunities and support they need to become successful in life. 
Families and educators alike are concerned that instead of addressing 
the individualized needs of children, these alternative schools are 
pushing students out of school and into the juvenile and criminal 
justice system. The school system has become a gateway into the 
juvenile justice system through disciplinary policies such as ``zero 
tolerance'' that require school suspension, expulsion, and arrest for 
an increasing number of common student behaviors and rule violations. 
The National Center for Educational Statistics found that 31% of 
students who had been suspended three or more times before the tenth 
grade dropped out of school compared to only 6% of students who had 
never been suspended.
    A growing number of the youth who are suspend or expelled are youth 
of color and statistics indicate that one in every 3 Black male 
children born today can expect to go to prison in their lifetime if 
current trends continue. This development led the Children's Defense 
Fund to conclude that many Black children are born on a ``cradle to 
prison pipeline.'' We must put these children on the path to a cradle 
to college pipeline, because it is tragic and much more costly to our 
society in the long run, if we send these young people to prison and 
not to college.
    The Department of Justice estimates it spends an average of almost 
$25,000 per inmate per year to incarceration offenders. However, the 
Alliance for Excellent Education projects that increasing the high 
school graduation rate and college attendance for male students by only 
5 percent would lead to combined savings and revenue of almost $8 
billion each year.
    We know that education is the key to getting children on the right 
path away from a prison cell and toward a college dorm room. Without an 
education, statistics show that dropouts are 3\1/2\ times more likely 
than high school graduates to be incarcerated in their lifetime.
    The issue of quality education in alternative settings is 
especially important with the new accountability under the No Child 
Left Behind Act as well as mandates for student access in the 
Individuals with Disabilities Education Act (IDEA). All students must 
have a challenging curriculum that will prepare them to pass state 
standardized tests and in many states allow them to graduate from high 
school.
    Children in foster care have as many obstacles to getting a quality 
education as youth in the juvenile justice system. Young people in 
foster care often experience numerous changes in their home placements 
that require them to changes schools frequently. Foster children have 
to adjust to new teachers, classmates, curricula and rules with every 
new home placement. These school disruptions often result in children 
losing academic credits, repeating grades, delaying enrollment in 
school and transferring of student records. I look forward to listening 
to the testimony from today's witnesses and hearing more about how some 
schools systems have overcome the challenges to providing education in 
alternative settings.
    It is now my pleasure to recognize the esteemed ranking member of 
the Healthy Families and Communities Subcommittee, the Gentleman from 
Pennsylvania Todd Platts.
                                 ______
                                 
    Chairwoman McCarthy. And I thank you, Mr. Scott.
    Now I will introduce my ranking member, Mr. Platts, from 
Pennsylvania, who has been a good colleague the last several 
years, working very well together.
    Mr. Platts. Thank you, thank you, Madam Chair. Want to 
thank you very much for holding this very important hearing on 
our alternative education systems and really so we can learn 
from our expert witnesses on the strengths and weaknesses of 
our systems throughout the country.
    I am very pleased that we have been joined by our 
colleagues on the Judiciary Subcommittee and Chairman Scott, 
Ranking Member Gohmert, delighted to join you as well as the 
other members of both subcommittees.
    I am going to submit my statement for the record.
    [The statement of Mr. Platts follows:]

  Prepared Statement of Hon. Todd Russell Platts, Ranking Republican 
        Member, Subcommittee on Healthy Families and Communities

    Good morning. I'd like to welcome each one of you to this joint 
hearing entitled ``Lost Educational Opportunities in Alternative 
Settings.'' I am pleased that the House Judiciary Subcommittee on 
Crime, Terrorism, and Homeland Security is able to join us today to 
hear about the educational opportunities available for youth outside of 
the traditional public school system.
    The goal of most alternative settings is to provide youth who 
struggle in mainstream society another opportunity to succeed 
educationally. Often these settings also provide behavioral health 
treatment and additional support services.
    The Juvenile Justice and Delinquency Prevention Act assists states 
and local governments in their efforts to reduce juvenile crime through 
the funding of prevention programs, efforts to combat juvenile crime, 
as well as rehabilitation and treatment programs. It is often in the 
rehabilitation and treatment settings that educational services are 
also provided.
    The purpose of today's hearing is to better understand the types of 
educational opportunities that are presented to youth who often are 
referred to these alternative settings by their own school district or 
by a court order. I am especially interested to learn about the 
specific components that make a high quality alternative educational 
setting successful.
    I am glad that we are holding this hearing today and look forward 
to hearing testimony from this expert panel. It is vitally important 
that all of our youth receive a challenging and rewarding educational 
experience regardless of the setting.
    I yield back to Chairwoman McCarthy.
                                 ______
                                 
    Mr. Platts. Both, Chairwoman McCarthy, you and Chairman 
Scott both presented very thoughtful statements, I think 
captured the importance of this issue and why we are here 
today.
    I am especially pleased to thank each of our witnesses. 
Your expertise out on the frontlines of this issue is what this 
hearing is all about because through your knowledge that you 
share with us we can be better informed as policymakers and, as 
Chairman Scott said, hopefully get it right on the alternative 
education side so that we are not dealing with issues on his 
subcommittee's side, which is the criminal side.
    And we are grateful for not just your presence here today 
but I know the effort that goes into being part of a hearing 
and preparing your testimony. I am sure it took some great 
effort and sacrifice in the past week, and we are grateful for 
that effort and look forward to your testimony and your wisdom 
being shared with us.
    So thank you, Madam Chair. I yield back.
    Chairwoman McCarthy. Thank you, Mr. Platts.
    Now I am pleased to introduce Mr. Gohmert, who is also on 
the House Terrorism Subcommittee on Crime, Terrorism and 
Homeland Security.
    Welcome to the committee, Mr. Gohmert.
    Mr. Gohmert. Okay, thank you, Chairwoman McCarthy, Ranking 
Member Platts, Chairman Scott. It is a pleasure to be with each 
of you and have the witnesses here today. Look forward to 
hearing from you.
    Administering justice to juvenile offenders has largely 
been the domain of states, as you know. There is no federal 
juvenile justice system. In fact, when the federal government 
adjudicates a juvenile as a delinquent, that individual is 
housed in either private or state-run facilities because the 
Bureau of Prisons does not operate residential placement 
facilities for juveniles.
    But when looking at the state systems, it is difficult to 
make an accurate count of the number of juveniles that are 
committed at any one time because juveniles transition in and 
out of the system frequently. One metric is the Census of 
Juveniles in Residential Placement or CJRP, which provides an 
annual 1-day snapshot count of all juvenile offenders in public 
or private residential facilities in the United States.
    A review of recent CJRP data indicates that the number of 
juveniles in state, local and private correctional facilities 
has actually declined since 1999. The data shows that juvenile 
offenders in custody fell about 14 percent from nearly 109,000 
offenders in 1999 to almost 93,000 in 2006, the last year for 
which we have such data.
    Many of these juveniles are only in the correctional 
facilities for short periods. According to the CJRP, a closer 
look at the juveniles committed as part of a court-ordered 
disposition indicated 80 percent have been in facility at least 
30 days, 68 percent for less than 60 days and 57 percent for at 
least 90 days. Only 12 percent of the committed offenders 
remained in the placement for over a year.
    Creating and maintaining educational programs for juveniles 
that are often coming and going from facilities is quite 
challenging of course. However, many states have made valiant 
efforts to provide the best possible programming that they can.
    In 2004, an article that tracked the history of juvenile 
correction education programs nationwide was published in the 
Journal of Correctional Education. The article found that, 
``Since 1997, a number of states have taken the lead in 
demonstrating the quality of their juvenile correctional 
education programs by responding with education standards 
movement.'' The article concluded that a number of states, 
including Georgia, Alabama and Ohio, improved their programs by 
aligning the juvenile correctional education programs with 
their state education standards. These states should be 
recognized for their efforts and other states should look to 
these policies to see if it makes sense to adopt them.
    However, we should remain mindful of the fact that state 
and local juvenile justice facilities face systemic hurdles 
that are often beyond their control. A 2004 study of the 
juvenile justice system by the University of Maryland concluded 
that most youths enter correctional facilities with a range of 
intense educational, mental health, medical and social needs. A 
large number of juveniles in corrections are marginally 
literate and have experienced school failure and retention at 
the public school level. And all--minors in the criminal and 
juvenile justice system will face these sad realities.
    Before I was elected to Congress, I served as a district 
judge and as chief justice of intermediate court of appeals. I 
also served on the county juvenile board. During my tenure on 
the bench, I sometimes oversaw cases involving juveniles facing 
charges so serious that they were prosecuted as adults. Time 
and time again, you had to wonder where these kids came from 
and how they got here.
    Often the answer was that these kids came from broken homes 
without two parents and other positive role models. I also 
often discovered these kids had very poor levels of education, 
and most were high school dropouts by their own choice. As a 
judge, I took note for a 3-month period of exactly how many I 
was sentencing, day in, day out, who had never had a 
relationship with their father, and it was over 80 percent.
    Educational opportunities for juveniles in alternative 
settings is a small facet of a larger problem. State issues 
that affect the nation include the breakdown of the family. 
Another state issue affecting the nation is the failure of the 
public schools. Another problem is a culture where uneducated, 
illiterate, foul-talking tough guys end up being role models.
    We will not find solutions in only examining the symptoms. 
Again, one of the diseases may be the breakdown of the American 
home and family. But hopefully states will find information we 
glean from these hearings helpful and will appreciate this 
inquiry, with this issue of course being reserved to the states 
by the 10th Amendment. It does seem that with each decade for 
the last 50 years in which the federal government has usurped 
more of the state control of education, we have had greater and 
greater problems in the educational prominence of our students.
    So I appreciate the witnesses being here. I think it is 
helpful for where we have the resources to make these inquiries 
and help give states guidance.
    But one final anecdotal indication: In our juvenile justice 
facility, we kept getting restriction after restriction on what 
we had to do to feed the juveniles in order to get the $1 of 
federal subsidy. After more and more restrictions were put on, 
more and more requirements, we finally had the director figure 
out what it would cost, number one, to do an inquiry with our 
juveniles, find out what they liked to eat better than what 
they were eating, and how we could have it even more 
nutritional. We provided more nutritional meal and it was meals 
they chose. We gave up the dollar of federal subsidy and we 
saved ourselves $2 a meal.
    Thank you, I yield back.
    Chairwoman McCarthy. And with that, I thank the gentleman.
    I would also like to say that Mr. Buck McKeon, the ranking 
member on the full committee, is here with us. I thank him. I 
guess he left.
    Pursuant to Committee Rule 12(a), any member may submit an 
opening statement in writing at this time, which will be made 
part of the permanent record. Without objection, all members 
will have 14 days to submit additional materials or questions 
for the hearing record.
    Let me just explain the lighting system. You have 5 minutes 
each. You will have a green light when you start. There is a 
yellow light saying that you are getting down to about 4 
minutes. And obviously when your red light goes on, I am not 
going to stop you in mid-sentence or mid-thought, but it would 
be time to wrap up and so this way everybody can have a full 
opportunity to ask their questions.
    Our first witness, Dr. Thomas Blomberg is the dean and 
professor of criminology in the College of Criminology and 
Criminal Justice at Florida State University and the editor of 
Criminology and Public Policy. Dr. Blomberg's research in 
Florida and throughout the nation is internationally 
recognized. He will also touch on the practices and 
effectiveness of alternative education, schools for at-risk 
youth and developed educational behavior qualities assurance 
standards for these schools.
    And welcome, Mr. Blomberg.
    Our next witness is Mr. Leonard Dixon. Currently Mr. Dixon 
works for the Wayne County Juvenile Detention Facility, 
Department of Children and Family Services in Detroit as the 
executive director. With more than 29 years of juvenile justice 
experience, Mr. Dixon will give light to a holistic approach in 
serving youth in correctional and detention facilities and is 
recognized nationally and internationally on this topic.
    Welcome, Mr. Dixon.
    Sharing both her personal perspective and her expertise as 
an attorney advocate is Ms. Janeen Steel. As a former high 
school dropout with a learning disability who went down the 
path of addiction and homelessness, once her learning needs 
were finally diagnosed as an adult she was able to go to law 
school with the intention of representing at-risk youth and 
ensuring quality education. Ms. Steel founded the Learning 
Rights Law Center, Los Angeles, an educational-based legal 
advocacy organization, which works to prevent the systematic 
placement of foster youth in restrictive and, what Steel calls, 
substandard educational environments.
    I now yield to Chairman Scott to introduce the next 
witness, Dr. Cynthia Cave.
    Mr. Scott. Thank you, Madam Chairwoman.
    It is my pleasure to introduce Dr. Cynthia Cave, director 
of Student Services in the division of Special Education and 
Student Services at the Virginia Department of Education. She 
has been part of the Department of Education for over 11 years.
    Prior to coming to the Department of Education, she was 
assistant commissioner for field services for the Department of 
Rehabilitative Services and deputy commissioner for 
administration for the Department of Health. Before joining the 
state, she worked in various positions in local government, 
including executive director in intergovernmental relations for 
the City of Santa Ana, California.
    She has also served as the adjunct professor for the 
doctoral program for the School of Education and master's 
program for the department of public administration at Virginia 
Commonwealth University. She holds a PhD in public 
administration from Syracuse, the Maxwell School; a master's of 
public administration from the University of Maine; and a 
bachelor of science from the College of William and Mary. And I 
am particularly pleased to see her because we did work together 
when I was in the Virginia General Assembly.
    So it is good to see you.
    Chairwoman McCarthy. Thank you, Bobby.
    Next I will yield to my ranking member, Congressman Platts, 
to introduce our next witness, Dr. Whitmore.
    Mr. Platts. Thank you, Chairwoman McCarthy.
    I am delighted to welcome Dr. Robert Whitmore here as a 
witness. Dr. Whitmore has 36 years of professional experience 
working with at-risk youth in a variety of community settings. 
Dr. Whitmore is a cofounder and CEO of Manito, Inc., a private, 
non-profit organization based in Pennsylvania. And for 30 years 
he has guided Manito in the development and delivery of 
comprehensive alternative education, juvenile justice and 
behavior health services to children, adolescents and their 
families. And I think important is he, I think will reference 
in his remarks, he began his career as a juvenile probation 
officer and has an important perspective that he brings to the 
table today.
    Manito currently provides a number of comprehensive 
educational and behavior health services in 11 counties in 
Pennsylvania and West Virginia and serves over 700 children on 
a daily basis. I am proud to say that Manito operates eight 
programs in my congressional district and does so very well. 
Dr. Whitmore has focused his efforts on the development of 
services to at-risk youth who have been unsuccessful in 
traditional public school and community settings with an 
emphasis on creating supportive services to keep children in 
their families and communities.
    And, Dr. Whitmore, again, thank you for being here with us 
today.
    Chairwoman McCarthy. Thank you, Todd.
    And next Congressman Gohmert to introduce the next witness, 
Linda Brooke.
    Mr. Gohmert. Thank you, and we do appreciate the witnesses. 
I know some of you probably came just because of how much money 
you get paid for being a witness here. [Laughter.]
    But you know, I mean, you all know, there may be people 
listening that don't know you don't get paid for coming. I 
think it is a bipartisan shortcoming. We don't even pay airfare 
to get people up here. And maybe someday we can do something on 
a bipartisan basis to fix that, but it makes us all the more 
grateful that anybody is willing to come up here and talk to 
us.
    But Linda Brooke, so glad to have her here. She is the 
director of Government Relations and Education Services for the 
Texas Juvenile Probation Commission. The TJPC is the state 
agency that establishes standards and provides funds, training 
and technical assistance for the 168 juvenile probation 
departments of Texas.
    Ms. Brooke began her career in juvenile justice working in 
Montgomery County, Texas, where she has worked as a detention 
officer, probation officer and later as a supervisor in the 
administrative service division. The last 16 years of her 
career have been with the Texas Juvenile Probation Commission, 
where she has worked as a field services resource specialist 
and later as the director of Government Relations and Education 
Services.
    Ms. Brooke was instrumental in the development of the 
juvenile justice education programs in the state and serves as 
a state resource for local juvenile probation departments, 
school districts, juvenile boards and the state legislature, 
including coming and helping my county of Smith and probably 
Judge Poe's county or counties as well.
    But Ms. Brooke has a--I am sorry--she has provided numerous 
trainings on juvenile justice educational issues to groups and 
organizations such as the Juvenile Justice Association of 
Texas, Texas Probation Association, Safe Drug and Drug-Free 
Communities, Texas Juvenile Post-Legislative Conference. In 
addition, she testifies frequently in front of Texas 
legislative committees on juvenile justice-related matters and 
frequently is consulted on drafting legislation.
    She graduated from Sam Houston State University in 
criminology and corrections. We are pleased to have her here.
    Thank you so much.
    Chairwoman McCarthy. Thank you.
    And before we start with our first witness, when each of 
you speak, just make sure that you pull your microphone up 
close to you and push the button so that we can all hear you.
    Dr. Blomberg, if you would begin.

STATEMENT OF THOMAS BLOMBERG, PROFESSOR OF CRIMINOLOGY, FLORIDA 
                        STATE UNIVERSITY

    Mr. Blomberg. Okay, thank you very much.
    I want to kind of cover--just try to summarize what I 
provided in my written outline, which deals with the problem of 
lost educational opportunities--what I feel are the 
opportunities with these students and then the benefits.
    You know, earlier it was mentioned that our public schools 
are failing these students. I think that it is a little 
unrealistic for us to imagine that our public schools that 
serve approximately 50 million students annually, of which 
roughly 14 percent or well over 6 million are diagnosed with 
learning and behavior difficulties--it is sort of hard to 
imagine that they could really be satisfactorily serving all of 
those students. And that is where alternative education 
settings come in, and that is of course what I will try to 
focus on.
    Now last year these alternative schools and juvenile 
justice facilities--and I was very glad to hear the 
acknowledgement that we don't even have good data on how many 
students, for example, are in juvenile justice schools. I have 
worked with that over a number of years, and that is certainly 
something we need to improve. But last year, approximately one 
million youth were in alternative schools or in juvenile 
justice schools, and these programs are woefully inadequate.
    There are differences among these schools; some are better 
than others. But again, I think we have had a historical 
pattern which has been that this population has generally been 
viewed as disposable. That has been the history, even with the 
development of the juvenile court at the turn of the 20th 
century. We had rhetoric that called for education, but the 
reality, as all of you know, was those teachers that found 
themselves in these alternative settings tended to be those 
often who couldn't make it in the public school setting. So we 
have had this problem.
    And so what results from all of this? Well, many of these 
one million or more students fall through the cracks, and they 
do become disproportionately involved in crime, in chemical 
abuse or unemployment. And it is estimated that for each youth 
that does fall into this pattern, that is going to cost this 
country $2.2 million--$2.2 million.
    But the opportunity that I have seen in my last 11 years in 
Florida is primarily what I am here to tell you about. Florida 
had the Bobby M. consent decree and in the early 1990s 
established a very strong quality assurance and research system 
for its juvenile justice schools, and I have been a part of 
that for 11 years. And it has been one of the most amazing 
projects that I have ever been involved with in my entire 36 
academic and research career.
    The children in Florida's juvenile justice schools--there 
are approximately 200 schools--on any given day, 10,000 youth 
are incarcerated in those schools. These kids are anywhere from 
3 to 6 years behind in their age-grade placement, chronic 
histories of suspension, expulsion and dropout. 
Disproportionately roughly 50 percent or more are formally 
designated with learning or behavior difficulties compared to 
about 10 to 12 percent in Florida's public schools.
    So clearly a very high-risk population to deal with, but 
nonetheless, what we have done since 1998, we have developed 
standards, education standards for these schools. We have gone 
in annually; we have assessed those standards to make sure that 
the programs are fulfilling what it is they are supposed to be 
fulfilling. But it is not merely a gotcha. We also stop, take a 
breath, and then meet with the teachers, meet with the 
principals, meet with the custodial staff and say here are the 
steps that are needed to improve these schools. So it brings in 
kind of a moral authority involved in what we are doing, 
because the teachers really care and many of the teachers 
really thank us for what we are doing for them.
    Furthermore, each year we pull all the key actors together 
throughout the state of Florida, and we assess where we are in 
juvenile justice--and each year we continuously raise the bar. 
We require more, not less, because this population needs more, 
not less.
    We have two major longitudinal cohorts of 4,000 and 6,000. 
Some of these kids have been out 6 years. Those kids that 
academically achieve disproportionately return to school. And 
if they return to school, the likelihood of rearrest drops 
precipitously. This is something that works in changing the 
life course of these children. This program can work.
    Now, in terms of the benefits, the benefits are numerous. 
Crime is estimated to cost this country $1 trillion a year--
yes, $1 trillion. That is just more money than I can imagine. 
And what I have done in the handout, I have provided you some 
cost estimates, if you look at the benefits, that can be 
accrued with different proportions of these one million kids 
changing their life course. That is also in the billions of 
dollars.
    But the bottom line is you can't simply mandate these three 
best practices that you have all heard before: qualified 
teachers, individualized curriculum and transition. These are 
the three best practices areas, but again, that is something 
that is going to have to be evaluated.
    And I see I have already overdone my time, sorry.
    [The statement of Mr. Blomberg follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    Chairwoman McCarthy. Not bad.
    Our next witness, Ms. Brooke, and thank you for being here.

 STATEMENT OF LINDA BROOKE, DIRECTOR, GOVERNMENT RELATIONS AND 
    EDUCATION SERVICES, TEXAS JUVENILE PROBATION COMMISSION

    Ms. Brooke. Okay, okay, now I believe I am on, okay.
    I am here today to talk about juvenile justice alternative 
education programs in Texas. We refer to them as JJAEPs. The 
Texas legislature created the concept of JJAEPs in 1995 during 
an extensive rewrite of our Texas education code.
    The legislative intent was for the JJAEPs to provide a 
quality alternative education setting for expelled youth that 
would focus on discipline, behavior management and academic 
achievement. This legislation that created JJAEPs mandated a 
separate educational setting to ensure a safe and protective 
classroom through the removal of dangerous and disruptive 
students while addressing and resolving the issue of expelling 
youth receiving no educational services during the period of 
expulsions.
    Local juvenile boards in counties with populations over 
125,000 were required to implement and operate JJAEPs. This 
impacted 27 counties, encompassed 283 school districts. These 
counties accounted for approximately 76 percent of the state 
juvenile justice population.
    Some of the requirements that these programs have to follow 
include enabling students to perform at grade level. They must 
operate 7 hours a day, 180 days a year. That is a regular 
school year in Texas. They must focus on the core curriculum of 
English language arts, mathematics, science and social studies 
and finally self-discipline. They must adhere to minimum 
standards set by my agency. They have to maintain instructional 
staff ratios, case worker-to-student ratios and supervision 
ratios.
    They are required to be administered the statewide 
assessment instrument that is used in all public schools in 
Texas, and those scores are attributed back to their home 
campuses. And the importance of attributing those scores back 
to their students' home campuses was to maintain the interest 
of the school districts in what is occurring in those programs 
and their continued interest in the progress of their students. 
They also earn credits for the work that they complete while 
they are attending these programs.
    These programs serve students between the ages of 10 and 
21. We serve approximately 7,000 students in these programs 
annually. These students are primarily classified in three 
categories. They are mandatory expulsions, which are students 
who are required by our Texas education code to be expelled 
from public school for very serious felony-type offenses, 
primarily against person and felony drug offenses and of course 
weapons.
    We also have discretionary expulsions, which is determined 
by the local school districts according to their student codes 
of conduct, and this would include things like misdemeanor drug 
and alcohol offenses and terroristic threat and unfortunately 
serious or persistent misconduct, which is defined by those 
local school districts.
    We also have a category of other students who are students 
who can be ordered by the court into these programs.
    The design and implementation of JJAEPs is determined 
locally primarily through the development of memorandums of 
understanding between the school districts and juvenile boards. 
They vary in size; their capacities vary from 27 per day to 442 
per day. They may be operated solely by the juvenile probation 
department in collaboration with the local school district or 
with a private vendor. In addition to the core curriculum that 
I have spoken about, they also provide other services to 
students in the program: individual counseling, substance 
abuse, service learning projects, mental health evaluations. 
They provide wraparound and family support services also.
    We are also required to measure how these programs are 
performing. We use two primary academic measures. One is, 
again, the state assessment that is administered to all 
students in Texas. And then the second is a pre and post-test 
to see if they are showing some academic gain while they are in 
the JJAEP.
    Another area that we analyze is their behavioral 
improvement. That is what got them into the programs was 
behavior, and we certainly need to address that. We look at 
programs' overall attendance, and we also look at once they 
complete the program and return to the public school system, 
behaviorally have their referrals for behavioral incidences 
declined.
    We also look at re-contact rates to the juvenile justice 
system. And once they leave, we measure that for a 6-month 
period after they leave the program in a year.
    The Texas legislature has made bold changes to the juvenile 
justice system and the Texas public education system by 
assuring that no child falls out of the educational system. The 
key to the successful implementation is local cooperation and a 
seamless system where students are not allowed to fall between 
the cracks. Ultimately, the juveniles served in these programs 
benefit by being served in this unique educational setting.
    My time is up, and I will stop there. Thank you.
    [The statement of Ms. Brooke follows:]

Prepared Statement of Linda Brooke, Director, Government Relations and 
   Education Service, Juvenile Justice Alternative Education Programs

    The Texas Legislature created the concept of juvenile justice 
alternative education programs (JJAEP) in 1995 during an extensive re-
write of the Texas Education Code (TEC). This new educational placement 
was created to serve the educational needs of juvenile offenders and 
at-risk youth who are expelled from the regular classroom or the school 
district disciplinary alternative education program (DAEP). The 
legislative intent was for JJAEPs to provide a quality alternative 
educational setting for expelled youth that would focus on discipline, 
behavior management and academic achievement.
    The 1995 legislation that created JJAEPs mandated a separate 
educational setting to ensure safe and productive classrooms through 
the removal of dangerous and/or disruptive students while addressing 
and resolving the issue of expelled youth receiving no educational 
services during the period of expulsion. Prior to the creation of 
JJAEPs, disruptive and dangerous students either remained in the 
classroom or were expelled to the street. Thus, the State of Texas had 
a critical interest in ensuring safe classrooms for teachers and 
students while providing educational services in an alternative setting 
for expelled students.
    Local juvenile boards in counties with a population over 125,000, 
as determined by the 10 year census, were required by law to implement 
and operate JJAEPs. The twenty-seven JJAEP counties encompass 283 
school districts. These counties accounted for approximately 76% of the 
State's juvenile age population. Texas has many fast growing counties 
and anticipates after the 2010 Census as many as six additional 
counties will be required to begin the operation of JJAEPs.
Funding
    The funding mechanism for JJAEPs differs in part from the funding 
mechanism in place for the public schools in Texas. JJAEPs are funded 
primarily through county tax revenues that flow through school 
districts and county commissioner's courts along with state 
appropriations that flow through Texas Education Agency (TEA) and the 
Texas Juvenile Probation Commission (TJPC). Public schools are funded 
through county tax revenues, state general appropriation funds and 
federal funds.
    TJPC provides funding to local juvenile boards on a per diem basis 
for students who are mandated by state law to be expelled and placed 
into the JJAEP. The juvenile board and the school districts in a county 
jointly enter into a memorandum of understanding (MOU) regarding the 
cost of those students expelled at the discretion of the school 
districts and non-expelled (court ordered) students who may attend the 
JJAEP. Local school districts may provide funds and/or in-kind services 
to the JJAEP as agreed upon in the MOU.
    In addition to those counties mandated to operate JJAEPs, Texas has 
a method by which other counties may voluntarily choose to establish a 
JJAEP. These programs may be funded through a combination of TJPC 
grants to local juvenile probation departments and through funding 
provided by local school districts.
Statutory Requirements
    Section 37. 011 of the Texas Education Code (TEC) primarily governs 
the programmatic parameters of JJAEPs. The main academic and 
programmatic standards that must be followed by all JJAEPs are 
highlighted below.
    <bullet> The statutorily established academic mission of the JJAEP 
is to enable students to perform at grade level pursuant to TEC Section 
37.011(h);
    <bullet> JJAEPs are required to operate seven hours a day for 180 
days a year pursuant to TEC Section 37.011(f);
    <bullet> JJAEPs must focus on English / language arts, mathematics, 
sciences, social studies and self-discipline but are not required to 
provide a course necessary to fulfill a student's high school 
graduation requirements pursuant to TEC Section 37.011(d);
    <bullet> JJAEPs must adopt a student code of conduct pursuant to 
TEC Section 37.011(c);
    <bullet> The juvenile board must develop a written JJAEP operating 
policy and submit it to TJPC for review and comment pursuant to TEC 
Section 37.011(g);
    <bullet> JJAEPs must adhere to the minimum standards set by TJPC 
and found in Title 37, Texas Administrative Code (TAC) Chapter 348 
pursuant to TEC Section 37.011(h) and Texas Human Resources Code (HRC) 
Section 141.042(6). JJAEPs are required by these standards to have one 
certified teacher per program and an overall instructional staff-to-
student ratio of no more than 1 to 24. Additionally, the operational 
staff-to-student ratio is required to be no more than 1 to 12;
    <bullet> The juvenile board or the board's designee shall regularly 
review a JJAEP student's academic progress. For high school students, 
the review shall include the student's progress toward meeting high 
school graduation requirements and shall establish a specific 
graduation plan per TEC Section 37.011(d); and
    <bullet> All students enrolled at the JJAEP are also administered 
the statewide assessment instrument and those scores are attributed 
back to the student home campus as if the student were enrolled at the 
home campus. This provision was put into place to ensure school 
districts retained interest in their students and interest in the 
quality of the program.
JJAEP Student Population
    As defined, JJAEP students are not in regular classrooms, but would 
otherwise be expelled to the street. Students served in JJAEPs have 
been expelled from their home school campus, have been placed into the 
program as a requirement of supervision by the juvenile court or have 
been placed by a local agreement. These programs serve students between 
the ages of 10 to 21. During the 2006-07 school year, approximately 
7,000 individual students were served in these programs.
    The student population served by JJAEPs fall into two basic 
categories: expelled students and non-expelled students who are 
referred to as other. Expelled students include those students who are 
required to be expelled under Texas Education Code (TEC) Section 37.007 
and those who are expelled at the discretion of local school district 
policy.
    A mandatory expulsion occurs when a student has been expelled 
pursuant to TEC Section 37.007(a), (d), or (e). The Code mandates 
school districts to expel students who engage in specific serious 
criminal offenses including violent offenses against persons, felony 
drug offenses and weapons offenses. To be designated as a mandatory 
expulsion, offenses must occur on school property or at a school-
related function. The mandatory expulsion offenses are listed below.
    <bullet> Felony Drug Offenses
    <bullet> Weapons Offenses (includes expulsion for a non-illegal 
knife)
    <bullet> Aggravated Assault
    <bullet> Aggravated Sexual Assault and Sexual Assault
    <bullet> Aggravated Robbery
    <bullet> Arson
    <bullet> Indecency with a Child
    <bullet> Retaliation Against School Employee or Volunteer*
---------------------------------------------------------------------------
    *Regardless of location.
---------------------------------------------------------------------------
    <bullet> Murder or Attempted Murder
    <bullet> Manslaughter and Criminally Negligent Homicide
    <bullet> Aggravated Kidnapping
    A discretionary expulsion occurs when a school district chooses to 
expel a student for committing an offense or engaging in behavior as 
described in TEC Section 37.007(b), (c), and (f). Some discretionary 
expulsions may occur in a regular classroom, on a school campus or at a 
school related event while serious or persistent misbehavior may only 
occur in a school district's Disciplinary Alternative Education Program 
(DAEP). Unlike mandatory offenses, specific discretionary offenses are 
not required to have been committed on school property or at a school-
related function.
    Those offenses for which expulsion is discretionary are listed 
below.
    <bullet> Serious or Persistent Misbehavior
    <bullet> Any Mandatory Offense within 300 feet of school campus
    <bullet> Aggravated Assault, Sexual Assault, Aggravated Robbery, 
Murder or Attempted Murder occurring off campus against another student
    <bullet> Misdemeanor Drug and Alcohol Offenses
    <bullet> Assault on a teacher or employee
    <bullet> Felony Criminal Mischief
    <bullet> Deadly Conduct
    <bullet> Terroristic Threat
    <bullet> Inhalants
    <bullet> Title V felony offenses (Offenses Against Person) whether 
they occur on or off school property
    Other students include non-expelled students who are ordered to 
attend the JJAEP by a juvenile court judge or who attend the JJAEP 
under an agreement with the local school district as authorized by TEC 
Section 37.011. Not all JJAEPs serve non-expelled students. JJAEPs that 
do serve other students include provisions in the local memorandum of 
understanding between the juvenile board and school district detailing 
which students may be served and how the placement will be funded.
Program Design
    The design and implementation of JJAEPs is determined locally 
primarily through the development of a memorandum of understanding 
(MOU) between the school district and juvenile board. While the 
juvenile board is the entity ultimately responsible for operating the 
JJAEP, most programs have various levels of school district 
participation in programming.
    JJAEPs are required by statute to teach the core curriculum of 
English/language arts, mathematics, science and social studies, as well 
as self-discipline. Attending students earn academic credits for 
coursework completed while attending the JJAEP. The length of time a 
student is assigned to a JJAEP is determined by the school district for 
expelled students and by the juvenile court for other placements. Once 
a student has completed the term of expulsion or their condition of 
probation, the student is transitioned back to his or her home school 
district.
Programmatic Elements
    This section takes a comprehensive look at the programmatic 
components of the JJAEPs operating in Texas.
    Capacity. JJAEPs vary in size according to the needs of the county 
and populations served by the program. The capacity of JJAEPs ranged 
from 27 to 442. JJAEPs must serve all juveniles expelled for a 
mandatory offense. Programs at capacity cannot refuse to accept a 
student expelled for a mandatory offense so most manage their 
population through adjustments to student length of stay and/or by 
limiting the number of discretionary and other students accepted into 
the program.
    Program Operator. JJAEPs may be operated solely by the local 
probation department, or in collaborations with a local school 
district, or a private vendor. The county juvenile board, however, 
makes the official determination of how a JJAEP will be designed and 
operated. This decision is based on a variety of factors, most 
important of which is the memorandum of understanding with the school 
districts in the county. Other factors that may influence the choice of 
the program operator are available resources, programmatic components 
and needs of the local community and school districts. Regardless of 
who operates the program, JJAEPs must conform to all juvenile probation 
and educational standards set out in Title 37 Texas Administrative Code 
Chapter 348 and the Texas Education Code, Section 37.011.
    Program Format. JJAEPs characterize their program format into one 
of three basic categories: therapeutic, traditional school or military-
style. Therapeutic models place a heavy emphasis on counseling and 
behavior management, often using on a cognitive skills curriculum. 
Traditional school models are patterned after a regular, independent 
school district setting. A military-component includes one or more of 
the following components: drill instructors, physical training, and/or 
military-style discipline, drill and regiment.
    In addition to the core courses all programs provide additional 
services to students which may include individual counseling, life 
skill training, drug/alcohol prevention/intervention, substance abuse 
counseling, group counseling, anger management programs, mental health 
evaluation, service learning projects, community service, tutoring or 
mentoring, parenting programs (for students' parents), physical 
training or exercise program, vocational training or job preparation, 
experiential training, wrap around and family support services.
    Program Staffing. JJAEPs are staffed by a variety of professionals 
and paraprofessionals. Programs are required to maintain on instruction 
staff to student ratio of 1:16 preferred and 1:24 maximum; caseworker 
ratio of 1:44 maximum and an overall supervision ratio of 1:8 preferred 
and 1:12 maximum.
Program Measures and Performance
            Academic Measures
    The Texas Legislature requires TJPC to maintain a system of 
accountability for JJAEP performance.
    Two academic areas are measured and three behavioral areas are 
measured.
    Texas requires that all students enrolled in a JJAEP be 
administered the assessment instrument utilized in all public schools, 
the Texas Assessment of Knowledge and Skills (TAKS). The TAKS measures 
student achievement in reading in Grades 3-9; in writing at Grades 4 
and 7; in English language arts in Grades 10 and 11; in mathematics in 
Grades 3-11; in science in Grades 5, 8, 10 and 11; and in social 
studies in Grades 8, 10 and 11. The Spanish TAKS is administered at 
Grades 3 through 6. Satisfactory performance on the TAKS at Grade 11 is 
a prerequisite to earning a high school diploma.
    Analysis of TAKS results provides one assessment of overall JJAEP 
performance. Since the TAKS is administered annually it cannot measure 
student academic growth while in the JJAEP. During the 2006-07 school 
year student passage rates in the areas of reading and math increased 
over the previous school year, increased almost 20% in reading and by 
19% in math.
    The second academic measure used is the Iowa Test of Basic Skills 
(ITBS) and the Iowa Test of Educational Development (ITED). ITBS 
measures academic growth for students in grades three through eight 
while the ITED measures growth for students in the ninth through 
twelfth grades. The tests are a ``norm-referenced achievement battery'' 
and have been normed with various groups, including racial-ethnic 
representation, public and private school students and students in 
special groups.
    The ITBS/ITED is administered to all students that are enrolled in 
the JJAEP for a period equal to or greater than 90 school days. 
Students are measured for performance levels in reading and mathematics 
at entry to and exit from the program. Students perform a reading 
comprehension and vocabulary evaluation which provides the program with 
a reading total. The mathematics total includes computation, concepts 
and problem solving. Results from the 2006-07 school year indicate that 
for students enrolled 90 school days or longer at the time of their 
exit from the program on average grade equivalency grow in math and 
reading was demonstrated, .39 and .51 respectively.
            Behavior Analysis
    In addition to academic performance, JJAEPs are also assessed on 
several behavioral measures. A goal of JJAEPs is to improve the 
behavior of students who attend the program.
    Attendance rates for students in JJAEPs are used as one measure of 
program success. Maintaining high attendance rates for these programs 
is difficult, the population of youth served in these programs have a 
history of high absenteeism and because these are county-wide programs, 
students are being brought in from across the entire county.
            School Disciplinary Referrals
    Another measure of the behavioral impact of the program is the 
change in school disciplinary referrals for students in JJAEPs before 
and after program participation was analyzed. Students may receive a 
disciplinary referral at a school for a number of reasons.
    A comparison of the average number of disciplinary referrals prior 
to entering the JJAEP and after exit from the program conducted. The 
``before'' period consisted of the two complete six-week periods prior 
to program entry. The ``after'' period consisted of the two complete 
six-week periods after program exit. During the 2006-07 school year, 
student disciplinary referrals declined by 48.4% after returning to 
their regular education program.
Re-contact Rates
    The effectiveness of JJAEPs was also examined by exploring the rate 
of subsequent contact with the juvenile justice system for students who 
attended JJAEPs. Following their exit from the JJAEP, are students 
tracked in the juvenile probation system for two time periods, six 
months and one year. A re-contact is defined as any subsequent formal 
referral to the juvenile probation department regardless of the offense 
or disposition of the case. During 2006-07 school year, 71% of the 
students who returned to their home school upon exiting the JJAEP did 
not have a re-contact within 6 months of their exit, 56% did not have a 
re-contact within one year.
Summary
    The 75th Texas Legislature made bold changes to the juvenile 
justice and to the public education system. Assuring that no child 
falls out of the educational system. The key to successful 
implementation is local cooperation and a seamless system where 
students are not allowed to fall between the cracks. Participants must 
appreciate each other's roles, set aside differences and foster 
communication and cooperation. Ultimately, the juveniles in these 
programs benefit by being served in this unique education setting.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Dr. Cave?

    STATEMENT OF CYNTHIA CAVE, DIRECTOR, OFFICE OF STUDENT 
               SERVICES, DEPARTMENT OF EDUCATION

    Ms. Cave. Good morning, Madam Chair, and also Chairman 
Scott. It is my pleasure to be here today to talk about what we 
are doing in Virginia to support children in alternative 
education and those that are at risk.
    Beginning with the actions of the General Assembly, the 
General Assembly directed the Board of Education to develop 
regional alternative educational programs where two or more 
school divisions can come together and have a place for their 
last-chance kids to go. These are the kids that have violated 
student code of conduct, have been suspended and expelled. They 
have chronic disruptive behavior; they have instances of 
assault, of weapons, of drug and alcohol abuse. It is their 
place to go on a short-term basis to get intensive 
individualized instruction and support.
    The General Assembly mandated that the instructional 
program within these alternative regional educational programs 
had to be extremely rigorous. And so they abide by the Virginia 
Board of Education's Standards of Learning, which are our 
standards of what every child should know, and the children are 
also tested while they are in these programs. In addition, 
these alternative education programs provide career counseling, 
support the kids. There is a low teacher-to-student ratio.
    So that they are extremely structured, we follow up with 
the board reports on their success annually. And we have found 
that behavior improves, that weapons incidents and incidents of 
assault go down and of violence. The testing is not where we 
want it to be, but we have seen that over the period of several 
years, Standards of Learning testing has increased--for them 
the success rate has increased.
    We also noted that in 2007-2008, 84 percent of these kids 
either stayed in the alternative program and graduated or they 
went back to their home schools and completed school. We do 
lose some; some drop out. But we feel as though we have a good 
completion rate and we continue to work.
    Also in our detention programs, the state-operated programs 
are run through my office. We ensure that kids in detention 
still have an academic program that is rigorous and follows the 
Virginia Standards of Learning, and we ensure that we have 
highly qualified teachers.
    Within the state of Virginia, the Department of 
Correctional Education is responsible for the programs for 
kids. We have nine juvenile schools. And voluntarily the 
Department of Correctional Education abides by the Virginia 
Board of Education's Standards of Learning. They abide by their 
accreditation standards, which means they test kids and they 
also have the appropriate staffing ratios and have to follow 
the regs, as Ms. Brooke was discussing.
    Voluntarily, they have increased their Standards of 
Learning assessment success rate from 29 percent to 80 percent 
this year, and that is because they have individualized 
performance analysis for each one of their kids. They have 
highly qualified teachers. They have school improvement 
programs, and they have coaches for their kids. And they work 
in cooperation with us, very close relationship.
    Of course, no matter how well you have you standards, you 
know that the transition from a school division to correctional 
facility or detention and back again is where we lose kids. And 
we found that in Virginia that we had tons of problems; we were 
losing kids. School divisions didn't know they were coming. 
They came back to school; they were lost.
    I have the occasion to talk to kids in detention. And I 
talked to one and said, ``What are you guys do when you come 
back to school?'' And he said, ``I don't know. There is nothing 
at school for me.'' And that is exactly the problem. There is 
no safety net. These kids have been in very structured 
programs. They come back, and they could be lost. There could 
be no academic program planned for them.
    So we got our agencies together--Department of Juvenile 
Justice, Department of Correctional Education and Department of 
Education, court services, and we said--and parents and 
citizens and kids--and said, ``What can we do?'' And we came 
up--Virginia Board of Education promulgated reenrollment 
regulations because the General Assembly mandated that they 
should and because we knew that this was a problem.
    And their key important elements of these reenrollment 
regs--primarily there has to be accountability in each agency 
for getting this job done. There is a transition team at the 
Department of Correctional Education. There is a point person 
who is the principal. At the school division level there is a 
reenrollment team appointed, responsible person, a reenrollment 
coordinator. There is specified timelines for when information 
must be passed between the different agencies. The academic 
record of the child must be maintained at all times. Before 
they return to a school division, there must be an academic 
program and a plan. When they come to the reception and 
diagnostic center from the school division, their record has to 
come with them.
    So because the board enacted these kinds of procedures, we 
have seen a great increase in success rates of kids coming 
back. And just one quick story, we had a 16-year-old who was in 
an alternative ed situation, came to detention because of 
behavioral problems. The detention center built a relationship 
with the home school, got a highly qualified teacher in 
chemistry to work individually with this child so they could 
maintain their credits toward graduation and be successful.
    And what we found was that the kid coming back to school is 
not the kid that went into the detention center, into the 
correctional facility. They change and often they are 
successful. But if school divisions don't realize that, if they 
have no information, if there is no joint communication, if 
there is no relationship between these agencies, then you can't 
build for the success of the child.
    And I see it is time for me to stop, but this is a good 
place to stop.
    [The statement of Ms. Cave follows:]

Prepared Statement of Cynthia A. Cave, Ph.D., Director of the Office of 
           Student Services, Virginia Department of Education

    For the past several years the Commonwealth of Virginia legislative 
and executive branches have been working to establish a strong policy 
and programmatic framework to promote increased high school graduation 
rates, with an emphasis on support for students struggling academically 
and those that are at risk. It is my pleasure to talk with you today 
about these actions.
Alternative Education in Virginia
    Over 1.2 million students are attending public schools in Virginia. 
This number includes 4,002 students who attended one of the 30 regional 
alternative education programs in the 2008 school year. It includes 
approximately 19,000 students who receive classroom instruction while 
serving detention, and students being served by local alternative 
education programs being administered by school divisions (a reported 
15,502 students in the 2005/06 school year). Students serving in 
Juvenile Correctional Facilities and instructed by the Department of 
Correctional Education (DCE) number approximately 800.
    Regional alternative education programs were established by the 
General Assembly through a directive to the Virginia Board of Education 
(the Board) to create educational options for students who have 
violated local school boards' policies, been expelled or suspended on a 
long-term basis, or have returned from juvenile correctional centers. 
Structured to meet individual student needs, they include an intensive 
instructional program with rigorous standards for academic achievement 
and student behavior, counseling, supportive social skills training, 
career counseling, individual student supports from teachers, and 
transition planning for regular school return. The Board reports 
annually on the activities and progress of these programs. Currently 
there are 29 operational programs, with 114 of 133 school divisions 
participating.
    Education in Virginia's detention centers is also the 
responsibility of the Board of Education, administered through the 
Virginia Department of Education's (the Department's) State Operated 
Programs through agreements with school divisions. There are 24 
educational programs staffed with highly qualified teachers who follow 
the Board of Education's regulations and standards for education.
    Alternative and nontraditional educational programs are also 
developed and administered by school divisions for suspended or 
expelled students, or for those students who are not succeeding in 
regular instructional programs. A survey of school division programs 
for disciplined students, conducted by the General Assembly' s 
Commission on Youth in 2006, indicated that more than half of the 126 
responding school divisions offered these students some educational 
services.
    Each local school division with a regional or local jail in its 
jurisdiction is responsible for the provision of special education and 
related services to all eligible students incarcerated in the jail for 
more than ten days. Local school divisions are reimbursed for the 
instructional costs of providing required special education and related 
services to students with disabilities in regional or jails through the 
Virginia Appropriation Act adopted by the General Assembly.
    Students in Juvenile Correctional Centers continue their education 
while incarcerated through the Department of Correctional Education, 
which functions as an independent school district with a separate board 
which works in cooperation with the Department of Corrections, the 
Department of Juvenile Justice, and the Department of Education. There 
are nine Juvenile Schools, which voluntarily follow the Board of 
Education's regulations for academic standards, accreditation, and 
educational programs.
Policies, Regulations, and Laws
            Re-enrollment Regulations
    The transitions from a school to a detention center or juvenile 
justice facility and back to a local school can result in lost academic 
progress, disengagement from school, and less resilience to risk 
factors. In 2006 the Board of Education enacted regulations to address 
re-enrollment of students into public schools after they had been in a 
detention or a juvenile justice correctional center. The General 
Assembly through the Code of Virginia required that the regulations be 
promulgated, with the cooperation of the Board of Correctional 
Education. The purpose of the regulations are to foster coordination 
and communication among court services units, school divisions, 
detention centers, juvenile correctional centers, the family, and the 
student in planning for the release of a student and his or her 
educational needs. The regulations address consistency in curricula, 
standards, and policies among the educational programs, timely transfer 
of information, and individual student plans.
    The regulations were developed through the work of a 16 member task 
force, including parents and citizens, principals from general public, 
alternative, detention, and Department of Correctional Education 
schools, parole officers, a school division central office 
administrator, and representatives from the Departments of Education, 
Correctional Education, and Juvenile Justice. Their implementation was 
supported through statewide institutes, presentations, and training for 
all stakeholders and the appointment of a responsible coordinator for 
each state agency. A follow-up survey conducted in 2008 to assess the 
process indicates that the procedures put in place by the regulations 
are being followed with no major problems.
    One noted result of the regulations has been the building of a 
deeper understanding of the released student by the receiving school 
division, and adequate time to prepare for his or her enrollment, 
educational program, and support. As one DCE principal has stated, 
``the student who left the home school is often not the same person who 
is returning.'' Because of enhanced communication between personnel in 
juvenile detention and correctional centers and school division staff, 
transitional plans for continuation of progress and success can be 
made, based on student need and with the student's participation.
Standards of Learning
    Within the Virginia Board of Education's Comprehensive Plan are 
goals and objectives that focus on eliminating the achievement gap 
between groups of students, support accountability for all schools and 
school divisions, and adamantly proclaim that ``all of Virginia's 
children--regardless of their personal circumstances--must have the 
school environment, the resources, and the teachers to help them be 
successful at school.''
    The Board has set curriculum standards for what every child should 
know in every grade through the adoption of rigorous Standards of 
Learning for Virginia Public Schools for academic subjects. Student 
achievement is measured through annual assessments based on these 
standards for elementary and middle school grades and high school 
courses. The assessments and the analysis of results are part of the 
state's accountability system for No Child Left Behind, as well as the 
Board's school accreditation standards.
    Students take Standards of Learning assessments in regional 
programs, in detention educational programs, and in juvenile 
correctional facilities. Students who are enrolled in a school division 
and placed in a local alternative education program are required to 
take these tests. The alignment of what is taught in these settings 
with the Standards of Learning is a priority at the state level.
    For example, the Department of Correctional Education recently made 
fundamental changes to their educational programs that include 
instructional coaches, comprehensive school improvement plans, and 
individual student academic performance analysis. The changes are 
credited with bringing the average Standards of Learning scores for the 
agency to close to 80 percent, from a beginning point several years ago 
of 29 percent.
    Another illustration of the difference that adherence to standards 
makes in Virginia detention education programs involves a 16-year-old, 
referred for discipline reasons from an alternative education program. 
The center employed a highly qualified local chemistry teacher to work 
with the student individually for several hours per week in order for 
him to keep pace with his home school class and earn the credits 
necessary to count towards graduation.
Standards of Accreditation
    The Code of Virginia also specifies that the Board of Education 
shall enact regulations for accrediting schools, which include 
requirements for instructional programs, course and credit requirements 
for graduation from high schools, and student outcome measures. The 
Standards of Accreditation were revised through an administrative 
process that was final in February of this year, and included the 
following:
    (1) the incorporation of a graduation and completion rate for 
individual schools into Virginia's accountability system; and (2) the 
requirement of an Academic and Career Plan for all students, beginning 
in middle school. With the new regulations, a Graduation and Completion 
index will be calculated for every school, based on the number and type 
of student school completions, and will become part of the 
accreditation process with a five-year phase in process. Consideration 
of the Academic Career Plan was requested from Governor Timothy M. 
Kaine through a letter to the Board of Education President Dr. Mark E. 
Emblidge. The requirement will become effective with seventh graders in 
2010-2011. Both of these provisions reflect the Board's emphasis on a 
quality education for every child and youth in the state, regardless of 
placement.
Studies of Alternative Education, Dropout Prevention, and Truancy
    For the past three years, the General Assembly's Commission on 
Youth has undertaken two major studies that impact students who have 
been long term suspended or expelled, those who are risk of dropping 
out, and those who consistently do not attend school. The studies have 
addressed the availability of alternative education, dropout 
prevention, and truancy. Undertaken with the participation of 
stakeholder advisory groups, the studies have resulted in 
recommendations for proposed legislation and suggested practices and 
technical assistance for school divisions.
    A Guide to Local Alternative Education Options for Suspended and 
Expelled Students in the Commonwealth was completed by the Commission 
in 2008, based on a survey of school divisions conducted with the 
Virginia Department of Education. The 2009 legislative session resulted 
in the passage of a bill stemming from the Commission's work, which 
prohibits the suspension of students for instances of truancy only. It 
has been signed by the Governor.
Best Practices and Prevention
    Implementation of policies, regulations, and laws through the 
provision of technical assistance to school divisions is a 
responsibility of the Virginia Department of Education. Under the 
leadership of the Superintendent of Public Instruction, Dr. Patricia I. 
Wright, the Department's goal is to strengthen school divisions by 
providing technical assistance through model programs, guidelines and 
strategies, and access to resources. As part of this responsibility, 
the Department provides ongoing assistance in areas such as school 
improvement, instruction, truancy prevention, student assistance 
programs, effective schoolwide discipline, and dropout prevention.
    Currently 158 schools in 36 school divisions are working directly 
with the Department on a voluntary basis to implement effective 
schoolwide discipline. The Department receives applications from 
schools, reviews them for school readiness, and provides technical 
assistance to the schools to help them in planning and implementation.
    Principals of these schools have testified to their success as 
measured by reduced disciplinary incidents, improved attendance, and 
improved school climate.
    In October, 2008, the Department, in partnership with America's 
Promise, held a statewide dropout prevention summit for all sectors--
business, nonprofit, service, state and local government, and public 
schools. The summit featured best practices in student and family 
engagement, policy development, community and business partnerships, 
and educational strategies for keeping at risk students in school. 
State and national models for nontraditional programs were featured, 
including those which focused on individualized assistance to students 
who fall behind in school due to student code of conduct infractions, 
behavioral problems, poor attendance, repeated grades, lack of academic 
success, and inability to recover necessary credits for graduation. A 
recurring theme was the use of indicators to capture ``signals'' that a 
middle school or high school student may be at high risk of dropping 
out and to intervene early with individual support.
    A system of early identification and monitoring individual student 
progress over time requires an information system that provides data to 
track students. The Virginia Department of Education has developed the 
Educational Information Management System to provide unique identifiers 
to each Virginia public school student. Using this system, the 
department is developing and piloting a tool with four school divisions 
to identify students leaving the 8th grade who may be at risk for not 
graduating. Early identification opens the door for intervention for a 
student while he or she is still in the regular school classroom.
Conclusion
    Thank you for this opportunity to provide information about the 
Commonwealth of Virginia's educational system. Actions by the Governor, 
the Virginia Board of Education, the Virginia General Assembly's 
Commission on Youth, and the Virginia Department of Education have 
resulted in policies and practices to promote academic excellence and 
achievement through prevention, early intervention, quality 
instruction, and individualized planning to address diverse learning 
needs of all students.
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much.
    Dr. Whitmore?

        STATEMENT OF ROBERT WHITMORE, CEO, MANITO, INC.

    Mr. Whitmore. I would like to thank Chairwoman McCarthy and 
ranking member, Mr. Platts, and Chairman Scott and ranking 
member, Mr. Gohmert, for holding this hearing and the 
opportunity to testify before you today.
    I am the CEO of Manito, Inc., a private, non-profit 
organization based in Pennsylvania. I began my career as a 
juvenile probation officer in Pennsylvania, and I have worked 
with at-risk adolescents in alternative settings for 36 years.
    Thirty years ago, a colleague and I wrote a federal grant 
and initiated a day treatment program for court adjudicated 
youth, with the hope of keeping them in the community and in 
their family settings. Today, Manito operates programs in 11 
counties in Pennsylvania and West Virginia and on a daily basis 
serve over 600 students.
    Most students placed in alternative education settings are 
failing in the traditional public school setting due to a 
complexity of behavioral, social and mental health issues. All 
the students who enter Manito alternative education centers 
have violated one of the defined offenses under Pennsylvania 
disruptive youth guidelines: violation of school policies, drug 
possession, weapon possession, disruptive behavior or defiance, 
and truancy.
    The placement time is usually a short duration of 6 months 
to a year. Their presenting issues are multifaceted and 
complex. Many can be described as having difficult temperaments 
and are slow to read nonverbal social cues in others and 
struggle with interpersonal relationships. They are more 
sensitive to changes in their environment, are more volatile 
and are more at risk for impulsive reactions. These children 
have the greatest problems adjusting to public school, and they 
often become a frequent flyer in the juvenile justice system.
    Specifically, they are the students who are experimenting 
with drugs and alcohol; students who have poorly developed 
social skills that frequently result in aggression, violence 
and irresponsible decision making; students who are 
experiencing mental health issues of being oppositionally 
defiant, attention deficits or conduct disorders; and students 
who exhibit learning disabilities and are several years behind 
in grade level. They have lost all interest in attending 
school, complying with school rules or performing well 
academically.
    Many of these are living--as students are living in 
poverty, living in communities plagued with violence on the 
streets, coming from families where family role models are or 
have been in prison and have parents who are addicted to drugs 
and alcohol. Students bring all these social and behavior 
issues with them into the alternative setting in which they are 
placed. These behavioral issues often act as an impediment to 
the student being able or even willing to learn.
    Our first priority is to address the complicated and 
interwoven social and behavior issues by providing an array of 
services that include social skills development, life skills 
and career education, service learning projects, mental health 
counseling and academic instruction. Our education programs 
focus on basic reading, writing, math and credit recovery.
    During my 30 years of professional experience working with 
at-risk youth, I have seen an erosion of respect for other 
individuals, a decline in acceptance of authority and 
organizational structures, a deterioration in the social bonds 
of communities and families and an increase in the severity of 
personal issues and needs. I have also seen a reluctance of the 
people responsible for solving these problems to develop 
solutions that are focused on saving our children. We continue 
to work within categorical silos that shift responsibility for 
funding our education and social services between agencies. 
Many times the needs of our children get ignored in this 
process.
    The question placed before us is are at-risk youth missing 
out on educational opportunities while in foster care, juvenile 
justice facilities, alternative education settings and other 
environments. These students began missing out on educational 
opportunities in our traditional public schools due to their 
inability to deal with the issues that they experience. In 
reality, the public school system alone does not have the 
resources to address these issues.
    Our children involved in alternative settings within the 
juvenile justice and foster care systems need alternative 
education environments that can provide consistency in services 
and address their needs. Our financial resources and our work 
efforts at the local level should be combined into one 
collaborative, seamless system that can deliver services to 
children.
    Services can be delivered to students based on an 
assessment of their risk and protective factors and 
interventions provided based on the need level identified. 
These integrated services should be provided as part of a 
school-wide service system. By combining our resources and 
focus, our children, our schools and our communities will 
benefit.
    Thank you.
    [The statement of Mr. Whitmore follows:]

   Prepared Statement of Robert C. Whitmore, D.Ed., CEO, Manito, Inc.

    I would like to thank Chairwoman McCarthy and Ranking Member Mr. 
Platts of the Healthy Families and Communities Subcommittee and 
Chairman Scott and Ranking Member Mr. Gohmert of the Crime Terrorism, 
and Homeland Security Subcommittee for holding this hearing and the 
opportunity to testify before you today.
    My name is Bob Whitmore. I am the CEO of Manito Inc, a private non-
profit organization based in Pennsylvania. I began my career as a 
Juvenile Probation Officer in Pennsylvania, and I have worked with at-
risk adolescents in alternative settings for 36 years. Thirty years 
ago, a colleague and I wrote a federal grant and initiated a Day 
Treatment program for court adjudicated youth, and today we operate 
programs in 11 counties in Pennsylvania and West Virginia and serve 
over 600 students on a daily basis.
    Most students placed in alternative education settings are failing 
in the traditional public school setting due to a complexity of 
behavioral, social and mental health issues. All of the students who 
enter Manito alternative education Centers have violated one of the 
defined offenses under Pennsylvania disruptive youth guidelines 
(violation of school policies, drug possession, weapon possession, 
disruptive behavior or defiance, truancy). The placements time is 
usually a short duration of six months to a year. Their presenting 
issues are multi-faceted and complex. Many can be described as having 
difficult temperaments and are slow to read nonverbal social cues in 
others and struggle with interpersonal relationships. They are more 
sensitive to changes in their environment, are more volatile, and are 
more at risk for impulsive reactions. These children have the greatest 
problems adjusting to school, and they often become a frequent flyer in 
the juvenile justice system.
    Specifically, they are the students who are experimenting with 
drugs and alcohol; students who have poorly developed social skills 
that frequently result in aggression, violence, and irresponsible 
decision making; students who are experiencing mental health issues of 
being oppositional defiant, attention deficit, or conduct disorder; and 
students who exhibit learning disabilities and are several years behind 
in grade level. They have lost all interest in attending school, 
complying with school rules, or performing well academically. Many of 
these are living in poverty, living in communities plagued with 
violence on the streets, come from families where family role models 
are or have been in prison, and have parents who are addicted to drugs 
and alcohol. Students bring all of these social and behavioral issues 
with them into the alternative setting in which they are placed. These 
behavioral issues often act as an impediment to the student being able 
or willing to learn.
    Our first priority is to address the complicated and interwoven 
social and behavioral issues by providing an array of services that 
include social skills development, life skills and career education, 
service learning projects, mental health counseling, and academic 
instruction. Our education programs focus on basic reading, writing, 
math, and credit recovery.
    Successful alternative education settings share common 
characteristics.
    1. Educational programs are diverse and based on student needs and 
interests;
    2. The program has caring and demanding staff who create a 
nurturing family environment;
    3. Creative instructional approaches are used that are based on 
assessments of student needs and connect with all learning styles;
    4. There is a small staff to student ratio;
    5. There are counseling and social services available to assist 
students and their families;
    6. The program has clear rules that are fairly and consistently 
utilized and establishes high standards for behavior, attendance and 
performance.
    During my more than 30 years of professional experience working 
with at-risk youth I have seen an erosion of respect for other 
individuals, a decline in acceptance of authority and organization 
structure, a deterioration in the social bonds of communities and 
families, and an increase in the severity of personal issues and needs. 
I have also seen a reluctance of the people responsible for solving 
these problems to develop solutions that are focused on saving our 
children. We continue to work within categorical silos that shift 
responsibility for funding our education and social services between 
agencies. Many times the needs of our children get ignored in this 
process.
    The question placed before us is ``are at-risk youth missing out on 
educational opportunities while in foster care, juvenile justice 
facilities, alternative education settings and other environments.'' 
These students began missing out on educational opportunities in our 
traditional public schools due to their inability to deal with the 
issues these children experience. In reality the public school system 
does not have the resources to address these issues. Our children 
involved in alternative settings within the juvenile justice and foster 
care systems need alternative education environments that can provide 
consistency in services and address their needs. Our financial 
resources and our work efforts should be combined into one system that 
can deliver educational, behavior health, public health and social 
services to children through one integrated and seamless process. 
Services can be delivered to students based on an assessment of their 
risk and protective factors and interventions provided based on the 
need level identified. These integrated services should be provided as 
part of a school wide service system. By combining our resources and 
focus, our children, our schools and our communities will benefit.
    Thank you.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Dr. Whitmore.
    Mr. Dixon?

 STATEMENT OF LEONARD DIXON, EXECUTIVE DIRECTOR, WAYNE COUNTY 
                  JUVENILE DETENTION FACILITY

    Mr. Dixon. Madam Chairman, thank you for allowing me to be 
here. I would like to also thank my county executive for paying 
for me to come here----
    [Laughter.]
    Which is a major piece.
    One of the things that I want to do is--you have my 
record--is I have come from the bottom of the system to the 
top, which means that I started as a line worker to a state 
director, and I had an opportunity to see everything in between 
in these, you know, 29-plus years. And I have traveled across 
this country and had an opportunity to see the good, the bad 
and the ugly of what goes on in our system. And I find myself 
wondering how did we get here.
    And the question to me is always if it was our children in 
these systems, what would we do to make things better for them. 
I worked in Florida, and I worked doing the Bobby M., you know, 
system, doing the Bobby M. time, and it was a good experience 
when someone else comes in and looked at your system. The issue 
really becomes, in my mind, do we have the political will to 
tackle a lot of the problems that we see with our young people 
and the cost that is attributed to that.
    What we do in Wayne County, I think we have one of the best 
systems that I have been able to be associated with. And one of 
the reasons why that is, is because we look at kids from a 
holistic approach. We triage kids who come into the detention 
facility. Because what we have found is that we have kids who 
have mental health issues, medical issues and health issues. 
And if a kid is hungry, can't see and in pain, it is going to 
be very difficult to educate them.
    And I think we have to look at those things that are going 
on in our communities. The statistics, again, it is in the 
testimony, and I won't go through that now. But our data has 
been very good on kids not returning into the system or either 
not moving up to the next level, because we know that the next 
level is going into the adult system. And when they go into the 
adult system, the question really becomes are we really 
concerned about how much we spend because we know it costs much 
more to house a person in the adult system after they have left 
the juvenile justice system.
    And so the issue is what are we doing about the prevention 
measures. When kids are coming to school--we talk about zero 
tolerance, and what I have found is that zero tolerance is 
really, without being politically correct, a lazy person's way 
of not wanting to work with kids. And we have to understand 
that. We have to put a lot of effort into working with these 
children. And I am concerned because of my own children and 
making sure that they have a place that is safe, because what 
happens with our kids and what we don't do affects everyone in 
this room--from my insurance rates to our school, our taxes and 
the whole nine yards. And I think we have to be concerned about 
that.
    The reason I am passionate about this is that I have been 
able to see a lot. And one of the things that we have to do 
when we are talking about--we have the funding. No one wants to 
talk about funding these programs properly. And if you are 
going to do it, we are going to have to have programs funded to 
the point where we can look at the medical issues that are 
happening with kids.
    I have kids that come into my institution that can't see. 
So how do we expect for them to learn if they can't see? I have 
kids who come into my institutions who have--those that have 
not seen a dentist in the time that they have been on this 
earth.
    A quick story, we had a young man to come into our 
institution. He got into fights all the time. The kids used to 
have names for him. When we fixed his teeth, do you know that 
the kid never got into another fight after that? That is what 
we are talking about here, is really looking at the kids as we 
look at our own kids. And we would not look at what it was 
costing first when we are looking at our kids; we would look at 
what is the best system for our kids, then we would look at the 
other part of it.
    And I think we have it backwards. We need to look at how 
are we going to spend our money, but is it good money being 
spent to turn these kids around and to reduce the recidivism 
rates and things that are happening, you know, in our systems. 
And I think that is one of the things that we have to do.
    [The statement of Mr. Dixon follows:]

      Prepared Statement of Leonard B. Dixon, Executive Director,
             Wayne County, MI, Juvenile Detention Facility

    I am Leonard B. Dixon, Past President of the National Juvenile 
Detention Facility. I am also a member of the American Correctional 
Association and the Council of Juvenile Correctional Administration and 
the Executive Director of the Wayne County Juvenile Detention Facility 
in Detroit, Michigan. I want to thank Chairwoman McCarthy, Chairman 
Scott, and Ranking Members Representative Platts and Representative 
Gohmert for inviting me here today, and thank this body for the 
opportunity to testify before you today. My topic for this short 
discussion are my views on--``Lost Educational Opportunities in 
Alternative Settings.'' On behalf of Wayne County Executive Robert A. 
Ficano I would like to thank you again for this opportunity.
    At the Wayne County Juvenile Detention Facility, upon admission 
into the facility, each juvenile is sent through a battery of tests. 
These tests are uses to assess the youth's mental and physical health, 
as well as other issues, like substance abuse. These assessments are 
made prior to the youth seeing a jurist or a magistrate. Critical to 
the successful outcome of their time in the detention facility and to 
success in their home, community or alternative setting is the 
identification of problems that contribute to a delinquent lifestyle. 
Juveniles receive medical and substance abuse assessments within the 
first 24 hours of admission and the findings of the evaluations are 
placed into the juvenile's court record. Referrals for needed services 
that are derived from the measurements are provided at the time of 
their entry into the system. Educational assessments are made by the 
charter school staff to support the development of individualized 
learning plans for each child remaining in detention after the first 48 
hours of their admission to the facility.
    Psychosocial and preliminary plans of services needed are prepared 
by social workers to support family involvement when it is the best 
interest of the juvenile. Additionally the family dynamics are 
evaluated to assess whether or not they are detrimental to the 
juvenile's well being. These services and the swiftness in which they 
are implemented are unprecedented in most of the other 3,257 short-term 
secure juvenile detention and correctional facilities. In fact, they do 
not provide a holistic approach of care for detained youth.
    With the increase in the arrest rate for females and young juvenile 
offenders, the composition of violent offenders in the juvenile system 
has changed. It is critical to the juvenile's future that these and 
other assessments are conducted expeditiously. The juvenile in a 
detention setting is in crisis and his or her needs must be addressed 
promptly, before a decision is made to return him or her to the 
community. These evaluations such as the ones previously mentioned also 
assist families in identifying community-based resources designed to 
service the identified needs of the juvenile and oftentimes of the 
family as a whole.
    The Wayne County Juvenile Detention Facility, (WCJDF) is a 
multidisciplinary facility in that we service the needs of the whole 
child. In the area of education, we have an on-site charter school that 
is accredited by the State of Michigan. The school operates six and a 
half hours per day, five days a week and half-day sessions on 
Saturdays. All juveniles are assessed for their educational functioning 
in mathematics, reading and language arts. A self-assessment of the 
juvenile's learning style, interest levels, and personality 
characteristics is also administered. This assessment process also 
attempts to identify the special learning needs and/or services of 
youth who qualify for the Individuals with Disabilities Education Act 
(IDEA).
    Qualified teaching staff implements all educational evaluations 
that are conducted in the Blanch Kelso Bruce Academy, charter school at 
the WCJDF. After school educational assistance is provided for youth 
functioning below their grade levels on Monday through Thursday, 
totaling eight hours per week, a general GED program is also made 
available for eligible students.
    The core components of the educational services that are offered 
include courses in reading, mathematics, science, english, grammar and 
physical education/health. The school also has an on-site library for 
student use that is funded by Wayne County. Residents who reside in the 
facility for periods in excess of two weeks will have progress reports 
prepared and made available to parents, case workers/managers and 
school officials. Report cards are also prepared and made available to 
the home school of any juvenile that receives on-going educational 
services for a grading period of nine weeks in the facility. The most 
recent data for the school period from September 2007 to June 2008 that 
of the 294 juveniles admitted 237 who were in the facility more than 30 
days showed measurable improvements of 1 to 2 grade levels in the areas 
of Math Computation and Application, English (Writing) and/or Reading.
    After admission, any student who meets the criteria for IDEA is 
assigned to a teacher consultant under the direction of the special 
education director, to ensure continuity in services, between the 
school at the facility and the youth's home school. The process 
includes reviewing and addressing priority goals that are outlined in 
an Individual Education Plan of each student. This information is then 
used to provide access to appropriate educational services and/or 
resources. A complaint raised in many jurisdictions is the inability of 
the education program in the alternative placement (detention and 
correctional facilities) to obtain prior school records for youths. All 
though that is not a major problem in Wayne County, other programs 
around the country often wait months to receive school information or 
not receive it at all. School records are critical in assisting 
teachers and program staff in their decision-making. Youth enter these 
alternative placements with numerous impairments such as:
    1. Cognitive impairments
    2. Emotional impairments
    3. Visual impairments
    4. Learning disabilities such as speech and language impairments
    These disabilities once identified are addressed by the 
institutions and assist in their ability to treat youth in their care. 
Without adequate information from local schools there is a risk of 
youth in detention returning to community schools and being adequately 
prepared for a successful re-entry and become involved in behaviors 
that are detrimental to themselves and the community.
    The staff to youth ratio in the school is threefold: first, there 
is one instructor assigned to each classroom of fifteen students 
(1:15). A teacher's assistant may be assigned to an individual class to 
assist in the execution of instruction with individual students. In 
addition, there is one juvenile detention specialist assigned to each 
classroom to ensure adequate levels of safety and supervision. When 
necessary, there are teacher consultants assigned to specific 
classrooms at the discretion of the Curriculum Director to address the 
facility's special needs children, (IDEA) who attend general education 
classes.
    Currently, a number of juvenile detention centers/facilities 
receive semi-annual allocations/appropriation of funds from the state 
that are consistent with student head count on a single day/point in 
time. It is my belief that this is one cause for the loss of 
educational opportunities in alternative settings. Most centers and 
facilities have fixed bed capacities and the capacity is controlled 
and/or regulated by a judicial system or some other regulatory body. 
With one count being taken on a single day or point in time funding 
usually will not be enough to support the needs of the facility because 
the actual length of any stay in a facility varies.
    Throughout the course of one year's funding, the actual number of 
youth that are served is very easily under-represented. This level of 
under-representation results in inadequate funding, especially for IDEA 
eligible youth.
    WCJDF also has an on-site, 24 hour, seven day a week medical 
program. Juveniles are seen by a registered nurse prior to placement on 
a residential pod and receive a dental screen by a licensed dentist or 
a certified dental assistant within the first 24 to 48 hours after 
initial admission into the facility. Youth receive a full medical 
assessment (initial physical) by a licensed pediatrician during the 
same time frame. All juveniles are checked for the need for mental 
health services within the first 48 hours of admission or sooner if 
they have a history of psychiatric placements or a history of mental 
heath disease. Gynecological services are offered to all females upon 
admission including pregnancy testing and prior to the dispensing of 
any form of medication. Testing for sexually transmitted diseases (STD) 
is provided for both male and female youth.
    Social work and clinical staff conducts numerous assessments with 
the juvenile and identified parent or legal guardian within the first 
week of admission including a psycho-social assessment, preliminary 
service plan and a level one mental health screening. From these tests, 
decisions are made regarding visitation, telephone contacts, 
identification and verification of parents and legal guardians. The 
tests also identify the need for referrals for ancillary services. When 
there are identified gaps in a juvenile's background or no identified 
plan for future services or placements, the facility will conduct what 
we like to call (I-Team) meeting, which is an Interdisciplinary Team 
Decision-Making meeting. All disciplines within the facility meet to 
present their findings on the juvenile and formulate a recommendation 
that can be presented to the juvenile's court-ordered case manager or 
parent/legal guardian. This all-encompassing, holistic approach to the 
housing of juvenile offenders offers the youths a greater chance to 
become a productive member of the society. Any alternative placements 
(detention or correction facilities) should have the following:
    1. an appropriate classification process
    2. adequate health and mental health services
    3. access to the community and legal representation
    4. a variety of programs
    5. adequate training program for staff
    6. a clean and esthetically pleasing environment
    7. adequate restraint, punishment, due process for youth and 
appropriate grievance process
    8. and a safe environment for youth to learn
    Agencies that hold juveniles accountable for their actions and 
provide programming to assist in the development of social skills 
increase the likelihood of success upon their return to the community. 
Youth should be required to make restitution and/or perform community 
service for the damage caused by their delinquent acts such as the 
Balance and Restorative Model used at the WCJDF and the Wayne County 
Department of Children and Family Services Division of Juvenile 
Services , which are both considered national models. This model is 
used as a comprehensive approach for juvenile justice in Wayne County. 
As a result, it has increased inter-agency collaboration and family 
involvement and has helped to reduce the occurrences of juvenile 
delinquency.
    As stated previously, most facilities in the country do not address 
the majority to juvenile's needs. This is due in part to inadequate 
funding and properly trained juvenile justice and educational 
professionals. This is evidenced by the number of juvenile systems that 
are working under consent decrees, memorandums of understandings with 
the courts, and other such judicial orders. Recidivism rates in Wayne 
County are easy to identify based on admission data maintained at the 
juvenile facility. The Wayne County Juvenile Detention Facility records 
show that only 30% of the youth released to the community have been 
readmitted. Creating and funding resources within the communities to 
service our kids after school can further reduce this number. There is 
an old Chinese proverb that says, ``If you are planning for a year sow 
rice, if you are planning for a decade plant trees, if you are planning 
for a lifetime educate people.''
    Detention services generally do not include aftercare. What I have 
found in my 29 years of working with kids is that they want three 
things: a safe environment, caring adults in their lives and a way of 
sustaining themselves (i.e. employment). Youth with access to these 
supportive resources and positive relationships are less likely to 
experience school failure, substance abuse and delinquency, according 
to Scales and Leffert (2004).
    According to the Office of Juvenile Justice Department of 
Prevention, allowing one youth to leave school for a life of crime and 
or drug abuse cost society 1.7 to 2.3 million dollars annually. Based 
on a study done by the California's Nonpartisan Fiscal and Policy 
Advisor these costs are based on the following:
    1. cost to government to operate the criminal justice system 
(police, prosecution, courts, probation, incarceration, parole)
    2. medical costs to individuals and government because of injuries 
suffered due to crime
    3. property stolen or damage resulting from crime
    4. loss of productivity to society because of death, medical and 
mental disabilities resulting from crime
    5. loss of work time by victims of crime and their families
    6. loss of property values in neighborhoods with high rates of 
crime
    7. pain and suffering of crime victims, their families, and 
friends, as well as communities plagued by crime
    8. loss of productive ``citizen'' when a juvenile offender is not 
rehabilitated and continues to commit crimes
    An example of what happens when youth have an adequate support 
system is as followings:
    Eva (fictitious name) was a 16-year-old teen who was admitted to 
the WCJDF after being truant from her residential treatment program. 
While truant she engaged in prostitution in order to survive. Eva came 
from a neglectful family and was in the foster care system prior to her 
life on the streets. She had a distrust of the system from which she 
came, and all adults as she blamed them for her current life 
circumstances. While in the detention facility, she demonstrated her 
anger issues by being non-compliant about rules, and was disengaging 
towards the staff.
    Eva was exposed to the services at the facility at the point of 
admission. This included, medical and dental care, psychosocial 
assessments, mental health services, and educational testing and 
tutorial support. Eva had no family support or involvement. The 
``system'' (staff, social worker, teachers, community worker, etc) was 
her family at this point. Eva began the process of healing, by 
exploring the multiple ``losses'' she encountered over the years. She 
was able, through the assistance of staff/professionals, to make the 
connections between her ``truancy behavior'', (symbolic of 
``searching'' behavior) and the losses in her life. She was supported, 
accepted, and encouraged to focus on herself.
    Eva went on to a residential treatment program in the community to 
continue what she had begun within the detention facility. Today, Eva 
is currently in a local college pursuing a degree in Human Services. 
She has returned to where it began for her--the detention facility to 
begin an internship. She hopes to be able to impact other youths long 
term through working with high-risk teens. She also has a strong desire 
to become involved in public policy regarding the foster care system. 
Eva has taken her adversities and has proven that through guidance, 
support and encouragement anything is possible. Eva's story, which is 
true, is that success that will not be that burden or astronomical cost 
on the system I cited earlier. Adequate resources and good educational 
programs that help youth upfront save resources on the back end of the 
system.
    In my opinion, there is a wide variance between inner city and 
suburban school districts in how they receive and utilize the role of 
law enforcement in the school setting. Suburban and out-county school 
districts continue to rely on programs such as DARE (Drug Abuse 
Resistance Education) and GREAT Programs (Gang Resistance Education And 
Training) that promote pro-social relationships in the community. In 
these communities the police are viewed as resource and support staff 
to the students. In the inner city safety is a critical issue for 
schools. Due to the lack of resources in the communities resource 
programs in schools for students are almost non-existent. In closing, 
John Adams would say, ``Laws for the liberal education of youth, 
especially for the lower classes of people are so extremely wise and 
useful that to a humane and generous mind no expense for this purpose 
will be thought extravagant.''
    I thank you for your time and commitment to this effort and hope 
that we all understand the success we will have as a society when we 
take care the least of thee.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Dixon.
    Ms. Steel?

STATEMENT OF JANEEN STEEL, EXECUTIVE DIRECTOR, LEARNING RIGHTS 
                           LAW CENTER

    Ms. Steel. Thank you, Chairwoman McCarthy, Chairman Scott 
and members of the subcommittee. I want to thank you for this 
hearing on children who are really often forgotten.
    I am here as a founder of the Learning Rights Law Center 
and as the executive director. And here in the audience is the 
cofounder, Ines Kuperschmit.
    Our sole mission is equity in education for all students, 
including students that are in the foster care, juvenile 
justice system and children with disabilities. We are a 
community-based legal services organization, as in my 
testimony, and our programs are aimed at preventing students 
from crossing to foster care system into the juvenile justice 
system as well as any students entering the system because of a 
school failure. I am here also to tell you about myself, 
because when I talk about the children we serve, we are one and 
the same.
    I was raised by a single mother in downtown Hollywood, 
California. My middle school experience was filled with the 
street, drugs and friends, because they were much more 
interesting than school. By high school, education was the last 
thing on my mind, because I knew I was bright but I just 
couldn't do the work. I didn't go to class, and I failed. No 
one ever asked why. So I quit high school and went into an 
alternative setting, at that time an adult school, to finish.
    I lost my 20s to addiction, homelessness because I ended up 
living on friends' couches, and depression. Thankfully, I hit a 
bottom and attended a community college where they diagnosed my 
learning disability. My learning disability includes a reading 
disorder like dyslexia, a writing disorder and ADD. After my 
diagnosis, I learned about the law and my rights to get 
accommodations, and I learned to use my intellect and began to 
access education. After a tremendous amount of hard work, I 
graduated from UCLA law school in 1999 and have dedicated my 
entire life to helping others like myself and those less 
fortunate.
    My life is not different from many of the youth we work 
with. They face far more segregation and isolation than I ever 
did. If I were placed in one of today's alternative schools, I 
wouldn't be here today. Our alternative schools are warehouses. 
They are where society sends children that they just don't want 
to educate. Warehouse is actually too neutral, too generous a 
term for the criminal effect on the individual.
    Foster youth are a particular vulnerable population. One 
foster youth said, ``They think I am crazy. They think I have a 
mental health issue. All I have is a broken heart.'' The 
education and social welfare are too quick to label foster 
youth as disturbed and needing isolation. Foster youth living 
in group homes are systematically placed into alternative 
settings without regard to their right to attend a least-
restrictive public education.
    I met Mary. Mary was a youth with a learning disability who 
lived in a group home, who attended a group home school that 
was located at the same place she lived. She wanted to be a 
singer; she wanted to be in a choir at the public school, but 
she couldn't because they required her and all the other 
children that lived there to attend their school, the on-ground 
school. She was physically restrained over 20 times, once 
because of a hairbrush. She was thrown to the floor and 
restrained with a four-point restraint, meaning adults put her 
on the floor and held her down. She should have never been 
there. When we got involved as advocates, we got her out, and 
she graduated.
    It is unacceptable. The cost to you, to us, was $30,000 for 
a private school paid by public funds. It is unacceptable. Mary 
is not an isolated case. It may sound like it, but it is not.
    Learning Rights works with hundreds of youth that are in 
overly restrictive placements. We can't forget about other at-
risk youth, like Kerry, who is in my testimony. He had an IEP; 
he has special education. He is actually required that he not 
get--he actually was able to walk away when he got into 
trouble. Instead, one time he tried to walk away and a security 
guard grabbed him. He was Tased several times, arrested and 
sent to an alternative school.
    There should be definitely more oversight in alternative 
settings, but our priority should be prevent these at all 
costs, because they shouldn't be there. We shouldn't use public 
money to warehouse students. And in this economy, we should 
definitely think about education and not incarceration. The 
cost far--it is so much different. It is $8,000 to educate, and 
in California, it is upwards of $70,000 when we look at 
detaining youth in the juvenile justice system.
    Thank you.
    [The statement of Ms. Steel follows:]

        Prepared Statement of Janeen Steel, Executive Director,
                       Learning Rights Law Center

    Committee Chairman Miller, Subcommittee Chairwoman McCarthy, 
Subcommittee Chairman Scott and members of the sub committees: I want 
to thank you for this hearing on ``Lost Educational Opportunities in 
Alternative Settings.'' Students who are involved in, or are at-risk of 
involvement in, the juvenile justice or foster care system are entitled 
to an education that is meaningful, challenging and integrated with 
youth not involved in the court system. But this is not occurring.
    Today I sit in front of you as a graduate of UCLA Law School and 
Executive Director of Learning Rights Law Center in Los Angeles, 
California. Learning Rights Law Center's sole mission is to ensure 
education equity and I have represented hundreds of youth who have been 
denied the public education to which they are entitled.
    When I was in middle and high school in Hollywood, California, the 
street, drugs and friends were much more interesting than school. An 
education was the last thing I was interested in because I could not 
seem to be able to do the work. I knew I was bright, but it appeared by 
brain would not work. I ultimately quit high school and went to adult 
school. I was able to get meaningless credits to get my diploma. After 
high school I spent years struggling with addiction, homelessness 
(living with friends) and depression. It was not until I attempted 
community college that my learning disability was finally diagnosed and 
I realized that something wasn't wrong with me, but that I had a 
learning disability. My story is not different from many of the youth 
we work with; in fact, they face far more segregation and isolation 
than I did. If I were placed in one of the alternative schools for my 
truancy and school failures I would not be here today. I was lucky.
Alternative Education Settings
    My discussions will focus on foster youth and at-risk youth who are 
placed in the following alternative school settings:
    1. Continuation schools for youth who are behind in credits;
    2. Community day schools for youth who have disciplinary or 
behavior issues that could include expulsions;
    3. Independent study programs; and
    4. Non-public special education schools.
    The alternative school settings I described are plagued with a 
variety of problems including:
    1. Lack of oversight by the local school boards and state education 
agencies;
    2. Lack of special education services and qualified special 
education teachers for youth with disabilities;
    3. High turnover of teachers and absenteeism; and
    4. Punitive behavior management rather than counseling and 
interventions.
    When we talk about students who are attending alternative school, 
we need understand that the majority are students of color. In 
California, 71% of student in alternative settings are students of 
color and in Los Angeles these rates are higher (``Alternative 
Education Options in California: A view from counties and districts,'' 
McLaughlin, Stanford University, March 2008).
    The students who are placed in these school settings are often 
involved in, or at-risk of involvement in, the juvenile justice system, 
and who have not been properly serviced by the public school system. We 
know that 11% of the school population is eligible for special 
education, yet 35% of the youth in juvenile halls is eligible for 
special education. Research states that ``as many as 70% of 
incarcerated youth suffer from some sort of a disability while 
approximately 90% of youth in corrections meet the diagnostic criteria 
for one or more disabling mental health disorders'' (http://
www.edjj.org/Publications/NCSETIssueBrief--4.1.pdf).
    Since a high percentage of youth in these settings may have 
disabilities, schools should ensure that:
    1. To the maximum extent appropriate, individuals with exceptional 
needs, including children in public or private institutions or other 
care facilities, are educated with children who are nondisabled. 20 
U.S.C. Sec. 1412(5) (A); Cal. Educ. Code Sec. 56040.1(a).
    2. Be provided with special classes, separate schooling, or other 
removal of individuals with exceptional needs from the regular 
educational environment occurs only if the nature or severity of the 
disability is such that education in the regular classes with the use 
of supplementary aids and services cannot be achieved satisfactorily. 
20 U.S.C. Sec. 1412(5) (A); Cal. Educ. Code Sec. 56040.1(b).
    When working with youth placed in any alternative setting, urgency 
drives us to get them out as soon as possible. Priority one: These 
``alternative'' schools are really just warehouses for youth that 
society has not cared enough to invest in educating. ``Warehouse'' is 
too neutral, too generous for the criminal effect on the individual 
youth. We have witnessed time after time, youth taking life-changing 
hits as their already challenging life is set back to impossible odds 
with this much greater risk to ending up incarcerated and/or homeless. 
This has grave implications for society and severe a financial impact 
on our government.
Educational Equity for Foster Youth
    Foster youth are a vulnerable population. Not only have their 
parents abused or neglected them, they also face a system that cares 
little for their educational well being. As a society we are mandated 
to take care of youth who do not have families to take care of them. We 
need to ensure that their experience is equal to youth who go home to a 
family.
    In California the law requires that all youth in foster care shall 
have the following rights: ``* * * [t]o attend school and participate 
in extracurricular, cultural and personal enrichment activities, 
consistent with the child's age and developmental level.'' Cal. Welf. & 
Inst. Sec. 16001.9(a)(13). Unfortunately this is not occurring; 
instead, foster youth living in group homes are systematically placed 
into alternative education settings without regard to their right to be 
in the least restrictive placement in their local community school.
    In 2008, an investigation was conducted about the effects of group 
home placements and whether they are associated with a significantly 
higher risk of delinquency as compared with community foster home 
placements. The investigation found: ``The potential for problems 
associated with group home placements seems to increase as ties are 
severed between group home youth and other more positive role models. 
Group homes often cut juveniles off from their non delinquent and pro 
social peers and keep youth with others that are often delinquent and/
or have emotional and behavioral problems including conduct disorders 
and ADHD'' (Osgood & Briddle, 2006, as quoted in Ryan, J. P., et al., 
``Juvenile delinquency in child welfare: Investigating group home 
effects, Children and Youth Services Review'' (2008), doi:10.1016/
j.childyouth.2008.02.004).
    In 2001, a study by the American Institute for Research (AIR) found 
46 percent of foster youth living in group homes eligible for special 
education are warehoused in non-public schools (NPS), which are special 
education schools separate from the public school. This is an obvious 
segregation since only 4 percent of special education students who are 
not in foster care or group homes have NPS placements [see Thomas 
Parrish, Education of Foster Group Home Children, Whose Responsibility 
Is It? (2001)].
    Another important fact is that foster youth transfer schools an 
average of 9 times and the loss of credits results in frustration and 
increased risk of school drop-out. The system must address this by 
allowing students to receive partial credit for courses they completed 
and provide transportation to continue their education in their home 
school. Laws are in place to ensure this but are not enforced. Foster 
youth are removed from their families because of abuse and neglect, not 
because of any educational disability. Foster youth should have a 
traditional education experience, not ad-hoc ``credit recovery'' 
programs that provide little educational benefit.
1. Mary's Story
    I met Mary in 2002 when she was a 15 year-old foster youth with a 
learning disability living in a group home that used to be an 
orphanage. Mary wanted to be a singer and to be in the choir, but she 
could not be in the school choir. She was attending a special 
education, non-public school that was located on the grounds of her 
group home. She attended classes with the same girls she lived with. 
Mary was physically restrained over twenty times for fighting with 
other residents during school. One fight was over a hair brush, and 
resulted in a restraint in which she was pushed to the ground by three 
adults who held her arms and legs. Mary was not allowed to attend the 
local community school, because all the youth living at the group home 
were required to attend the group home school. She lost one year of 
dances, football games, field trips and socializing with non-disabled, 
non-foster youth. After our involvement, Mary started attending a 
community high school where she graduated with honors in 2005. Mary 
never should have attended the segregated school.
2. Jocelyn B., Amanda B., Andrew B. and Christopher B.
    In 2004 I began representing four foster youth, all siblings, who 
were all illegally placed in a non-public special education school 
located on the grounds of their group home. The siblings did not have a 
parent to assist in their education, and they depended on the school to 
appoint a surrogate to help them. The district failed to do so and as a 
result each of the siblings spent years in the illegal educational 
placement. Jocelyn, the poet, was the oldest. Amanda was a bright young 
woman who eloquently described the loss of attending the public school 
as disgraceful. The two brothers, Andrew and Christopher, had learning 
disabilities which were ignored even when they were in a special 
education school.
    In 2004 I filed a compliance complaint with the California 
Department of Education and in 2006 Learning Rights Law Center along 
with others filed a civil rights lawsuit on behalf of the four youth 
that was settled in 2008 in a confidential settlement.
    When foster youth are placed in group homes with non-public schools 
located on the grounds it simulates a restrictive, almost locked, 
setting.
Alternative Education Settings for At-Risk Youth
    Now I am going to focus on at-risk and youth in the juvenile 
justice system. Each day throughout Los Angeles youth are not admitted 
into their neighborhood/community public school or are told not to 
return. The excuses provided to force students out of the community 
schools typically include:
    <bullet> We do not have the services to help you;
    <bullet> You lost your chance to attend this school;
    <bullet> You have been suspended to many times;
    <bullet> This school is not safe for you;
    <bullet> You were in juvenile hall and you must attend a probation 
program.
    In the past year Learning Rights Law Center has worked with 
numerous parents who have come into our education clinics who have been 
denied enrollment in their neighborhood schools. I have also spoken 
with over a hundred probation officers about education rights. Over and 
over again I hear that they try, but cannot get students to attend 
school. As a result of the frustration among probation officers, the 
families, and youth, the student is placed in an alternative school to 
expedite enrollment.
    1. What are the underlying reasons we are investing in the 
alternative schools rather than in the public schools?
    I suggest that each of you go visit an alternative school attended 
by expelled youth or in the juvenile justice system. If we are hoping 
to assist students in rehabilitation and returning to the comprehensive 
public school, these schools are not the answer.
            a. Fear
    Youth on probation face discrimination and misperception. Some 
youth are placed by the juvenile court system into a group home when a 
court determines that they cannot go home to their parents. The reasons 
for this placement may or may not be because of their delinquency.
    For example, a community program in California providing services 
and small family style group homes to probation youth faced obstacles 
when they tried to enroll their clients in the public school. The 
enrollment process was taking up to four months. The public school was 
refusing to enroll the youth and was requiring all their clients to 
attend alternative or non-public special education schools. On behalf 
of the community program, we filed a complaint and asked the California 
Department of Education (CDE) to investigate. What they found was quite 
troubling: the district had an actual written policy regarding all 
youth living in group homes in their district, requiring youth with 
disabilities living in group homes to attend either a non-public 
special education school or a county alternative program. This 
constituted a violation of the federal statutes for providing students 
with disabilities an education in the least restrictive environment; as 
such, the CDE ordered a change of policy.
            b. Kerry's story
    Kerry is an eighteen year-old young man who experienced a very 
traumatic event at his community high school. At sixteen, Kerry, who 
has an auditory process disorder and behavior management issues, was 
attending a community school. As outlined in Kerry's IEP, he was to 
walk away when he was frustrated rather than get into a fight. Also, 
staff were not to put their hands on him and must let him walk away. 
Kerry had suffered years of restraints and abuse. One day at school he 
decided to walk off campus to remove himself from a confrontation, but 
a security guard grabbed him. Kerry was tazed, handcuffed and arrested. 
As a result of the incident he was placed in an ``Interim Alternative 
Placement,'' even though the IEP team determined that the behavior was 
a manifestation of his disability. He was still removed to a school 
that did not have the services to address his learning disability and 
had little supervision. Kerry was eventually moved to a group home in 
another city, and while he struggled to make up the credits lost, he 
did finally graduate from high school. He struggles today with self-
esteem issues and trusting people.
            c. Ruth's Story
    Ruth is a fifteen year-old girl with a learning disability and 
severe depression, who was placed in a non-public special education 
school because of her behavior issues and fighting in the community 
school. Ruth wants to be able to be treated and respected for who she 
is. She struggles with acceptance with her family because of her sexual 
orientation and has been hospitalized for suicide on one occasion. Ruth 
worked this past year and received all A's at the non public school 
hoping to return to the community school. But the principal said no. 
Ruth frustrated with the answer threw a book at a car and broke its 
windshield. If Ruth were here she would tell you that all she wants to 
do is attend a public school and be with regular kids in a regular 
school.
    What do you think Ruth needs? A segregated school to further 
isolate her? But, that is exactly what happened? Who really failed her? 
We are working with her now to get her what she is entitled.
What Can Be Done?
    1. Mandate educational interventions instead of suspensions and 
removals.
    Education should not merely be an option for students, but rather a 
fundamental right. School districts should provide mandatory, quality 
educational programs in the least restrictive environment rather than 
suspending or removing students for behavior that can be through an 
educational intervention. The use of suspensions and removals is not an 
adequate remedy to address student behavioral difficulties.
    2. Implement and enforce school-wide behavior management 
structures.
    There must be researched based structures in schools to address 
behavior and that address the individual youth. A student who is 
struggling academically, socially and emotionally may display behavior 
that could be addressed. Each student should have a behavior management 
plan if needed to address their social and emotional needs, address 
their academic needs, and assist them with actually being successful 
students. There is nothing in the law that supports this. We currently 
have laws that are punitive in nature, and there is no guidance for 
schools to be supportive of students' needs. Currently, for students 
with special needs, there are legally mandated requirements to address 
behavior BUT these requirements are currently not enforced.
    3. Support teachers to prevent turnover and absences to ensure 
consistency in educational programs.
    There must be some accountability structure in place to address the 
incredible turnover and absenteeism in high poverty schools. We must 
find out how to keep teachers and support them.
    4. Expand school counseling and social work services in 
comprehensive campuses.
    Currently, school counselors are overwhelmed with their 
responsibilities. The national average for high schools is 229 students 
per counselor, while in the K-8 system has an alarming 882:1 ratio. We 
should increase the capacity of school counselors at school sites to 
not only address students' ability to function in the school setting, 
but also to provide the safety net for students. Students turn to 
counselors to engage in confidential conversations with them to discuss 
issues that they may have no where else to turn.
    Moreover, the increased presence of social workers on school 
campuses can benefit students. Social workers can work on the 
development of community resources to help the family. They can also 
bring community resources to the schools.
    5. Increase partnerships with community-based organizations.
    Schools should work more closely with community-based organizations 
serving youth. Structurally, states should provide more funding 
opportunities for community based organizations to work with schools.
    Every school should know the community-based organizations in their 
community. There are resources in the community, but they're under-
utilized and they're working in silos.
    6. Implement evidence-based education therapies for students with 
learning disabilities.
    Students with learning disabilities must be provided with research-
based services, accommodations, and technology support.
    7. Assess educational services prior to transfer or removal.
    There should be a written plan for every student prior to any 
transfer or removal. Currently, this is not happening. We need to 
strengthen the laws regarding preventive measures that need to be taken 
before transfer or removal.
    8. Institute performance-based educational programs with regular 
evaluations and reviews.
    Implement review processes for accountability to supplement current 
legal standards. Evaluate what has occurred prior the placement at the 
alternative school. All youth currently in alternative schools should 
have their prior educational records reviewed and evaluated to 
understand their individual educational needs.
    9. Improve interagency communication and collaboration among 
educational, delinquency, and dependency systems.
    Increase partnerships with universities, which can provide 
research, best practices, expertise, and data analysis support. 
Coordinate with hospitals, mental health programs, and other service 
agencies.
    10. Embrace deliberate plans to address racial disparities.
    We know that the harmful effects of school exclusion policies are 
not evenly distributed among the student population; students of color 
are more likely to be suspended or removed. Schools must work on 
deliberate plans to go beyond data analysis of racial disparities to 
take actual steps to decrease the number of minority youth at risk of 
being placed in alternative educational settings.
    If schools implement a school wide behavior management system and 
structure that educates based on individual needs, they can likely 
prevent both individual exclusion and the overrepresentation of youth 
of color who are systematically diagnosed as emotionally disturbed.
    Improving partnerships with organizations rooted in the communities 
of youth can also help to decrease racial disparities.
Conclusion
    While there certainly must be more oversight to alternative 
education settings, our priority should be to prevent the placement of 
students in harmful alternative school settings.
    We should not use public money to warehouse foster or at-risk youth 
with disabilities in non-public school settings.
    In a depressed economy, we should reconsider the high costs of not 
educating our youth. For example, in California, incarcerating a youth 
over a one-year period costs over $70,000, as compared to $8,000 to 
educate the same youth.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Chairwoman McCarthy. I want to thank everybody for their 
testimony. It is amazing how from Dr. Blomberg all the way down 
to Ms. Steel, we were hearing the same message, and that is 
basically how do we get to these kids at an early age.
    When I first started on this committee 13 years ago, we had 
an attorney general come to testify in front of our committee, 
the full committee. And at that time, the attorney general had 
said if we invested an extra 25 cents per child, we would save 
so much money because that child wouldn't go into the juvenile 
justice system. I am sure the money is a little bit more today.
    But it comes down to we are facing a different culture out 
there. You know, the kids are watching too much T.V. They are 
on the Internet too much. They are not getting out and playing 
in the fresh air. And, well, let us face it, some parents don't 
want their kids to go out and play because they are afraid of 
what is going out on the streets.
    So where are we? It does come back to me, as far as I am 
concerned--pre-kindergarten, preschool and stay with it, and 
hopefully one day we will see this country really invest in 
education the way we see some of our other nations, mainly 
because they know it is a security and economical threat if we 
don't do that to this nation.
    But my question will be because--and I will be honest with 
you. I guess my question could be for all of you because you 
are actually, you know, going through this same testimony just 
about, that, you know, getting to the kids, giving them the 
holistic care that they need and the services all in one place 
just about.
    My curiosity would be, and it was touched on a little bit, 
that when the kids got back into the school, those that were 
followed up with that particular guidance that they needed--
obviously if you got a 10-year-old, you have a longer period of 
time to follow them; if you have got a 16 or a 17-year-old, you 
don't have a longer period of time.
    So I am just wondering what happens to those older 
children, only because I know the way our laws are across the 
nation, they hit that--across the nation--that 18 to 21-year-
old group, they usually end up in jail. And all my correctional 
guards keep telling me, ``Give us teachers. Get these kids out 
of here. All they need to do is to be educated. They had some 
problems, but where they were was not helping them.''
    So I guess my question I will go back to: How do we follow 
those kids? How do we get better data so that we can show 
everybody that this is going on and hopefully can make a 
difference in these children's lives--a lot of kids nowadays 
but hopefully the future of these children?
    Dr. Cave?
    Ms. Cave. Two answers to your question: One is that the 
state of Virginia has been able to develop an educational 
information management system because we realized if we don't 
know who these kids are and we can't monitor them and keep 
track of them through their school system, we don't know what 
happens to them. So we actually have an identifier for every 
student, and it is a testing identifier, and we are able now to 
calculate a true and accurate dropout rate because we actually 
know what happens to kids and we follow them.
    We have just really started with this system in 2005-2006, 
but we are now experimenting with flagging different 
characteristics. We have a pilot program for children in the 
eighth grade. And we know from research that there are early 
indicators of probability of not completing school or being at 
risk. We know there are behavior problems, we know that they 
are attendance is--it is a dominant issue.
    And we have, through our pilot program through our School 
Improvement Office, indicators that we can mark--not mark, that 
is not the right word--but indicators that we can track for 
kids. How often do they miss school? Are their grades 
declining? Do they have discipline issues? And through that we 
can try to identify them in the eighth grade, intervene early 
and begin to follow whether our interventions are doing any 
good or not.
    With the reenrollment regs, we require that the child 
coming back, the youth coming back, has weekly counseling for 
as long as the school division determines is necessary. And we 
also require that they follow that child so that they just 
don't come back and get lost.
    So those are two things that are helpful, if you can 
identify kids early, if you have a way--you have to have a 
mechanism with data to track them.
    Chairwoman McCarthy. It seems we are always coming back to 
data. Kim and I love to do data. That is our big thing.
    Anybody else? Dr. Blomberg?
    Mr. Blomberg. Yes, I think one of the key things is to 
track the youth, particularly coming out of juvenile 
facilities, that return to school, stay in school and whether 
or not they get a high school diploma. All the research 
establishes that the receipt of a high school diploma then 
disproportionately predisposes those youth to a conventional 
life career.
    And what is really--and I think in terms of tracking all of 
these kids, generally about 90 percent of the kids coming out 
are really optimum to return to school and that necessarily is 
not the public school, maybe an alternative school. And we 
haven't talked much about alternative schools, but they do need 
to be part of your equation with lost opportunities.
    The alternative schools typically around America operate--
we have got about 100 of them in Florida. They operate as an 
alternative to suspension or expulsion. But also they operate 
as a transition for kids coming out of institutions and perhaps 
are not ready to transition right back into their public 
school.
    What we found in Florida--we don't have the resources for 
these alternative schools. Many of these children make it in 
alternative schools. They love the structure, they love the 
smaller classes, and they succeed, and they don't want to go 
back to the public school, but the issue is, ``Got to go back, 
you have got your 65 days.''
    So again I think high school diploma--return to school, 
high school diploma is very important. But also getting the 
schools--and this is where I come back to accountability. It is 
not enough to mandate best practices; you must have 
accountability. There has got to be follow up with these 
programs, and quite frankly our experiences in Florida as well 
as our national work with other states implementing No Child 
Left Behind in juvenile justice schools has indicated they like 
knowing just what you want to know.
    Look, you are sitting here, you are legislators, you want 
to make responsible decisions, but you don't have good data. 
You can't even describe the problem very well because of these 
different issues, so it is a challenge.
    Chairwoman McCarthy. I agree with you on the alternative 
schools because I know a couple of kids that have gone through 
the system with the alternative schools, did go back into their 
regular high school, and within 2 weeks they intentionally made 
an infraction on their probation or whatever so they were back 
in the alternative school because they like the structure. Now 
I come from the old way; I don't see why all our schools don't 
have that structure for everybody to be very honest with you.
    Mr. Scott?
    Mr. Scott. Thank you, Madam Chairwoman.
    We have heard a lot about the need to pay for some of these 
services and the challenges of coming up with the money. The 
fact of the matter is we are already paying. The charts 
incarceration show that at least 10 states have an African 
American incarceration rate of over 4,000 per 100,000. 
International average is about 100. The United States is number 
one in the world at 700.
    And if you look at what we are paying per child in that 
excess incarceration, if you do the arithmetic, it is somewhere 
in the $3,000 per child per year. And if you target that to 
those that are at-risk, you could easily spend $10,000 per 
child per year if you have effective intervention programs.
    So I guess my first question is whether or not you have 
risk assessments to really show which ones are at risk.
    Anybody?
    Mr. Dixon. Could you repeat that again?
    Mr. Scott. Do you have risk assessments that can really 
show which children are at risk?
    I think Mr. Blomberg?
    Mr. Blomberg. There are a lot of--as a matter of fact, we 
are just in my journal, Criminology and Public Policy, we are 
publishing a series of policy debates about risk assessments--a 
lot of debate about risk assessments and just how accurate they 
are. What we do know in criminology unequivocally is the best 
predictor of future behavior is past behavior.
    With the children that we are talking about in terms of 
lost education opportunities, we have been doing--again, I 
mentioned earlier our cohort studies. And again, most of these 
children are particularly those that have--are beyond the 
three--that include 4, 5 and 6 years behind their age-grade 
level; their likelihood of returning to public school is just 
about nil, very difficult, and so we have assessed that.
    But additionally, a thing that you mentioned--
disproportionate African American involvement. Of our high 
education achievers that are incarcerated where we control for 
race, for example, and we look at African American youth who 
have experienced above-average academic achievement while 
incarcerated, compare them with white youth who have also 
experienced higher academic achievement, African American youth 
are almost double in the likelihood to return to school upon 
release.
    Now that is something that we have really been trying to 
explain because it suggests to us that African American youth 
have been subject to probably a lot of negative labeling in the 
public school, disproportionate negative labeling we assume. 
And when they get into the juvenile justice schools and 
experience success, this success is pretty profound. They are 
able to apparently deal with that success and were able to 
deflect the negative cues a little bit better in the public 
school than were their white counterparts. And that is called 
labeling theory.
    But this finding, we think, is very hopeful about what we 
would be doing, because if you look at risk assessment, they 
would say African American youth are much less likely to return 
to school. But if they academically achieve, they are showing 
almost double the likelihood to return to school.
    Mr. Scott. Well, if you have a risk assessment to show 
those that are at risk, are there things you can do to change 
the trajectory that are cost-effective?
    Mr. Blomberg. If I can answer that, I will say, again, as a 
criminologist who has studied crime for 36 years, yes. Yes, if 
you can get children to academically achieve disproportionately 
that despite all the risk factors that say they are on a 
trajectory, because the best thing we know in criminology is 
persistence over the life course.
    Small kids become adolescent delinquents and young adult 
criminals, but when they experience that adolescent turning 
point with academic achievement, they begin to bond with 
school, with conventional society. They become less helpless 
and hopeless and just like any of us, they see light.
    Mr. Scott. Have you shown rigorous studies that show that 
those programs work and save more money than they cost?
    Mr. Blomberg. We, oh, it would be easy to show the long-
term costs. Our program is getting excellent teachers and 
working. The amount of money--I heard one of my fellow 
testimonies here make the comment--the amount of money is 
small. Have I done the explicit study that you are asking for? 
No, but it certainly could be done.
    Mr. Whitmore. If I could address that question, there are a 
number of programs that have initiated studies of risk factors 
and protective factors. And then if you can identify the risk 
factors and protective factors, that is what you focus your 
interventions on.
    The community is a care model out of the state of 
Washington, and it is used on a national basis. It has been 
adopted extensively by the state of Pennsylvania and integrated 
into communities where they have built programs around those 
risk and protective factors.
    The Search Institute out of Minnesota has also done 
extensive research over years on identifying the same 40 risk--
a different set but a same--of 40 risk and the protective 
factors. And we are now working with a gentleman from North 
Carolina who has done research on bringing resiliency research 
and has developed a assessment tool to identify the same 
factors and how do we integrate that into our intervention 
programs.
    Mr. Scott. Thank you.
    Dr. Cave?
    Ms. Cave. Dr. Whitmore stole my thunder a little bit, 
except I wanted to say that Johns Hopkins has been studying 
early indicators of dropout--dropout provisions for the city of 
Philadelphia--and as early as fourth grade, you can tell that a 
child is on a trajectory. If they have lost academic--if they 
can't achieve academically, if they miss school, and then as 
you go through the middle schools, you see that if their grades 
fail that is a good predictor.
    So as early as elementary school, we can start to identify 
these kids, and we want to do is intervene educationally and 
also we want to intervene with the individualized support. When 
you look at the risk and resiliency factors, teacher engagement 
is one of the highest resiliency factors that are available, so 
then training our staffs to understand that they could 
influence a child, that connection, that engagement.
    We were able to holdout a dropout prevention summit last 
October for all sectors, and we had some model programs, 
speakers from model programs in the state and also in the 
nation come and speak with us. And we saw that we could have 
nontraditional programs--in Virginia, the Commission on Youth 
has studied alternative education, the General Assembly. They 
are starting to use the term nontraditional programs instead of 
alternative education just to get away from the stigma of 
alternative ed.
    But we have some nontraditional programs in Virginia that 
are focused specifically on over-age kids, that they are 
together and so they get the individual assistance that they 
need, and they get flexible schedules so they can work. They 
can meet other family obligations and still be in school. We 
have nontraditional programs for kids that have been in 
trouble, and this is part of the school division, it is not 
something that the state is doing.
    Mr. Scott. We had others that wanted to respond, but my 
time----
    Chairwoman McCarthy. Go ahead.
    Mr. Dixon. I think one of the issues--I know in Wayne 
County one of the things when we look at, you know, the data, 
when I keep talking about holistic approach, we tend not to 
look at the kids who are also in special education. And that 
becomes a very significant, you know, group of kids.
    And what we found was that when we--said earlier--when our 
teachers engage these kids along with staff, then we find out 
that they become more successful. One of the problems that we 
find is that these kids have not had anyone who has been able 
to really sit down and engage them and look at them 
differently. And when you look at it differently when you are 
dealing with them, then the kids pick those kinds of things up.
    You know, those are things that you can't put data on; you 
can't. But they are human things that we know that affect kids 
and how they respond to things. And when we do those kinds of 
things, we see success.
    When you look at our charts, you can see where kids who we 
only have for 30 days go up--their grade levels increase, you 
know, one or two grade points. That is because someone has 
really taken the time--and a lot of these kids cannot function 
in a large environment, and so you have to place them in 
smaller environments so that they can be successful.
    And we have to take--and I keep saying the political will 
to say do we want to take these kids. And when you place kids 
in smaller environments, yes, it is going to cost you more. We 
know that. But the issue is the long-term effect of it is it 
costs you less.
    And so those are the kind of things that you can't put--you 
know, I think one of the problems--and I will be very brief--I 
think one of the problems is that we want to--data--I use data 
for a lot of stuff. But I think one of the things that we have 
to be concerned about, that you can't use data when you are 
talking about the human factor in things sometimes, because 
there is always--in my years, I have found out that the human 
factor overrides a lot of the stuff that we are talking about. 
We can test; we can do all those things. But we really have to 
understand how do you engage these kids, and when we engage 
these kids, then what I have found is that they become 
successful.
    Chairwoman McCarthy. We are actually going to be able to 
come for another round.
    Mr. Platts?
    Mr. Platts. Thank you, Madam Chair.
    First, I want to echo, you know, where you started and 
really it goes to Mr. Dixon, your statement of how we look at 
the needs of these children if they were our own children and 
how I have got a 9-year-old, a 12-year-old and, you know, what 
is their need, and then how do I try to meet that need as 
opposed to not what is it going to cost and, you know, I mean, 
that is certainly a part of that decision-making process.
    And I think it is the political will of us as a nation, 
especially at the early stages and where we are failing so many 
kids by the time they get to this whole, you know, system of 
alternative ed is zero to five and the chairwoman mentioned, 
you know, pre-K issues, head start, early head start.
    There are so many data--the Ypsilanti, Michigan, study, it 
shows now over 40 years. You know, if we do right in, you know, 
in childcare and preschool, the savings is like 16 times back 
to the taxpayers by that investment up front.
    Danny Davis, my Democratic colleague from Illinois, and I 
have legislation, Education Begins at Home, about how to teach, 
you know, especially low-income, single teen moms how to be a 
parent. And so that foundation is established early on.
    And yes, it is going to cost money, and Nurse-Family 
Partnership in Pennsylvania is a great example of this effort. 
But the long-term return is dramatically more than what it is 
going to cost, and that is the difficulty for us as a 
government is willingness to make the up-front cost, knowing 
that the return is going to be much greater. It may be 20 years 
down the road--but it is going to be much greater.
    And I think you captured that in how we approach our own 
children, how we do that in a broader sense. And I hope--
actually President Obama both in his State of the Union and his 
speech to Hispanic Chamber of Commerce this week talked about 
Education Begins at Home. And so we are hoping that is a push 
for legislation that we think will pay great dividends in the 
long term.
    I want to, Dr. Whitmore, in the chairwoman's first question 
about tracking your students--and I think you were going to 
follow up on or wanted to answer or address that. I wanted to 
ask you specifically to your students at Manito, how they 
typically arrive at your door and how does a student arrive in 
your program, how long they typically are with you, and then 
what ability do you have once they return to a home district or 
out of your program to track their long-term success.
    Mr. Whitmore. Students come to us on many different reasons 
because we offer various options for them. The typical students 
for us are just assigned there either by the juvenile court or 
by the school district.
    This is one of those interesting shifts that I have seen in 
the systems, is that we used to take exclusively juvenile court 
commitments. And when Pennsylvania initiated the Disruptive 
Youth Act and schools started taking more responsibility, our 
population has shifted to today maybe 3 percent of our students 
are assigned to us by juvenile court; the rest are all by the 
school districts.
    However, 50 percent of our students are on probation. What 
we do and how the students get to us and the students that we 
see have remained the same. It has just been a shifting of the 
cost burden to the public schools, which they are having a hard 
time to endure.
    Students stay with us anywhere from a minimum of 45 days 
and we have had students for 5 years. The typical range is 6 
months to a year. Typically, the students are expelled for a 
school year because of violating one of the designated 
expulsion offenses, and so they come with us for that school 
year, remainder of the school year or the next school year and 
then they will return to the public school. And we try to track 
them as much as we can afterwards. Frankly, we don't have the 
resources to spend a lot of time tracking, and also we deal 
with a very mobile population. It is hard to keep track with 
them.
    If I could address one of Chairwoman McCarthy's comments 
about the students that are older. We do run an alternative 
high school for students 16 to 21 who want to drop out, are 
bored with school or have dropped out and want to come back 
because many of them are single parents, they are working, they 
are living independently. And we have been doing that program 
for a little over 10 years, and we just had our--I think it is 
1,085th student who has graduated with a high school diploma.
    And we recently had a young man who had dropped out of 
school just simply bored, came back, received his diploma 
through our program and graduated with a dual major from Drexel 
University in architecture and civil engineering. So they are 
students who are extremely capable; they just do not fit into 
the traditional setting, and so we need to offer programs that 
just address students that are bored and want an education but 
not the traditional one and those that are experiencing, as Mr. 
Dixon said, that holistic approach of behavior and the social 
issues.
    Mr. Dixon. To add to that, Dr. Kunjufu, out of Illinois, 
has done an enormous amount of studies on African American 
boys. And one of the issues really has to do with what we call 
the fourth grade syndrome, where African American boys really 
started having problems, they started acting out and they start 
doing all those kinds of things. And once you go in and you 
start addressing those issues when they are in the fourth 
grade--because they are more active, they have more activity 
going on, they actually are larger, and so the teachers have a 
harder time trying to distinguish how they work with those 
kids.
    And I know that for a fact because if I had not read the 
book--when my son was in the fourth grade in Miami, the 
teachers called to say that he was acting out. I went to the 
school, met with the teachers and talked to them. They were 
saying, ``Well, your son, when he finishes his work, he starts 
acting out in the classroom.'' My issue to them was, ``Okay, I 
will deal with the acting out part, but why don't you give him 
more work? Maybe he won't act out.''
    And so what happens is, when we get to that fourth grade 
piece, kids--nobody wants to deal with them. That is when we 
talk about zero tolerance and all those kinds of things--well, 
kick them out, do all of this. Well, the real problem is, is 
that we need to understand that these kids are very active and 
we have to look at their activities and how do--like the 
chairwoman said, how often are they going outside? How often 
are they engaged and not just sitting?
    Like you said earlier, those are some very significant 
things. They get bored. And when they get bored--we know what 
kids do when they get bored.
    Another quick, you know, story. We had a governor--which I 
won't, you know, call names--we had a governor who was talking 
about not placing kids in alternative programs--well, that is a 
waste of money, you know, you lock them up and all that. It was 
interesting. When I talk about political will--when his son got 
in trouble, his son was going around with another kid putting 
firecrackers in mailboxes. When his son got in trouble, he 
actually became a proponent of alternatives, because his child 
got in trouble. That is when I go back to when it is our 
children, we find the political will to do what we need to do.
    Mr. Platts. Thank you, Madam Chair, and I look forward to a 
second round, Ms. Steel, and all of you have great issues and 
look forward to additional questions, thank you.
    Chairwoman McCarthy. Mr. Gohmert?
    Mr. Gohmert. Thank you, Madam Chair.
    And appreciated all the testimony. It seems like one of the 
problems with the--what I was hearing is when you are putting 
kids in temporary situations in school, we haven't had the 
seamlessness that we should be. That seemed to be a more common 
thing in what I was hearing.
    And a little disclosure here, my wife taught school in an 
alternative school called Pace in our own town for a number of 
years, and she just loved it because she said, you know, these 
are kids, the light comes on and it is so exciting. But they 
were computer programs, and they all had instructors and 
whatnot.
    But I am wondering--I haven't heard anybody address this 
but, you know, some of us were brought up with the Socratic 
method, and it was good for us to have to stand up, like in a 
law school, and recite--but getting that growing up. But I have 
wondered, you know, when we talk about that positive reaction, 
Dr. Blomberg? Okay.
    It seems like they get that from computer programs, and it 
seems like most kids now if they are embarrassed to say they 
can't read, they like doing it at their own pace. What do you 
see as the future of education in the--for computer programs 
that is self-paced where they get that encouragement sometimes 
vs. the Socratic?
    Ms. Steel?
    Ms. Steel. I am familiar with the Socratic method, so----
    [Laughter.]
    And so there are a couple of things. I mean, I think one of 
them is that when we think of--when you are looking at 
alternative schools, there are a range of them. There are----
    Mr. Gohmert. Right.
    Ms. Steel [continuing]. Continuations, there are--we see in 
accounts--I am talking about independent study. I mean, there 
is a far range, which is why I am a proponent of, like, how can 
we keep kids in their community schools and make sure that they 
have the opportunities all the other students--and if it is 
reorganizing them to look at them in small settings, granted--
--
    When it comes to computers, I have just got to tell a quick 
story. I read with books on tape, because when I visually read, 
I only see the words in the center of the page, and I only get 
what is--I call it black and white, whereas when I read with 
books on tape, it is color; it is like a movie.
    So technology is the gateway. It really will change 
children's lives. Every kid--needs their books on tape, right? 
And it may be different, but I think it is--if you can imagine, 
we--this is a population we serve. So we are adamant because 
what we see is pretty dire and that we have to fight to get 
books on tape. I went through law school and do you know what 
it is like for me to say, ``Oh, by the way, we need books--oh, 
no, they have to learn to do it on their own.''
    Mr. Gohmert. Right.
    Ms. Steel. Why do we require that? Why aren't we looking at 
alternative ways of learning? Because you know what? If that 
student could learn an alternative way using technology, they 
may actually be able to be more successful in their lives.
    Mr. Gohmert. And some things would work better----
    Ms. Steel. Yes.
    Mr. Gohmert [continuing]. For different children.
    Ms. Steel. Because they are pretty good at MySpace----
    Mr. Gohmert. And I do enjoy books on tape or CD, in fact, 
but my wife doesn't. And she said, ``Well, you are oral.'' I 
said, ``Is that better than being anal?'' I am not sure, but 
anyway--any other comments?
    Yes, Dr. Blomberg?
    Mr. Blomberg. One thing, and it is actually in my outline 
in my testimony, but we all talk about the critical importance 
of highly qualified teachers. But the reality is, is that many 
of these programs, these alternative education programs that we 
are talking about, have very small populations. And when we 
talk about highly qualified teachers, we typically mean highly 
qualified teachers teaching in their area of professional 
certification. That is not possible realistically across the 
nation with all the various juvenile justice schools and 
alternative schools.
    And I think that is where video--a national curriculum, I 
think, video-assisted instruction, individualized module 
instruction--the technology has so many capabilities. And then 
we get some of these wonderfully accomplished teachers, these 
highly qualified teachers that are very much involved in video 
presentation and so on. So I think the technology is essential 
if we are to move this whole area forward.
    Mr. Gohmert. But then you bring up one of my pet concerns. 
We had a governor who came in with the head of education in 
Texas and showed some improvements in Texas. So when they came 
to Washington, they decided to ram it down everybody else's 
throat as well, and I had real concerns that we didn't need the 
national model rammed down everybody else's throat. Connecticut 
may not want to have to teach like Texas did.
    And then another thing, it seems like the more federal 
control you get--and I was really hoping with the Democratic 
majority and a Democratic president we would get away from some 
of this cram-down in education because I was not a fan and am 
not a fan of No Child Left Behind because I saw us losing music 
programs, art programs, physical education, seeing, you know, 
everybody having to fit in this mold as it was expected, and I 
hate to get away from that state control.
    And, Dr. Cave, when you talk about somebody saying, ``There 
is nothing in school for me,'' I am sure all of us have heard 
kids say that. And you wonder, well, why have we gotten away--
we used to have automotive shop, we had construction, we had 
welding, we had ag shop. And not everybody had to go to 
college, but they got that positive feedback from what they 
were doing.
    And, you know, a welder making $80,000, you know, may seem 
poor or rich depending on--but that is a good living in East 
Texas, and people wouldn't have to go to college. But they are 
not getting that option now as a part of their education.
    So I really wish we did a better job of assessing 
individually on a local basis without being crammed down from 
the federal government. And you have pointed out, and I think a 
number of people up here, you know, the federal government has 
resources a lot of local and states don't have, but then as we 
have seen in this mess with the financial sector, if you are 
going to get federal money, then eventually, if you are going 
to commit first, you are going to get federal dictation, and so 
that gets back to my concern.
    So I know this is just a short time. We have 5 minutes to 
speak, and then we get 5 minutes, but it doesn't mean that if 
you have other things that you think of that you don't get to 
say--that those are welcome if you would submit them. And I 
know Madam Chair would agree. We would welcome that being 
submitted after the hearing as you think about these things, 
things that get generated. And we hope that you won't come away 
with a negative affirmation from your testimony here, because 
it is appreciated.
    Ms. Brooke. Judge, may I respond?
    Mr. Gohmert. Yes, please.
    Ms. Brooke. First, the programs that we have in Texas begin 
at age 10. And I think it is important----
    Mr. Gohmert. You are talking about the alternative program.
    Ms. Brooke. JJAEPs as we refer to them.
    Mr. Gohmert. Yes, right, right.
    Ms. Brooke. I think it is important that people understand 
when students are being expelled from public school that one of 
the first things that needs to be done with these students is a 
complete assessment needs to be done to see what is going on. 
Why is this student acting out?
    Mr. Gohmert. Going back to Mr. Dixon's point.
    Ms. Brooke. Yes, but it needs to be more than an academic 
assessment. It needs to be a mental health, it needs to be a 
behavioral health assessment----
    Mr. Gohmert. Maybe they need teeth.
    Ms. Brooke. A health period assessment, that is right, so 
that we can see what is going on. And once we do a complete 
assessment, I think we will find out a lot of these kids aren't 
learning because there are barriers for that student, and 
oftentimes barriers for his entire family, and that it is 
important when we do these assessments and begin working with 
the students that we embrace the whole family, because what is 
going on with this one student is often going on with his 
peers--or his siblings, I should say--with his siblings. And it 
is important that we work with the family by sometimes bringing 
in very intensive work, multiple--I can't talk--MST, multiple--
golly--systemic therapy, thank you.
    Chairwoman McCarthy. Now you know how it feels----
    Ms. Brooke [continuing]. Oh my gosh.
    Chairwoman McCarthy [continuing]. Dyslexia.
    Ms. Brooke. Well, I am from Texas and I talk really slow 
but because you guys are limiting time, I get tongue-tied.
    So those are very important resources that any kind of 
alternative school----
    Chairwoman McCarthy [continuing]. Good point.
    Ms. Brooke [continuing]. Really needs to have. And that is 
one of the advantages that Texas has in putting these programs 
in the juvenile justice system because we can treat the whole 
family. And school districts don't have the tools sometimes to 
entice the family to participate as the courts may have.
    You mentioned the computerized curriculums. There is a good 
place for those curriculums in schools, but many of our 
students learn very differently. And each child has to be 
treated individually, and their education plans need to address 
specific needs with those students. They come in at all 
different levels, and programs have to be equipped to address 
those.
    And you can't expect them to sit in front of a computer 7 
hours a day and be successful. Some kids can, some kids can't. 
We are also looking at bringing in virtual school programs into 
these alternative schools so that higher achieving students can 
engage in those virtual campuses, which is also a great tool 
for us, especially when we don't have the highly qualified 
teachers that were being spoken to earlier.
    And one final comment that I have is related to the data. 
You asked about whether we were able to track these students. 
And there is a point where it stops, and that is when they 
become adults. Crossing systems and removing those barriers 
between systems--the education folks can certainly tell you who 
drops out, but getting them to match the data with the--in 
Texas it would be our Department of Public Safety--to see if 
there has been arrests and incarcerations, is where we are 
limited. And maybe that is an area that this committee can help 
take away some of the barriers so that that sharing of data and 
matching of data can be done so better tracking is achievable.
    Chairwoman McCarthy. First, let me say I am all for, you 
know, computers, and I am all for all the high tech. I mean, if 
someone had told me 10 years ago I would be a whiz at computers 
and my BlackBerry and every other contraption they have got on 
my body to keep in touch, I--I understand that, you know, it is 
important.
    What I was talking about is that too many kids are playing 
games, some of them extremely violent. We know the younger that 
they start playing these violent games, they think this is 
real. They think they can shoot someone and it is not real; 
that person is going to get up and walk away. Or they think 
that, you know, they are more powerful than they are. I am just 
saying we have nothing to do with that. Parents to me should be 
overseeing that. But as you said, there are many of these kids 
don't have--it has become the new babysitter to be very honest 
with you.
    Ms. Sheila Jackson Lee, who is also on the House Judiciary 
Subcommittee on Crime, Terrorism, Homeland Security, welcome--
and a fellow Texan.
    Ms. Jackson Lee. Thank you very much, Madam Chair, and 
thank you for joining with the Judiciary Committee and Chairman 
Scott for what is a vital, very vital hearing. And I always 
want to take an opportunity to thank you, of course, for your 
leadership as it relates to sanity in gun regulation in this 
country. I think it is very important.
    The reason why I say that is that I was delayed because we 
were in a hearing dealing with the enormity of the drug-
trafficking issues on the border and the violence with guns. So 
not to say I was reminded of you, but I thank you for your 
leadership on those issues. And we are finding that our 
juveniles are also being exposed to proliferation of guns in 
America.
    But let me thank all the witnesses for their presence here 
today. And I chair and have cofounded the Congressional 
Children's Caucus. Over the years, we have looked at mentoring, 
intervention, bullying, just a lot of issues that would 
hopefully focus on making our children's lives better.
    Let me say that I believe in alternative education, but I 
believe in it when it is not a way station, when it is not a 
place for people to, if you will, tread water and sometimes 
drown.
    So let me try to ask some pointed questions. And I am going 
to go to Mr. Dixon first, if he would single out for me what he 
thinks would be the most redeeming teaching tool that he has in 
Wayne County. What have you found to be most effective in the 
course of dealing with youngsters that have been steered in 
your direction?
    Mr. Dixon. Well, we have what we call--we have one of the 
tools that we use. We call it a JIF, a juvenile--maybe I am 
being dyslexic also--the juvenile----
    Ms. Jackson Lee. Influence something.
    Mr. Dixon [continuing]. Influence something--yes, it is 
JIF.
    Ms. Jackson Lee. That is all right.
    Mr. Dixon. And it looks at eight categories. It looks at, 
you know, the education; looks at his, you know, mental health; 
looks at his home life; looks at, you know, those type of 
issues. And we are able to take that and identify some specific 
problems that the kid has, you know, if it is in school, if it 
is health, if it is just those kind--if it is family----
    Ms. Jackson Lee. So you do an analysis.
    Mr. Dixon. We do an analysis.
    Ms. Jackson Lee. And then you can treat him--he or she----
    Mr. Dixon. Right.
    Ms. Jackson Lee [continuing]. Individually as opposed to 
like automation.
    Mr. Dixon. Right, the issue is in the individual.
    Ms. Jackson Lee. Right.
    Mr. Dixon. And my biggest issue is that we don't bring kids 
to warehouse them. And when we look at kids on an individual 
basis--we were talking about the computers and all those 
things. All that stuff, you know, is great.
    Ms. Jackson Lee. And I am not going to cut you off, but I 
have a lot of questions, so I want to just get--I think the 
point I am getting is individual analysis. And you are 
attempting to get the children out of the system, is that 
correct?
    Mr. Dixon. Correct.
    Ms. Jackson Lee. Not to stay in the system. Do you think 
your state, then--we are not here to embarrass states. I am 
going to ask this question. Do you think there is enough 
funding for programs like this?
    Mr. Dixon. Oh, no.
    Ms. Jackson Lee. And so, you know, someone would ask, there 
is a 10th Amendment--leave what is not left to the federal 
government to the states. Is this hearing vital and does the 
federal government need to become a real partner in saving our 
children?
    Mr. Dixon. Oh, I think the federal government, the local 
government--and I talked earlier about the political will. One 
of the things that I am comfortable about in our community, 
which is Detroit, Wayne County, is that the county executive 
has said, ``Look, we have to look down the road with our 
children.''
    Ms. Jackson Lee. So a legislative initiative that may be 
combined out of these two committees--interesting enough, I am 
on the Crime Subcommittee--that can look at intervention, 
stopgap measures, you think is a vital approach to take?
    Mr. Dixon. Is extremely vital.
    Ms. Jackson Lee. Have you seen, when you lock up a child 
and in essence throw away the key, are we advancing ourselves 
in any way?
    Mr. Dixon. No, we are actually paying for it down the road 
because the kids are going into the adult system, which is 
costing us--well, let me say, I--you weren't here earlier, and 
I said politically correct, a hell of a lot more. And we keep 
doing the same thing and think that we are going to get, you 
know, some different results. It is not working. And so if it 
is not working, it is time for us to change the way we do 
things.
    Ms. Jackson Lee. I think that is key.
    Ms. Brooke, thank you for being here, and let me compliment 
all of the valiant workers that you have. And just help educate 
me for a moment because, you know, once you hear my question 
you know the approach that I am getting ready to take, so I am 
going to have to give an apology for a little chastising. But 
how are you related to the Texas juvenile detention centers 
across the state? How is the Probation----
    Ms. Brooke. Commission----
    Ms. Jackson Lee. Yes, is this the oversight body over the 
juvenile detention centers?
    Ms. Brooke. We are over the county-operated juvenile 
facilities but not the state facilities.
    Ms. Jackson Lee. All right, and you understand my angst--so 
now I am finishing my question--but you understand my angst 
with the state system and the incidences that we have had both 
being way stations, violence, sexual predatory acts against 
youngsters. Can you just, not from your firsthand knowledge--
would you just tell me that the state is working diligently to 
correct all those infractions?
    Ms. Brooke. I can tell you that the governor has appointed 
a permanent executive director for the Texas Youth Commission, 
and I believe they----
    Ms. Jackson Lee. That is correct, thank you.
    Ms. Brooke. Sherry Townsend is the name of the executive 
director that has been appointed, and she began, I believe it 
was October 1st, and I can tell you she is working diligently 
to make changes and reform the state school system in Texas. 
Like I said, she has been there since October 1st. My agency 
has had more dialogue with that agency than we have ever had in 
the past.
    And she has put together a plan. As you know, we are in a 
legislative session now in Texas, and the legislators are 
working hard themselves to make sure plans are put in place to 
protect the youth and to progress their rehabilitation.
    Ms. Jackson Lee. Thank you, I will just finish on this note 
if the rest could answer. My big issue is the mental health 
component. I don't think we could invest too much money. And 
that is part of education, part of crime intervention.
    And so if you all will respond to the idea of 
institutionalizing the mental health component as part of 
analysis, as part of treatment, both in the alternative schools 
and how much money we need to put in it or if there is ever 
enough money to put in to ensure that we look at the mental 
health of that youngster.
    Dr. Blomberg?
    Mr. Blomberg. No, I could not give you a dollar amount. It 
is the mental health circumstances of most of these youth. We 
have mentioned that 50 percent of all those that are 
incarcerated--delinquent youth that are incarcerated--are 
suffering from various behavioral or learning disorders 
compared to roughly 10 to 12 percent in our public schools. So 
it is a disproportionate percentage.
    All of us know, all of you know, that these youth do face 
some very severe emotional and mental health difficulties that 
is related to their educational capacities. But again, the 
wonderful thing about these teachers--and I have watched it in 
Florida now for 11 years.
    There are teachers that can--and I don't know how they do 
it--but they connect with the specific needs of their students, 
and they do some wonderful things despite all the different 
histories that that class brings to bear. And these are 
teachers that are not mental health specialists, but rather 
many of them are students with disabilities specialists, and 
they simply have that ability to provide individualized 
instruction.
    But it is a prevalent problem. It continues. Incarcerating 
the mentally ill has always been an issue. And it exacerbates 
problems; it doesn't cure them. But unfortunately, we don't 
have any swift cures about what causes these various mental 
health problems.
    We do know that education achievement, despite mental 
health and various other problems--when these children are 
experiencing academic achievement, their lives begin to turn 
around and a lot of their emotional and other difficulties 
subside. That is what our longitudinal research in Florida now 
over the last 11 years has demonstrated.
    So I am very hopeful, but you do bring up a very real 
problem, and it needs to be addressed.
    Chairwoman McCarthy. The gentlewoman's time is up.
    Ms. Jackson Lee. Will Mr. Dixon answer? Or I will be happy 
to yield back to the chairwoman.
    Chairwoman McCarthy. Well, you have actually--you are 4 
minutes over.
    Ms. Jackson Lee. Okay.
    Chairwoman McCarthy. Ms. Clarke?
    Ms. Clarke. Madam Chair, I will just yield a moment so that 
Mr. Dixon and I think Ms. Steel wanted to respond to that.
    Mr. Dixon. Yes, Congresswoman, it does cost a lot of money 
to run a mental health program. We have a mental health program 
in our institution, and it is a full mental health program with 
psychiatrists, psychologists, social work--I mean the entire--
and it costs us about $2 million a year to run that program. 
The benefit of it is, is that we identify a lot of these issues 
that these kids have so we can address them.
    On the other part, one of the things that we are not 
looking at, though, when kids come in is the health issue that 
contributes to some of their mental health issues. And when you 
find kids who have a multitude of asthma--when they come in, 
you find kids who--we have kids who have degenerative heart 
problems when they are coming to our institutions. That is 
serious.
    And we ask the question: Why can't these kids function in 
the school setting? All of those things, when I talk about 
holistic approach--it is the mental health, it is the medical, 
it is the education. And I am telling folks that when I go into 
institutions, what I find is that a lot of our institutions in 
this country don't have any of those kinds of things.
    Ms. Clarke. Thank you, Mr. Dixon.
    Ms. Steel, would you quickly?
    Ms. Steel. Yes, one of just the overriding thoughts--I 
agree. But I don't think it should take getting to an 
alternative juvenile hall setting to get these services. We 
know in L.A. there is a--that looks at resiliency and risk 
factors and says that we know that if we don't use the right 
interventions, once they are in juvenile hall that it is going 
to go the wrong way. Why are we waiting till then?
    We also know that there is no--absolutely no reason those 
students with learning disabilities should be in a detention 
facility. There is absolutely no reason. Because if you are 
providing adequate special education, guess what is included in 
that? Mental health services, behavior intervention.
    So those students aren't predisposed to criminal behavior. 
Many times we see kids--we have the opportunity of luckily 
looking through hundreds of youths' education history as part 
of our advocacy, and overriding they have not been diagnosed, 
they have not been served, they have not gotten the services, 
and as a result--if we can look at the front end, because we 
are not even--we are missing all the kids that haven't been 
expelled that are kind of trapped hoping they will get served 
there, and we really believe that it is just tracking them the 
wrong way.
    Ms. Clarke. Well, thank you, thank you for sharing that 
with us.
    I wanted to thank Chairman McCarthy and Chairman Scott, 
Ranking Member Platts for holding this very significant 
hearing. With our president's emphasis and priority on our 
children's education, this is an area that deserves more 
scrutiny and emphasis, that our communities can salvage the 
lives of this subset of our youth.
    I am particularly concerned about it because I have a 
juvenile facility in my district in Brooklyn, New York, and I 
am concerned about exactly what we are manufacturing in these 
types of facilities. You know, the formerly incarcerated adults 
experience a variety of challenges upon reentry into their 
communities. Likewise, many students released from our juvenile 
justice setting state difficulties when transitioning back into 
their communities.
    Among other issues, these youth are often shunned by their 
principals, teachers and other students when transitioning back 
into traditional public school settings. They are also more 
likely than their classmates to have academic deficiencies, 
when can further isolate them from their peers.
    I have a two-part question. First, what are your school 
systems doing to assist these students in their reentry back 
into their communities? And second, what can Congress do to 
assist our nation's school systems in addressing reentry issues 
experienced by these students? And this question is directed to 
Dr. Cave, Ms. Brooke and Mr. Dixon.
    Ms. Cave. Congresswoman, I am happy to talk to you about 
the reenrollment regulations that the Virginia Board of 
Education passed at the direction of the General Assembly and 
also in cooperation with the Department of Correctional 
Education and the Department of Juvenile Justice.
    We recognize that children coming back into the school 
systems, although they may have been successful in a very 
structured environment and a good alternative education 
program, that when they come back there is the capacity for 
them to be lost if there is no planning for them, if there is 
no planning for their academic achievement, if they can't have 
a continuity of instruction, if you can't come from being in 
Department of Correctional Educational program and continue in 
your studies with success, if you have had special education 
support--you need to know what those have been. You need to 
know what an individual education plan is, and the receiving 
school division needs to understand that and plan for it. The 
receiving school divisions need to know what that child needs, 
what their progress has been, what their success has been, have 
they been receiving counseling, in order that you can combine 
the right professionals.
    And this goes right back to what Mr. Dixon is saying. You 
need a holistic approach to these kids. You have to look at 
their family. You look at their social supports required. You 
need to look at the counseling. You need to look at their 
behavior. And at the school level, you need to pull the 
specialists together who can share their expertise to look at 
the whole child and say, ``When they come back, this is what we 
are going to do for them. This is what they need.''
    So in Virginia, the regulations that have been passed 
specified time periods for notification and planning so that a 
school child that has been released can be back in school in 2 
days. That is the goal.
    Mr. Dixon. One of the issues is actually record transfer. 
How do we transfer records, you know, back to the school 
districts in which that kid is coming from? Based on my 
experience, I would recommend if the Congress wants to do 
something, look at the OJJDP act, authorize that, because it 
has a lot of good information in it.
    And what I have found is creating a good case management 
system so that you can track that kid--and what I mean by a 
good case management system is one individual who is working 
with that kid, who is brokering the services for that child. 
And that means that from the time that child comes into the 
system until the time they leave out that you have someone that 
has identified, that is tracking that kid. It is like a 
surrogate parent.
    Those are the kind of things--then you don't lose--and what 
is happening in our systems that nobody likes to talk about is 
that there is a total disconnect, and we are losing 
information. We are losing all kinds of things because there is 
no line from one end of the system to the other.
    And when we do case management from a structured 
standpoint, then we find out that we can track kids and we know 
exactly what is going on, because we are losing kids in the 
community and nobody can tell you where they are. That is the 
hidden secret that nobody wants to talk about. Nobody knows 
where the kids are because there is not enough funding to have 
a good case management system.
    And then when they fall through the cracks and something 
occurs, then everyone says, ``Well, we got to figure out 
someone that we can blame,'' instead of trying to figure out 
how do we track that kid. Just like our kids--we would track 
our kids to the doctor, to the mental health professional 
because we would do that. That is the same system that we need 
to create in this country.
    Ms. Brooke. I am going to speak to your question as it 
relates to our juvenile justice alternative education programs, 
which are not residential programs but they are day programs. 
When a student comes into the JJAEPs and they have developed a 
plan for their stay while they are in the program, they also 
begin from that point developing their transition plans out so 
that they can begin working with that student and his family on 
what to expect when it is time for the child to depart and go 
back to his regular public school setting.
    About 30 days out from the time--or 30 days prior to their 
leaving, they call in the school district where the student is 
going back to, they call in the parents, and they meet. And 
they talk about the successes that the student has had. They 
talk about the supports that the student will need when he goes 
back to school, and they create the transition plan. And all 
the parties agree and sign off and the student goes back.
    There is a probation officer typically involved, and that 
probation officer--juvenile probation officers do everything. 
They hold the kid's hand, they are a friend, they are a 
counselor, they are an enforcer, you know, they do everything. 
And so they go to the school with the student and they try to 
find a mentor at the school to link the student with so that 
when they go back--because it is very difficult to go back. 
These are big schools; they are a number, unfortunately, again, 
and they are used to the individualized attention that they are 
getting in our school.
    So transitioning is extremely important for them. So we try 
to link them with an adult that will take the time when they 
are in school and if they are having a problem that that 
student can go to and say, ``Hey, I need some help,'' or just 
someone to come up to the student and say, ``Are you having a 
good day?'' That is very important for these kids. So that is 
what we are doing to help achieve their success.
    Ms. Clarke. Thank you, Ms. Brooke. My time is expired.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you.
    Mr. Scott, you have a question?
    Mr. Scott. I would ask another question. I had asked the 
question to begin with, and I think Ms. Steel didn't have an 
opportunity to respond--that is are there cost-effective 
initiatives. I think she has talked around that. I wanted to 
know if you had had an opportunity to address that question, 
whether or not if you find people, these young people, with 
risk factors, whether or not there are cost-effective ways to 
intervene?
    Ms. Steel. There are a lot of cost-effective ways to 
intervene. We are actually working with two juvenile court 
systems. And we work with, you know, community-based, you know, 
counselors and social workers, as well as with probation. And 
we look at all of the variety of factors. We look at their 
education, we look at social and emotional issues, and we come 
up with a plan of action and talk to the court about how to 
help them do better in school.
    But it really takes a team approach and looking at 
collaboration with the agencies that you are working with to 
help them integrate back into a public school. Because many 
times what we see is kids ending up being pushed into 
alternative schools because many--hundreds of probation 
officers will tell me, ``We can't get them back into their 
community schools.'' And so rather than having a kid linger 
around for 30 days--I don't know what is happening in other 
states--then they just put them in alternative schools.
    And I think we have to address sort of a plan of action. We 
are looking at the holistic approach with having--to make sure 
that kids are getting the services in the public school. And so 
that is the way to do it.
    Let us look at the public school, enforcing--getting 
special ed teachers that are qualified. We talked about not 
having qualified teachers. The laws are really clear. We have 
to have qualified teachers. And we have to have special ed 
teachers, and we have to. And that is the part to invest in--is 
to make sure that all those services are being placed to 
prevent those kids getting pushed into other----
    Mr. Scott. A lot has been said about a holistic approach. 
We are dealing with, as chairman of the Crime Subcommittee, how 
to deal with youth violence and essentially two theories. One 
is to wait for them to join a gang, mess up, get caught and 
then get into a bidding war as to how much time they are going 
to serve. Or the bill I have introduced, the Youth PROMISE Act, 
which takes the holistic approach, requires a community to come 
together, to have all the players come together that have 
anything to do with children at risk, that would be of course 
law enforcement, education, foster care, mental health, the 
boys and girls clubs, faith-based community, everybody around 
the table to find out first what the problem is and then what 
your resources are and then what you can do about it.
    What the problem is--that calculation will calculate how 
much money you are spending on incarceration and preventable 
welfare. Put that number in the middle of the table as you have 
your discussion. That number for Los Angeles County would be 
about somewhere in the vicinity of $5 billion a year.
    In many cities of 100,000--100 to 200,000--you will have 
20, 30, 40, $50 million a year on incarceration alone. Kind of 
put that number on the table so as you discuss what your 
strategy is to reduce crime 50 percent, if you can save 20 or 
$30 million, you ought not limit your imagination to programs 
that cost $250,000. That coupled with the fact that we are 
spending for targeted, at-risk children today in many 
communities $10,000 a year per child in future incarceration 
that you could eliminate; that seems to be consistent with what 
you are saying.
    That approach was used--the gentleman from Pennsylvania may 
know--it was used in Pennsylvania where they did this approach 
and funded about $60 million worth of programs. And within a 
couple of years, they had identified over $300 million that 
they had saved with those investments. So it is cost-effective, 
it works, and it, you know, saves much more money than they 
spend.
    And we ought to be doing that before we start loading up on 
more incarceration. I mean, what kind of people are we that 
would not spend the $60 million but would rather spend in a few 
years $300 million cleaning up the pathology and ravages of 
preventable crime.
    Ms. Steel. And one quick thing is what--as for us, just in 
our population, we have 60 kids we worked with in preventing 
foster youth from crossing from dependency into delinquency. 
And we also have another program, which is a school-to-pipeline 
reversal project. And just alone in those projects where we are 
in the collaborative approach, we are able to identify not only 
what these individuals need but the systemic issues.
    And I think as you are working in a collaborative approach 
is to be willing to look at those systemic issues, to be able 
to identify, ``Wow, which school districts are having trouble 
getting special ed teachers, and how do we look at that as a 
community at large to make those changes?'' And so by working 
in the collaborative, you are actually able to address much 
larger-scope issues.
    Mr. Scott. Thank you.
    Chairwoman McCarthy. Mr. Platts?
    Mr. Platts. Thank you, Madam Chair. As we were talking 
about lots of student programs, I want to reference a guest I 
have here today. This is my 15th year as a mentor in what is 
called the Future Leaders of York program for high school 
students. And I am honored to have a junior from Northeastern 
High School in my district, Michael Chocat back here, 
participating in that program and an example of a positive 
program where we are reaching out to students in a positive 
way.
    Each of you have given us great knowledge in your written 
testimonies and in your statements here today. And in looking 
at them, I am trying to pull out a couple things that were, you 
know, highly recommended.
    And Dr. Whitmore and Ms. Steel, you both touched on an 
issue that I think is critically important, and that is school 
counseling, counseling services as well as social services that 
kind of wraparound with the student and the family.
    I know, Ms. Steel, in your testimony, you talk about the 
need for more school guidance counselors. And I openly tell you 
that but for Mrs. Jewel, my seventh grade guidance counselor, I 
don't know if I would have made it through the seventh grade at 
York Suburban junior high, let alone had the chance to go on to 
college and law school, actually at Pepperdine in the L.A. 
area, and know personally how important school guidance 
counselors are.
    You tie that in to the issue of social workers. And at 
home, I have seen just the great benefit of this connection of 
schools and social work through a family member. A lot of my 
family are in the education field. My youngest sister has a 
social work background, worked in domestic relations and things 
over the years and has a teaching background. And she now works 
for one of my local school districts, where she is in the 
school and connecting the school to all the social service 
agencies in our community and dealing with, you know, students 
who have a record of truancy or other delinquency issues and 
working with the parents in how to connect them to both the 
social agency programs and the school programs.
    One of the benefits she has as being part of the school 
system, she has some leverage under our law regarding truancy 
that can help engage that family, the parents, to take more 
responsibility and be engaged in their child's life and 
schooling and opportunities. But that connection seems so 
important. And how we can try to replicate that, that we have a 
more seamless--and a number of you have mentioned the 
importance of a seamless program of services. That word, you 
know, that holistic approach, I think, is how you said it, Mr. 
Dixon, is so important.
    So, you know, that kind of best practices that you have 
shared is very important to us, again, as policymakers, as we 
look how to funnel what is always going to be limited resources 
and the issues where we put those resources and how to get the 
biggest return and the cost benefit, that Chairman Scott 
referenced, that we can be effective in intervening 
appropriately.
    I do want to, on the specific issue of parental 
involvement, Dr. Whitmore, you mention in your list of 
successful alternative ed programs a number of issues, one of 
which is the counseling and social services including with 
families. And I was wondering if you could expand on what level 
of parental involvement you see with your students.
    Is there any mandatory parental involvement with your 
students? And then, if you are able to, maybe not in an exact 
statement, but the connection between greater parental 
involvement and the outcomes that you are able to achieve with 
the student.
    Mr. Whitmore. I wish we knew how to do mandatory parental 
involvement. Our families are very much involved in all of our 
problems, as much as we can. They come in at intake and there 
are constant communications. We hold family meetings. We try to 
do parenting classes. We invite them to participate.
    I have had families that are court ordered for family 
therapy because we have people trained in structured family 
therapy, and they still won't come. So as much as--you know, we 
have a family-based mental health program that is available, 
because we do offer a full-range of mental health services 
also, that, you know, we can work with the student and their 
family and fund it through medical assistance or fund it 
through insurance companies.
    So we encourage and try to do everything we can, but even 
when it is forced a lot of times it doesn't even happen. But we 
all know that that is the breakdown of the whole scenario of 
this is what is going on with the child. And when their family 
walks in the door, you can see almost whether you are going to 
be successful or not going to be successful because of that 
family support system.
    Mr. Dixon. Let me give you a program that nobody really 
ever looks at. What we have in Wayne County, we call it the 
intergenerational program, where we bring in senior citizens, 
ex-school teachers--seniors, and they are matched up with kids.
    And one of the things that I have found is that they really 
engage those seniors. It is like those grandmothers that they 
never had. And they really sit down. And when we are doing our 
educational pieces with them, the seniors are sitting in the 
classroom and on the unit with those kids.
    And I think that is a resource that we tend not to look at. 
And we went to Catholic Services, and we feed them; we do all 
of those things. And they are so grateful because a lot of 
seniors are just sitting and not doing anything.
    Mr. Platts. Mr. Dixon, you are preaching to the choir here 
because the chairwoman and I are pushing reauthorization of the 
national service legislation, including the foster grandparent 
program, which exactly--you know, I was just at a program 
probably 2 months back where we honored the seniors in our 
community who are part of that foster grandparent. And the 
outcomes we see from the students, you know, in their--how they 
benefit and the benefit to the seniors is tremendous. So you 
have got us on your side on that one.
    Mr. Dixon. Okay.
    Mr. Platts. We clearly--and wanted to advocate and expand 
that opportunity to every community we can.
    And Dr. Cave?
    Ms. Cave. I want to go to the policy level, the state 
policy level, and say that our governor, Timothy Kaine, 
recommended to the Board of Education that they adopt in their 
school accreditation criteria that every child at seventh grade 
have an individual academic and career plan, every child, and 
that part of that development of that plan involves the family. 
And accountability is built in with signatures of the parents 
and of the school officials and of the principal--so as far as 
you can mandate parent participation.
    This is a beginning to say, ``We are going to look at what 
your child needs, and we are trying to find a plan for their 
goals and their interests throughout their educational program 
in school.'' And you have to come back, and you have to 
reexamine it at ninth grade and then before 11th grade. And 
each time, you have to have your parent there to sign.
    And in our reenrollment regs, the reenrollment regs mandate 
that the student be a participant and the parent be present. So 
as much as you can put into your policies that--and some 
accountability statement for that is expected would help some.
    Mr. Platts. And I know I reference my sister's position 
within the public school system. What she finds is the threat 
of a fine that she is able to, under truancy laws----
    Ms. Cave. Yes.
    Mr. Platts [continuing]. Is what gives her some of the 
leverage of ensuring a parent participates. Ultimately they 
hope they then get engaged, but, you know, that leverage she 
has is probably different than on the private side, you know, 
in different settings.
    So, Ms. Steel, did you want to respond as well?
    Ms. Steel. Yes, just we also have to always keep in mind 
there are children that don't have parents.
    Mr. Platts. Yes.
    Ms. Steel. And so we always have to think about how are we 
going to engage them, make sure that who is responsible for 
them--I mean, that is a whole other committee meeting of the 
crisis----
    Mr. Platts. Yes.
    Ms. Steel [continuing]. With surrogate parents--that we 
have a huge crisis and that is why a lot of foster youth are 
getting--and also we have got counselors, and that will assist 
in that, either having more counselors--they are the first cut. 
And they are replaced with security guards and probation 
officers on the general school side.
    So, and I think, you know, getting more counselors there to 
really look at, you know, larger issues, the same with social 
workers, and looking at how you--we had social workers, 
psychiatric social workers, in L.A. for a while and it was 
amazing. They changed some kids' lives; they turned them 
completely around. And they are the first to go; when the cuts 
hit, they are the first to go. They are considered dispensable. 
And I don't understand that. And so----
    Mr. Platts. Thank you.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you, and I thank certainly Bobby 
Scott, who is here representing his subcommittee.
    We have taken in a lot of information, and I appreciate 
each and every one of you. If you notice that I am usually more 
than generous with time on having answers, if we had the full 
committee here, it wouldn't happen because it would take too 
long. But most of us here have very inquisitive minds, and we 
have a lot of questions that we do like to ask.
    I think what I will take away from, you know, this hearing 
is that, you know, I have lived in Mineola--I have lived in my 
own home for 62 years or so, and so my community still has a 
small school from the grade school. It still has a small middle 
school, and it has a small high school. And I have to tell you, 
the teachers know every single kid.
    And as you were saying earlier, though, you know, we see 
our states coming under budget crunches. What are the first 
things to go? Basically all the youth services programs, all 
the programs for our young people that need mental health help, 
and it just goes on and on and on, and it is a shame because it 
goes from the youngest to the oldest.
    But with that being said, I am hoping that we will be able 
to work on legislation to make certainly better choices and to 
help every child. Most of us here are great believers that you 
can change a child's life, given the right services and given 
the right opportunities, but there are also many of us here 
that feel very strongly if we get that child early enough and 
work with the parents we wouldn't be dealing with some of the 
issues that we are dealing with.
    So with that, as previously ordered, members will have 14 
days to submit additional materials for the hearing record. Any 
member who wishes to submit follow-up questions in writing to 
the witnesses should coordinate with the majority staff within 
the requested time.
    Without objection, this hearing is adjourned, thank you.
    [Questions for the record and their responses follow:]

                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 17, 2009.
Dr. Thomas Blomberg, Professor of Criminology,
Florida State University, Tallahassee, FL.
    Dear Dr. Blomberg: Thank you for testifying at the March 12, 2009 
Healthy Families and Communities Subcommittee and Judiciary 
Subcommittee on Crime, Terrorism and Homeland Security joint committee 
hearing on ``Lost Education Opportunities in alternative settings.''
    Representative Carolyn McCarthy (D-NY), Chairwoman of the Healthy 
Families and Communities Subcommittee, has asked that you respond in 
writing to the following questions:
    1. Throughout the hearing, we continuously heard that there is 
little to no comprehensive data on youth in alternate settings and 
their educational outcomes. What kind of data is needed to best address 
the needs of youth in alternate settings and their lost educational 
opportunities?
    2. What systems need to be involved in addressing issues for youth 
in alternate settings? How might they work together to better serve the 
educational needs of this population?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, March 
24, 2009--the date on which the hearing record will close. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

          Mr. Blomberg's Responses to Questions for the Record

    Here are my answers to your two questions:
    What kind of data is needed to best address the needs of youth in 
alternative settings and their lost educational opportunities?
    In order to address the needs of students in alternative settings, 
I recommend the following data elements:
    1. Data on how many youth are receiving educational services in 
alternative education and juvenile justice schools on an annual basis. 
Currently, we must rely on census data reflecting the number of 
students in alternative or juvenile justice schools on a given day 
rather than the total served on an annual basis.
    2. Data on the characteristics of the student populations, i.e., 
age-grade level, race, gender, learning or behavioral disabilities, 
histories of prior school performance, dropout, suspension, and 
expulsion.
    3. Data on the educational experiences and achievement gains made 
by the students while in these alternative educational settings.
    4. Data on outcomes after students leave these alternative 
educational settings, i.e., return to school, GED, drop-out, etc.
    What systems need to be involved in addressing issues/needs for 
youth in alternative settings?
    It is imperative to mandate data collection in order to describe 
and explain the inputs-activities-results-outcomes of what is now 
occurring in these alternative educational settings. From these data-
based descriptions and explanations can come specific and informed 
policy recommendations. However, it is essential that our public 
schools and alternative education and juvenile justice schools develop 
protocol and agreements for the placement and return of students 
between these two educational systems.
    I would be pleased to talk more or provide more specifics if you 
would like. Please feel free to contact me.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 17, 2009.
Linda Brooke, Director of Government Relations and Education Services,
Texas Juvenile Probation Commission, Austin, TX.
    Dear Ms. Brooke: Thank you for testifying at the March 12, 2009 
Healthy Families and Communities Subcommittee and Judiciary 
Subcommittee on Crime, Terrorism and Homeland Security joint committee 
hearing on ``Lost Education Opportunities in alternative settings.''
    Representative Carolyn McCarthy (D-NY), Chairwoman of the Healthy 
Families and Communities Subcommittee, has asked that you respond in 
writing to the following questions:
    1. Throughout the hearing, we continuously heard that there is 
little to no comprehensive data on youth in alternate settings and 
their educational outcomes. What kind of data is needed to best address 
the needs of youth in alternate settings and their lost educational 
opportunities?
    2. What systems need to be involved in addressing issues for youth 
in alternate settings? How might they work together to better serve the 
educational needs of this population?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, March 
24, 2009--the date on which the hearing record will close. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 17, 2009.
Dr. Cynthia Cave, Director,
Office of Student Services, Department of Education, Richmond, VA.
    Dear Dr. Cave: Thank you for testifying at the March 12, 2009 
Healthy Families and Communities Subcommittee and Judiciary 
Subcommittee on Crime, Terrorism and Homeland Security joint committee 
hearing on ``Lost Education Opportunities in alternative settings.''
    Representative Carolyn McCarthy (D-NY), Chairwoman of the Healthy 
Families and Communities Subcommittee, has asked that you respond in 
writing to the following questions:
    1. Throughout the hearing, we continuously heard that there is 
little to no comprehensive data on youth in alternate settings and 
their educational outcomes. What kind of data is needed to best address 
the needs of youth in alternate settings and their lost educational 
opportunities?
    2. What systems need to be involved in addressing issues for youth 
in alternate settings? How might they work together to better serve the 
educational needs of this population?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, March 
24, 2009--the date on which the hearing record will close. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

            Dr. Cave's Responses to Questions for the Record

    1. Throughout the hearing, we continuously heard that there is 
little to no comprehensive data on youth in alternate settings and 
their educational outcomes. What kind of data is needed to best address 
the needs of youth in alternate settings and their lost educational 
opportunities?
    Every youth in an alternative educational setting should be able to 
be ``counted'' through a data management system. In Virginia, the 
development of a student data system, known as the Educational 
information Management System (EIMS), has made this possible. As school 
divisions enter data in the system, every student is assigned a unique, 
randomly selected number known as a ``state testing identifier'' that 
stays with the student through his or her career in the commonwealth's 
public schools. The identifier allows the Virginia Department of 
Education (VDOE) to follow students as they move from school to school, 
and as they transfer in and/or out of the Virginia public school 
system.
    The academic record of each student can be linked to the 
identifier, as can student demographic data, and school indicators, 
such as attendance, discipline, and educational plans, programs, and 
placements. Such a system enables not only individual student 
monitoring that enables early identification of at risk children, 
interventions, and transition support, but also disaggregated analysis 
of educational outcomes by student subgroups and categories.
    For example, state assessment results and graduation and dropout 
rates can be disaggregated by students who have experienced alternative 
education settings. Information can be further disaggregated by gender, 
ethnicity/race, and other characteristics of students, such as having 
disabilities, being economically disadvantaged, or being limited 
English Proficient, migrant, or homeless. Disaggregated data analysis 
provides the information necessary for supporting at risk children and 
youth through identification of priority areas of need and strategic 
and coordinated use of resources.
    A student placed in an alternative educational setting should 
arrive with a complete academic record and education history, which 
indicates courses, grade level, assessment results, individualized 
special education plan if appropriate, and educational and career goals 
and interests. In addition, the information provided to those educating 
and supporting the student in the alternative setting should include 
student supports being provided and those needed. These could include 
health related supports, counseling, and any mental health, substance 
abuse, or other therapeutic treatment. All of this information should 
be maintained while the student is in the alternative setting, in order 
that it may be provided to a receiving school upon release from the 
alternative setting, or upon transition to a ``step down'' alternative 
placement. The purpose of the development of a plan and record that 
follows the student and includes this information is to ensure the 
timely provision of appropriate educational programs and other supports 
to students, whether they are being placed in, or returning from, a 
juvenile correctional facility, a detention center, or a public or 
private alternative school.
    2. What systems need to be involved in addressing issues for youth 
in alternate settings? How might they work together to better serve the 
educational needs of this population?
    In the broadest sense, youth in alternative settings should be in 
the center of what should be interlocking systems that affect them at 
national, state, and local levels, including education, law 
enforcement, courts, juvenile justice and detention, social, economic, 
and health and mental health supports, and government. At the state 
level, development of re-enrollment regulations by the Virginia Board 
of Education and of post release mental health service transition 
regulations by the Virginia Board of Juvenile Justice illustrate the 
collaboration and alignment of systems necessary to ensure effective 
planning for the academic success and continuing improvement of 
incarcerated youth, or those in post dispositional detention programs.
    The purpose of the re-enrollment regulations are to foster 
coordination and communication among court services units, school 
divisions, detention centers, juvenile correctional centers, the 
family, and the student in planning for the educational needs of 
students in transition to long term detention or incarceration and when 
released back into the community. They were developed through the work 
of a 16 member task force, including representatives of parents, 
citizens, and youth advocates, principals from general public, 
alternative, detention, and Department of Correctional Education 
schools, parole officers, a school division central office 
administrator, and representatives from the Departments of Education, 
Correctional Education, and Juvenile Justice. The committee met for 
over a year to develop the regulations for the Virginia Board of 
Education's consideration, identifying barriers and issues and the 
procedures necessary to overcome them. The implementation of the 
regulations was supported through statewide institutes, presentations, 
and training for all stakeholders. Continuing technical support and 
follow up is necessary to ensure that the regulations are being 
followed and used as planned. Continuing communication among the state 
agencies and among representatives of school divisions and detention 
and correctional education programs is also a necessary component to 
ensure ongoing effectiveness. The regulations have provided a structure 
for promoting and requiring that communication.
    The state regulations governing mental health, substance abuse, and 
therapeutic treatment services plans for incarcerated youth were also 
developed by a task force representing stage and local agencies. 
Members of the task force included the state Departments of 
Correctional Education, Education, Medical Assistance Services, 
Rehabilitative Services, Social Services, and Corrections. Other 
members included representatives from local community service boards, 
post-dispositional detention coordinators, local government, youth 
advocates, the General Assembly, and attorneys specializing in mental 
disabilities law. The group met for over a year, and asked for the 
advice and participation of community agency representatives to develop 
the regulations. The regulations also provide structure for an 
integrated approach to service transition, including requirements for 
local interagency memoranda of understanding, eligibility reviews, 
transition planning meetings, timelines, and the development of a 
mental health transition plan for the student.
    The structure of the alternative educational program itself should 
reflect an alignment and integration of systems, from instruction and 
academic strategies to student supports, to the application of 
policies, to organizational management. A rigorous academic program 
that reflects state standards and includes analysis of data to provide 
individualized assistance and planning is one of the several 
overlapping systems. Learning cannot take place if barriers exist, and 
the counseling, behavioral management instruction, mentoring, health 
and mental health, and transition supports provided to students and 
families comprise the necessary student support system. Policies 
enacted within the educational program's administration, including 
expectations for behavior and hours of instruction, affect student 
outcomes. Organizational structure, including staffing ratios, training 
and professional development, information management systems, and 
culture and climate, provides the umbrella that can hinder or help 
student success. None of these ``systems'' should be considered in a 
vacuum, but should be aligned with a common goal of enabling student 
achievement.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 17, 2009.
Leonard Dixon, M.S., Executive Director,
Wayne County Juvenile Detention Facility, Detroit, MI.
    Dear Mr. Dixon: Thank you for testifying at the March 12, 2009 
Healthy Families and Communities Subcommittee and Judiciary 
Subcommittee on Crime, Terrorism and Homeland Security joint committee 
hearing on ``Lost Education Opportunities in alternative settings.''
    Representative Carolyn McCarthy (D-NY), Chairwoman of the Healthy 
Families and Communities Subcommittee, has asked that you respond in 
writing to the following questions:
    1. Throughout the hearing, we continuously heard that there is 
little to no comprehensive data on youth in alternate settings and 
their educational outcomes. What kind of data is needed to best address 
the needs of youth in alternate settings and their lost educational 
opportunities?
    2. What systems need to be involved in addressing issues for youth 
in alternate settings? How might they work together to better serve the 
educational needs of this population?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, March 
24, 2009--the date on which the hearing record will close. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 17, 2009.
Janeen Steel, Esq., Executive Director,
Learning Rights Law Center, Los Angeles, CA.
    Dear Ms. Steel: Thank you for testifying at the March 12, 2009 
Healthy Families and Communities Subcommittee and Judiciary 
Subcommittee on Crime, Terrorism and Homeland Security joint committee 
hearing on ``Lost Education Opportunities in alternative settings.''
    Representative Carolyn McCarthy (D-NY), Chairwoman of the Healthy 
Families and Communities Subcommittee, has asked that you respond in 
writing to the following questions:
    1. Throughout the hearing, we continuously heard that there is 
little to no comprehensive data on youth in alternate settings and 
their educational outcomes. What kind of data is needed to best address 
the needs of youth in alternate settings and their lost educational 
opportunities?
    2. What systems need to be involved in addressing issues for youth 
in alternate settings? How might they work together to better serve the 
educational needs of this population?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, March 
24, 2009--the date on which the hearing record will close. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

           Ms. Steel's Responses to Questions for the Record

    Thank you again for allowing us to testify at the House Education 
and Labor Subcommittee Hearing on March 12, 2009, entitled Lost 
Education Opportunities in Alternative Settings.
    Below are our responses to the additional questions posed to us, 
which were as follows: 1) What kind of data is needed to best address 
the needs of youth in alternative settings and their lost educational 
opportunities; and 2) What systems need to be involved in addressing 
the educational needs of this population? How might they work together 
to better serve the educational needs of this population?
    As a component to answering these questions Learning Rights Law 
Center has also made specific recommendations to help prevent youth 
from ending up in alternative schools and ultimately preventing 
involvement in the juvenile justice system. Prevention is the best 
policy to pursue when addressing the lost educational opportunities 
that are a reality of alternative educational settings.
    We are attaching several abstracts of reports that discuss the 
issues facing youth in alternative settings as well as articles about 
the expulsion rates facing pre-school children. (See Attachment A). 
These articles are not only informative, but provide the Committee with 
numerous resources of organizations working on behalf of youth. This 
information will hopefully be of use as the Committee analyzes its next 
steps.
    Question #1: What kind of data is needed to best address the needs 
of youth in alternative settings and their lost educational 
opportunities?
    At the hearing there was much testimony about why alternative 
educational settings are good and what it would take to make them 
better. Too often there is a working assumption that alternative 
education settings are necessary and that all students who attend them 
deserve to be there. As a threshold issue, we want to ensure that the 
Committee and all legislators first consider whether or not alternative 
education settings should exist in their current form, and if so, what 
narrow range of students should attend them and under what specific 
circumstances.
    a. Are we all talking about the same schools/settings?
    Not all states define alternate education schools the same way. 
This may partially explain the problem of data collection for 
alternative education settings. The term ``alternative setting'' can 
describe Charter and Magnet schools, but the ``lost educational 
opportunities'' are not happening in these alternative schools. When we 
are discussing ``lost educational opportunities'' we are discussing 
schools designed for: 1) expelled students; 2) students in detention 
facilities; 3) students transitioning back into community from juvenile 
hall, boot camps, or other detention settings; 4) students wrestling 
with truancy and other at-risk behavior; 5) pregnant and parenting 
students; 6) older students or those who need credit recovery; 7) 
students wanting independent study; and 7) special education eligible 
youth who are segregated because of their foster care status, 
delinquency status or because the public school will not provide the 
proper services (typically private and private non-profit schools).
    As the Committee considers future action we urge you to keep in 
mind what kind of alternative school is being described or lauded by 
those who testify at hearings, lobby, who write articles. Following is 
an example. While there was testimony offered at the subcommittee 
hearing about the rigorous requirements of Juvenile Justice Alternative 
Education Programs (JJAEP) in Texas, the Committee did not have the 
opportunity to hear about the Disciplinary Alternative Education 
Program (DAEP) in Texas. DAEP run schools are also ``alternative 
schools.'' In stark contrast to the JJAEP schools, whose structure and 
standard's based curriculum were discussed, DAEP schools have less 
structure and a shortened academic day. Therefore, the specific type of 
alternative school is relevant to any analysis or policy goal.
    The alternative school settings I described are plagued with a 
variety of problems including:
    1. Lack of oversight by the local school boards and state education 
agencies;
    2. Lack of special education services and qualified special 
education teachers for youth with disabilities;
    3. High turnover of teachers and absenteeism by school staff; and
    4. Punitive behavior management rather than counseling and 
interventions that prevent and control negative behavior.
    In regards to the alternative schools that are private/nonprofit, 
special education students are moved into these restrictive (and 
expensive) schools because sufficient mental health support is not 
available on comprehensive public school campuses. As a result, we 
recommend an increase in mental health (e.g. counseling) services on 
public school campuses and a relaxing of any restriction on federal 
mental health dollars that would impede funds going to school-based 
mental health.
    b. What Data Is Needed?
    Data is needed to determine the breakdown in the systems described 
in the next section. Data is needed for the following purposes: 1) To 
understand why push out occurs by looking at past practices by local 
education agencies with regard to alternative education students, 
including what preventative interventions were attempted (if any), and 
what rates of what types of students (race, age, disability, foster 
youth status, etc.) are being referred to alternative schools ; 2) To 
understand who is pushing these students out and for what reason 
through the collection of data on ``feeder schools'' to alternative 
educational settings; and 3) To understand the make-up of alternative 
schools by tracking what classes of students are pushed out into 
alternative settings (including the overrepresentation of youth of 
color).
    There are three people who the Committee may be interested in 
speaking with in regards to data collection. First is Professor Denise 
Herz at Cal. State L.A. She is at the forefront of research on foster 
youth crossing over into the delinquency system. In her past 
investigations she has gathered information on risk and resiliency 
factors for increased delinquency, including how education fits in. 
Professor Herz is also familiar with evidenced based mental health 
services and can discuss what interventions have been proven to reduce 
at-risk and generally disruptive behavior.
    Second, is Jackie Wong of the California Department of Education, 
Foster Youth Services. Ms. Wong is not only familiar with issues of 
foster youth and alternative schools, but she is also deeply involved 
in California's efforts to track students by assigning them a unique 
identifier. These measures all part of California's desires to obtain 
better data and Ms. Wong may be familiar with this state's successes 
and failures, which should guide any federal efforts to do the same.
    For qualitative rather than quantitative data, the Committee may 
benefit from hearing the voices of youth who have been in alternative 
school settings. Kim McGillicudy ``McGill'' is one of the Directors at 
Youth Justice Coalition, a community-based group for at-risk youth. Ms. 
McGill works with many youth who have been in or are currently in 
alternative schools and she is often the voice for these youth. 
Additionally, Ms. McGill helps run a charter school that was started 
because of the failings of other alternative schools in the Los Angeles 
area.
1. Why Push Out Occurs--Review of Past Practices
    Students who are in the foster care or juvenile justice system have 
usually faced a loss of school services, removals, discrimination and/
or denial or lack of special education services. In addition, some 
foster youth have been denied services and supports by the controlling 
child welfare agency. These students should not be punished because of 
failures of the systems/agencies required to assist them.
    To assist in understanding this issue there should be a federally 
mandated education review processes to increase accountability and to 
supplement the current legal standards. This review should include an 
evaluation of what has occurred prior to a student's placement at the 
alternative school. The review should also track transfers from one 
school to another (sometime called ``Opportunity Transfers''), 
expulsions and placements in segregated special education program.
    Also, youth currently in alternative schools should have their 
prior educational records reviewed and evaluated to understand their 
individual educational needs and determine past failures. To address 
this need, we suggest that each youth who has had contact with the 
juvenile justice system receive a full review of their past educational 
history. This would require the system/agency to ensure that youth are 
not being punished for behaviors that were supposed to be addressed by 
the public school. This review would provide information regarding any 
failures by the school system and other agencies to identify 
undiagnosed disabilities.
            Who Would Be Responsible for the Review?
    School districts would be responsible for this review prior to 
expulsion, removals or placement in alternative settings including 
segregated settings for foster youth.
    Probation departments would be responsible for review prior to 
recommending detention of any kind for first time offenders.
    Social workers would have to review records to prevent youth 
crossing from the foster care system to the juvenile justice system.
    In California the Rules of Court and the Welfare and Institutions 
Code Sections 241.1 do require some review, but it is not sufficient 
and these protections are not nationwide. (See Attachment B)
    See Attachment C for Learning Rights Law Center description of 
projects that use a multidisciplinary approach to stop youth from being 
pushed into alternative settings or into the juvenile justice system: 
Crossover Youth Project and School to Prison Reversal Project
2. Who is Pushing Students Out and for What Reason--Data on ``Feeder 
        Schools''
    Data is needed to determine the public schools that ``feed'' into 
alternative schools. Too often schools push out students willy nilly 
and in violation of their own local education agency's policies because 
there is little disincentive to get rid of youth labeled as ``problem 
students''. Neither local schools nor the local education agency can 
account for how many students were referred out, for what reason, what 
types of students this includes (e.g. race, age, disability) and 
perhaps most importantly, whether or not these students actually 
enrolled in an alternative school or simply fell between the cracks and 
are now truant.
3. Make-up of Students in Alternative Settings.
    The data regarding the make-up of students in alternative settings 
is not tracked effectively. It is difficult to gauge why students 
entered the school and from what home school they arrived. Defining 
characteristics, like foster care or disability status, are also at 
times elusive. Also, statistics indicate that overwhelmingly youth of 
color are ending up in alternative education schools. As a result, data 
should be kept on these traits, as well as other suspect classes to 
monitor whether or not education laws (and federal education dollars) 
are being used to discriminate.
    Question #2: What systems need to be involved in addressing the 
educational needs of this population? How might they work together to 
better serve the educational needs of this population?
    Preventing placement in alternative schools should be our first 
plan of action. This requires collaboration with the multiple systems 
that work with youth who are in or at-risk of involvement in the 
juvenile justice system or in the foster care system. First, we need to 
define the systems involved and discuss how they can collaborate. 
Because we are most familiar with California we are listing the 
agencies/systems in California and how they can work better with the 
other systems.
1. Public School System
    Public schools should utilize their university partners to enhance 
their ability to evaluate their programs to determine their 
effectiveness. Schools should work more closely with community-based 
organizations serving youth. Structurally, states should provide more 
funding opportunities for community-based organizations to work with 
schools.
    Every school should know the community-based organizations in their 
community. There are resources in the community, but they are under-
utilized by public schools, who often work in silos. Also, improving 
partnerships with organizations rooted in the community can also help 
to decrease racial disparities and discrimination.
    Students with learning disabilities must be provided with research-
based services, accommodations, and technology support. Laws must be 
changed or enhanced to reiterate the requirement that federal dollars 
be used on research-based services (which exist presently), and that 
those programs must be implemented with fidelity.
    We know that the harmful effects of school exclusion policies are 
not evenly distributed among the student population; students of color 
are more likely to be suspended or removed. Schools must work on 
deliberate plans to go beyond data analysis of racial disparities to 
take actual steps to decrease the number of minority youth at risk of 
being placed in alternative educational settings.
    If schools implement a school-wide behavior management system and 
structure that educates based on individual needs, they can likely 
prevent both individual exclusion and the overrepresentation of youth 
of color who are systematically diagnosed as emotionally disturbed.
2. Community-Based Organizations
    In addition to Learning Rights Law Center there are numerous 
agencies that work with at-risk youth. Each community should 
investigate the community organizations that work with at-risk youth.
3. Probation System
    The department of probation works with youth involved in the 
juvenile justice system. In Los Angeles, the Los Angeles County 
Probation Department provides supervision both in schools, in the 
community and in detention facilities. Probation should work with both 
community based organizations and schools to prevent the entry into the 
system.
4. Mental Health Systems
    Mental health systems include services provided in the community 
through publicly funded insurance programs (e.g. Medic-Aid and Medi-
Cal) special education and non-profit agencies. More dollars should be 
freed up for community-based mental health services (which have been 
proven to be more effective and save dollars). Federal laws and 
regulations should state a preference or requirement for community-
based programs that are evidence-based. Mental health services on-site 
at public schools should be increased to prevent the need for 
alternative educational settings.
5. Child Welfare Agencies--Department of Children and Family Services 
        (DCFS)
    Social workers provide services and support to children who have 
been removed from their parents for abuse and/or neglect. If services 
are withheld or the incorrect support/intervention is implemented, 
behavior can escalate (Note, Denise Herz, mentioned above is the expert 
on this topic). As a result the Child Welfare system must be required 
to use evidence-based interventions in order to prevent the need for 
costly alternative schools, especially special education schools for 
emotionally disturbed youth (which are filled with under-served foster 
youth). Child welfare agencies must better coordinate with the public 
schools to ensure quick enrollment and school stability. Both of these 
are currently guaranteed by federal law (McKinney Vento Act) but rarely 
enforced.
6. Universities
    At Loyola Law School in Los Angeles and at the UCLA School of Law, 
there are juvenile justice programs to address the needs of court 
involved youth. Learning Rights is the partner organization with UCLA. 
These partnerships multiply the efficacy of resources. As a result 
there should be an increase in partnerships with universities, which 
can provide research, best practices, expertise, and data analysis 
support. Universities should coordinate with hospitals, mental health 
programs, and other service agencies. Any federal funding limitations 
that constrain this exchange should be lifted.
 #3 learning rights law center recommendations to prevent the need for
                     alternative education schools
    Based on our experience and expertise of working with court-
involved youth for nine years we are making the following 
recommendations to ensure youth are getting the education services in 
the public school and prevent further placement in alternative 
settings.
    a. Recommendations for legislative change:
    i. Amend the Individuals with Disabilities Education Improvement 
Act (IDEIA) to list specific related services in the area of mental 
health that are evidence based (e.g. wraparound, multi-systemic 
therapy, therapeutic behavior services). See 34 CFR 300.34.
    ii. Amend No Child Left Behind (NCLB), Part D, ``Prevention and 
Intervention Programs for Children and Youth who are Neglected, 
Delinquent, or At-Risk'' to give more ``teeth'' to requirements for 
behavior services to assist at-risk youth.
    Part D requires that states participating must require that the 
Local Education Agencies (LEA) must remain financially responsible for 
the education of youth, even if they are expelled and transferred to an 
alternative school.
    iii. Mandate educational interventions instead of suspensions and 
removals.
    Education should not merely be an option for students, but rather a 
fundamental right. School districts should provide mandatory, quality 
educational programs in the least restrictive environment rather than 
suspending or removing students for behavior that can be through an 
educational intervention. The use of suspensions and removals is not an 
adequate remedy to address student behavioral difficulties.
    iv. Implement and enforce school-wide behavior management 
structures.
    There must be researched based structures in schools to address 
behavior and that address the individual youth. A student who is 
struggling academically, socially and emotionally may display behavior 
that could be addressed. Each student should have a behavior management 
plan if needed to address their social and emotional needs, address 
their academic needs, and assist them with actually being successful 
students. There is nothing in the law that supports this. We currently 
have laws that are punitive in nature, and there is no guidance for 
schools to be supportive of students' needs. Currently, for students 
with special needs, there are legally mandated requirements to address 
behavior BUT these requirements are currently not enforced.
    v. Support teachers to prevent turnover and absences to ensure 
consistency in educational programs.
    There must be some accountability structure in place to address the 
incredible turnover and absenteeism in high poverty schools. We must 
find out how to keep teachers and support them.
    vi. Expand school counseling and social work services in 
comprehensive campuses.
    Currently, school counselors are overwhelmed with their 
responsibilities. The national average for high schools is 229 students 
per counselor, while in the K-8 system has an alarming 882:1 ratio. We 
should increase the capacity of school counselors at school sites to 
not only address students' ability to function in the school setting, 
but also to provide the safety net for students. Students turn to 
counselors to engage in confidential conversations with them to discuss 
issues that they may have nowhere else to turn.
    Moreover, the increased presence of social workers on school 
campuses can benefit students. Social workers can work on the 
development of community resources to help the family. They can also 
bring community resources to the schools.
    vii. Assess educational services prior to transfer or removal.
    There should be a written plan for every student prior to any 
transfer or removal. Currently, this is not happening. We need to 
strengthen the laws regarding preventive measures that need to be taken 
before transfer or removal.
    Thank you again for the opportunity to provide information to the 
Committee. We are happy to provide any additional information you may 
need.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 17, 2009.
Dr. Robert Whitmore, Chief Executive Officer,
Manito, Inc., Chambersburg, PA.
    Dear Dr. Whitmore: Thank you for testifying at the March 12, 2009 
Healthy Families and Communities Subcommittee and Judiciary 
Subcommittee on Crime, Terrorism and Homeland Security joint committee 
hearing on ``Lost Education Opportunities in alternative settings.''
    Representative Carolyn McCarthy (D-NY), Chairwoman of the Healthy 
Families and Communities Subcommittee, has asked that you respond in 
writing to the following questions:
    1. Throughout the hearing, we continuously heard that there is 
little to no comprehensive data on youth in alternate settings and 
their educational outcomes. What kind of data is needed to best address 
the needs of youth in alternate settings and their lost educational 
opportunities?
    2. What systems need to be involved in addressing issues for youth 
in alternate settings? How might they work together to better serve the 
educational needs of this population?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, March 
24, 2009--the date on which the hearing record will close. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

          Dr. Whitmore's Responses to Questions for the Record

    Question 1: ``Throughout the hearing, we continuously heard that 
there is little to no comprehensive data on youth in alternative 
settings and their educational outcomes. What kind of data is needed to 
best address the needs of youth in alternate settings and their lost 
educational opportunities?

    It has been my experience that youth placed in alternative settings 
are usually placed for very short periods of time. This time period can 
be from a few days to usually not more than six months. The focus of 
this placement is usually for behavior or treatment reasons and 
addressing these issues is more important to what is occurring with the 
child than how she/he is progressing academically. These placements are 
already tracked and outcomes measured through the juvenile justice or 
mental health systems.
    Most students, when they enter alternative placements, are behind 
academically. Often a student has also been in multiple alternative 
placements and there is a lack of educational records of the student's 
progress. School records are often incomplete and have been shifted 
between placement settings. The responsibility of the alternative 
placement setting should be to compile an accurate academic record and 
academic achievement level for the student. Once this is completed the 
educational focus should be on improving the reading, writing, and math 
proficiency levels of the student. When the child leaves the 
alternative placement they should have an up to date academic 
transcript and educational plan, and be able to show improvement in 
reading and math scores on a standardized assessment tool.

    Question 2: What systems need to be involved in addressing issues 
for youth in alternate settings? How might they work together to better 
serve the educational needs of this population?

    Every aspect of the whole child should be addressed when the child 
is placed in an alternate setting. The systems that may impact these 
children include the educational system, mental health system, juvenile 
justice system, children and youth social service system, and public 
health system. The needs presented by these children are complex and 
interconnected. The total needs of the whole child should be our focus 
and this can not be addressed by categorical systems.
    We need to develop a plan to deliver seamless holistic services to 
children at risk. A child's presenting problem(s) should be addressed 
regardless of labels, diagnosis, what system a child falls into, or 
funding. As a provider of services to these lost children, I see a 
consistent shifting of responsibility for children's care between 
competing systems and competing funding streams. Many times children do 
not receive services because a particular system does not want to pay 
for the services. This does not help the child and the problems 
continue to escalate.
    The best way to deliver holistic and seamless services to children 
is to re-design the way we deliver services. Categorical systems should 
operate at the federal level to provide vision, research, and the 
development of promising practices and evidence based programs for 
addressing specific needs of children. At the state and local level 
categorical systems should be eliminated. At the state level a 
Department of Children could be established that provides a 
comprehensive, seamless and holistic approach to children. This 
Department would integrate all of the research and promising practices 
developed for children and provide resources and guidance to the local 
providers of services.
    At the local level services are delivered to children and their 
families. The school should be the central location and depository of 
all services to children. Each school district should have a 
comprehensive array of services that can be available for children. 
This continuum of services should include education services, mental 
health services, family counseling, drug and alcohol counseling, public 
health services, and housing and poverty assistance. Children can be 
assessed to determine risk and protective factors that are prevalent 
within their lives. An intervention plan of supported services can be 
developed for the child that addresses the identified risk factors and 
reinforces protective factors. These services will be available within 
the school environment and supported with non-categorical funding.
    These thoughts are not presented with an accompanying request for 
allocating more money at the federal level. Our existing services are 
inefficient and ineffective in the delivery of educational and 
supportive services to children in alternate placements. We are 
spending excessive money and children are getting lost because they are 
bounced between systems and constant discussion about who is going to 
take responsibility for their care. Creating a seamless integrated and 
comprehensive network of services for children that are needs focused 
and delivered from the school system will create a wonderful support 
for children and prevent them from becoming lost. This seamless system 
would also be more cost effective, more efficient, and allow us to do 
more prevention work with younger children.
    Thank you for this opportunity to comment.
                                 ______
                                 
    [Additional submissions of Ms. Steel follow:]

                                              ABSTRACTS OF ARTICLES
----------------------------------------------------------------------------------------------------------------
Article                                         Article Abstract/Key Facts
----------------------------------------------------------------------------------------------------------------
     1   GAO., Child Welfare & Juvenile Justice: Federal Agencies Could Play a stronger Role in Helping States
          Reduce the Number of Children Placed Solely to Obtain Mental Health Services.
         Findings:
         <bullet> In 2001 (in 19 states, 30 counties) parents placed over 12,700 children into the child welfare
          or juvenile justice systems so that these children could receive mental health services. (placement)
         <bullet> Nationwide number likely higher
         <bullet> Child welfare or JJ system not designed to serve children who have not been abused or
          neglected or who have not committed a delinquent act.
         <bullet> Poor health insurance, inadequate supplies of mental health (MH) services, limited
          availability of services through MH agencies and schools, & difficulties meeting eligibility rules--
          influenced such placement.
         <bullet> Practices that might reduce such placements: reduce cost of or fund M services, improving
          access to MH services, and expanding array of available services.
         Recommendations:
         <bullet> Health & Human Serv. (HHS) & Dept. of Justice (DOJ) should consider feasibility of tracking
          children in such placements.
         <bullet> HHS, DOJ & Dept. of Ed should develop an interagency working group to identify causes of
          misunderstandings by Officials & create action plan.
         <bullet> These agencies should also continue to encourage states to evaluate the programs that they
          fund & determine effective means of disseminating the results of this and other studies.
         Quotes:
         <bullet> In some cases, parents must choose to keep their children at home without receiving the MH or
          supportive services they need or to remove them from their home and seek alternative living
          arrangements by placing them in the child welfare or JJ system to obtain MH services.
         <bullet> More likely to be adolescent boys between the age of 13 and 18.
----------------------------------------------------------------------------------------------------------------
     2   Truman Joseph., Disability & Delinquency: How Failures to Identify, Accommodate and Serve Youth with
          Education-Related Disabilities Lead to Their Disproportionate Representation in the Delinquency System
         Quotes:
         <bullet> The Delinquency System disproportionately attracts children with education-related
          disabilities both because those children are more likely to engage in delinquent conduct than their
          non-disabled peers & because the adults responsible for educational & delinquency systems are more
          likely to label and treat children with educational-related disabilities as delinquent.
         <bullet> Of the 100k children who are arrested & incarcerated each year as many as 50% suffer from
          mental or emotional disturbance. (4)
         <bullet> Jails unprepared to deal with these kids. Medication not given or monitored and guards do not
          know how to respond to these kids.
         <bullet> Failure of some schools system personnel to find, evaluate and serve children with
          disabilities fuels the over-representation of disabled children in the JJ system.
----------------------------------------------------------------------------------------------------------------
     3   Dignity in Schools Campaign., The Right to Education in the Juvenile and Criminal Justice Systems in
          the US.
         Introduction
         <bullet> Education is a fundamental human right
         <bullet> Nearly every state constitution recognizes the right of education.
         <bullet> US commitment to education incarcerated persons has varied through history.
         <bullet> Under Human rights law U.S has made international commitments.
         School to Prison Pipelin
         <bullet> School system has become a key entry point into the JJ system.
         <bullet> Suspensions & expulsions are shown to increase the likelihood of school dropout incarceration
          and police presence in school has criminalized an array of juvenile behavior resulting in arrest that
          would previously be handled by administrators.
         <bullet> Mental health issues are addressed through punishment rather than treatment.
         Incarceration rates.
         <bullet> Of the 100,000 children who are arrested 50% have some mental or emotional issue.
----------------------------------------------------------------------------------------------------------------
     4   Ryan, Joseph., Marshall, Jane Marie., Herz, Denise., Hernandez, Pedro.,Juvenile Delinquency in Child
          Welfare: Investigating Group Home Effects
         The study investigates the relationship between group home placements in child welfare and the risk of
          delinquency. The results indicate that the relative risk of delinquency is approximately two and one
          half times greater for adolescents with at least one group home placement as compared with youth in
          foster care settings. This finding raises serious questions about the use of group homes for victims
          of physical abuse and neglect.
----------------------------------------------------------------------------------------------------------------
     5   Ed Source., California's Continuation Schools
         <bullet> More than 10% of California's Public H.S students attend some kind of ``alternative'' program
         <bullet> Often identified as ``struggling'' within a regular HS and in danger of not graduating on time
          or dropping out.
         <bullet> Four Main Types: Continuation Schools; Community Day Schools, County run community schools;
          independent study programs
         <bullet> Continuation school students more likely to drop out
         <bullet> Students of these schools more likely to be minorities.
         <bullet> Students more likely to be in foster care or living with relative other than parent
         <bullet> Regulatory framework ambiguous and fragmented.
----------------------------------------------------------------------------------------------------------------
     6   Gilliam., Pre-Kindergarteners Left Behind: Expulsion Rates in State Pre-K Programs
         <bullet> Pre-k students are expelled at a rate more than three times that of their older peers in the k-
          12 grades
         <bullet> Although rates of expulsion vary widely among the 40 states funding pre-k, state expulsions
          rates for pre-k exceed those in k-12 classes in all but three states.
         <bullet> Pre-k expulsion rates vary by classroom setting. Expulsion lowest in classrooms located in
          public schools and Head Start and highest in faith-affiliated centers and for-profit child care.
         <bullet> The likelihood of expulsion decreases significantly with access to classroom-based behavioral
          consultation.
----------------------------------------------------------------------------------------------------------------
     7   Ramsey., Analysis of Preschool Expulsion
         Intoduction
         <bullet> K-12 compulsory
         <bullet> California children not required to go to pre-k
         <bullet> Pre-K students do not have the same sort of legal protections as K-12
         California's Pre-School Framework
         <bullet> The variety of programs available means that different laws and regulations apply to each.
          Such as staff-child ratios, definitions of preschool child age, staff qualifications and program
          contact.
         <bullet> State funded pre-schools can expel children for both ``behavioral and non-behavioral
          reasons''--Behavior that endanger the health and safety of other children or staff or Late pick ups or
          excessive unexcused absences.
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

   California Rules of Court and Welfare and Institutions Code 241.1

1. 2009 California Rules of Court to Ensure Education Issues Are 
        Addressed by the Juvenile Court
    Rule 5.651. Educational rights of children before the juvenile 
court (a) Applicability (Sec. Sec.  213.5, 319, 358, 358.1, 364, 
366.21, 366.22, 366.23, 366.26, 366.28, 366.3, 727.2, 11404.1; Gov. 
Code, Sec.  7579.1; 20 U.S.C. Sec.  1400 et seq.; 29 U.S.C. Sec.  794; 
42 U.S.C. Sec.  12101 et seq.) This rule has the following 
applicability and incorporates the rights established by the following 
laws: (1) The rule applies to all children for whom petitions have been 
filed under section 300, 601, or 602; (2) The rule applies to every 
hearing before the court affecting or related to the child's education, 
including detention, jurisdiction, disposition, and all regularly 
scheduled review hearings; and (3) The rule incorporates the rights 
established by the following laws: the Individuals With Disabilities 
Education Act (20 U.S.C. Sec.  1400 et seq.), the Americans With 
Disabilities Act (42 U.S.C. Sec.  12101 et seq.), section 504 of the 
Rehabilitation Act of 1973 (29 U.S.C. Sec.  701 et seq.), and the 
education rights of foster children as provided in Assembly Bill 490 
(Stats. 2003, ch. 862) and Assembly Bill 1858 (Stats. 2004, ch. 914).
    (b) Conduct of hearings related to, or that may affect, a child's 
education (1) To the extent the information is available, at the 
initial or detention hearing the court must consider: (A) Who holds 
educational rights; (B) If the child was enrolled in, and is attending, 
the child's school of origin as defined in Education Code section 
48853.5(e); (C) If the child is no longer attending the school of 
origin, whether; (i) In accordance with the child's best interest, the 
educational liaison, as defined in Education Code section 48853.5(b), 
in consultation with, and with the agreement of, the child and the 
parent or guardian or other educational representative, recommends that 
the child's right to attend the school of origin be waived; (ii) Prior 
to making any recommendation to move a foster child from his or her 
school of origin, the educational liaison provided the child and the 
person holding the right to make educational decisions for the child 
with a written explanation stating the basis for the recommendation and 
how this recommendation serves the foster child's best interest as 
provided in Education Code section 48853.5(d)(3); (iii) Without 
obtaining a waiver, the child was not afforded his or her right to 
attend his or her school of origin under Education Code section 
48853.5(d)(1); and (iv) The child was immediately enrolled in the new 
school as provided in Education Code section 48853.5(d)(4). (D) Whether 
the parent's or guardian's educational rights should be temporarily 
limited; and (E) Taking into account other statutory considerations 
regarding placement, whether the out-of-home placement: (i) Is the 
environment best suited to meet the unique needs of children with 
disabilities and to serve the child's best interest if he or she has a 
disability; and (ii) Promotes educational stability through proximity 
to the child's school.
    (2) At the disposition hearing and at all subsequent hearings 
provided for in (a), the juvenile court must address and determine the 
child's general and special education needs, identify a plan for 
meeting those needs, and provide a clear, written statement using 
Findings and Orders Limiting Right to Make Educational Decisions for 
the Child, Appointing Educational Representative, and Determining 
Child's Educational Needs (form JV-535), specifying the person who 
holds the educational rights for the child. The court's findings and 
orders must address the following:
    (A) Whether the child's educational, physical, mental health, and 
developmental needs are being met; (B) Any services, assessments, or 
evaluations, including those for special education and related 
services, that the child may need; (C) Who is directed to take the 
necessary steps for the child to begin receiving any necessary 
assessments, evaluations, or services; (D) If the child's educational 
placement changed during the reporting period, whether (i) The child's 
educational records, including any evaluations of a child with a 
disability, were transferred to the new educational placement within 
two business days of the request for the child's enrollment in the new 
educational placement; and (ii) The child is enrolled in and attending 
school; and (E) Whether the parent's or guardian's educational rights 
should be limited; (i) If the court finds the parent's or guardian's 
educational rights should not be limited, the court must direct the 
parent to his or her rights and responsibilities in regard to the 
child's education as provided in rule 5.650(e) and (f); or (ii) If the 
court finds the parent's or guardian's educational rights should be 
limited, the court must determine who will hold the child's educational 
rights. The court must explain to the parent or guardian why the court 
is limiting his or her educational rights and must direct the parent or 
guardian to the rights and responsibilities of the education 
representative as provided in rule 5.650(e) and (f).
    (c) Reports for hearings related to, or that may affect, a child's 
education This subdivision applies at all hearings, including 
disposition and joint assessment hearings. The court must ensure that, 
to the extent the information was available, the social worker and the 
probation officer provided the following information in the report for 
the hearing: (1) The child's age, behavior, educational and 
developmental achievement, and any discrepancies in achievement in 
education and in cognitive, physical, and emotional development; (2) 
Identification of the child's educational, physical, mental health, or 
developmental needs; (3) Whether the child is participating in 
developmentally appropriate extracurricular and social activities; (4) 
Whether the child is attending a comprehensive, regular, public or 
private school; (5) Whether the child may have physical, mental, or 
learning-related disabilities or other special education needs and is 
in need of or is already receiving special education and related 
services as provided by the laws incorporated in rule 5.651(a)(3); (6) 
If the child is 0 to 3 years old, whether the child may be eligible for 
or is already receiving services available under the California Early 
Intervention Services Act (Gov. Code, Sec.  95000 et seq.), and whether 
those services are appropriate; (7) If the child is between 3 and 5 
years and is or may be eligible for special education services, whether 
the child is receiving the early educational opportunities provided by 
Education Code section 56001; (8) Whether the child is receiving 
appropriate services through a current individualized education 
program; (9) Whether the child is or may be eligible for regional 
center services or is already receiving regional center services. 
Copies of the current individual family plan as defined in section 1436 
under title 20 of the United States Code and the current life quality 
assessments as defined in Welfare and Institutions Code section 4570 
should be attached to the report; (10) Whether the parent's or 
guardian's educational rights have been or should be limited; (11) If 
the social worker or probation officer recommends limiting the parent's 
or guardian's right to make educational decisions, the reasons those 
rights should be limited and the actions that the parent or guardian 
may take to restore those rights if they are limited; (12) If the 
parent's or guardian's educational rights have been limited, who holds 
the child's educational rights; (13) Recommendations and case plan 
goals to meet the child's identified educational, physical, mental 
health, and developmental needs; (14) Whether any orders to direct an 
appropriate person to take the necessary steps for the child to begin 
receiving assessments, evaluations, or services, including those for 
special education and related services, are requested; and; (15) In the 
case of joint assessments, a separate statement by each of the two 
departments regarding whether the respective social worker and 
probation officer believe that the child may have a disability and 
whether the child is in need of special education and related services 
or requires evaluation as required by title 20 United States Code 
section 1412(a)(3), Education Code section 56425, or section 504 of the 
Rehabilitation Act of 1973.
    (d) Continuances or stay of jurisdiction If any continuance 
provided for in rules 5.686 and 5.782 or stay of jurisdiction provided 
for in rule 5.645 is granted, the child must continue to receive all 
services or accommodations required by the laws incorporated in rule 
5.651(a)(3).
    (e) Change of placement affecting the child's right to attend the 
school of origin This subdivision applies to all changes of placement 
including the initial placement and all subsequent changes of 
placement. (1) At any hearing that relates to or may affect the child's 
education and that follows a removal of the child from the school of 
origin the court must find that: (A) The social worker or probation 
officer notified the court, the child's attorney, and the educational 
representative or surrogate parent that the proposed placement or 
change of placement would result in a removal of the child from the 
child's school of origin. The court must find that the notice was 
provided within 24 hours, excluding nonjudicial days, of the social 
worker's or probation officer's determination that the proposed change 
of placement would result in removal of the child from the school of 
origin. (B) If the child had a disability and an active individualized 
education program prior to removal, the social worker or probation 
officer, at least 10 days before the change of placement, notified in 
writing the local educational agency that provided a special education 
program for the child prior to removal and the receiving special 
education local plan area, as defined in Government Code section 
7579.1, of the impending change of placement. (2) After receipt of the 
notice in (1): (A) The child's attorney must, as appropriate, discuss 
the proposed move from the school of origin with the child and the 
person who holds educational rights. The child's attorney may request a 
hearing by filing Request for Hearing Regarding Child's Education (form 
JV-539). If requesting a hearing, the child's attorney must: (i) File 
form JV-539 no later than two court days after receipt of the notice in 
(1); and (ii) Provide notice of the court date, which will be no later 
than seven calendar days after the form was filed, to the parents or 
guardians, unless otherwise indicated on form JV-535; the social 
worker; the probation officer; the educational representative or 
surrogate parent; the foster youth liaison, as defined in Education 
Code section 48853.5; the Court Appointed Special Advocate (CASA) 
volunteer; and all other persons required by section 293. (B) The 
person who holds educational rights may request a hearing by filing 
form JV-539 no later than two court days after receipt of the notice in 
(1). After receipt of the form, the clerk must notify the persons in 
(e)(2)(A)(ii) of the hearing date. (C) The court on its own motion may 
direct the clerk to set a hearing. (3) If removal from the school of 
origin is disputed, the child must be allowed to remain in the school 
of origin pending this hearing and pending any disagreement between the 
child, parent, guardian, or educational representative and the school 
district. (4) If the court, the child's attorney, or the person who 
holds educational rights requests a hearing, at the hearing the court 
must find that the social worker or probation officer provided a report 
no later than two court days after form JV-539 was filed and that the 
report included the information required by (b)(1)(C)(i) and (ii) and: 
(A) Whether the foster child has been allowed to continue his or her 
education in the school of origin for the duration of the academic 
school year; (B) Whether a dispute exists regarding the request of a 
foster child to remain in the school of origin and whether the foster 
child has been afforded the right to remain in the school of origin 
pending resolution of the dispute; (C) Information addressing whether 
the information sharing and other requirements in section 16501.1(c)(2) 
and Education Code section 49069.5 have been followed; (D) Information 
addressing how the proposed change serves the best interest of the 
child; (E) responses to the proposed change of placement from the child 
if over 10 years old, the child's attorney, the parent or guardian, the 
foster youth liaison, as defined in Education Code section 48853.5, and 
the child's CASA volunteer, specifying whether each person agrees or 
disagrees with the proposed change and, if any person disagrees, 
stating why; (F) A statement from the person holding educational rights 
regarding whether the proposed change of placement is in the child's 
best interest and what efforts have been made to keep the child in the 
school of origin; and (G) A statement from the social worker or 
probation officer confirming that the child has not been segregated in 
a separate school, or in a separate program within a school, based on 
the child's status as a child in foster care.
    (f) Court review of proposed change of placement affecting the 
child's right to attend the school of origin (1) At the hearing set 
under (e)(2), the court must: (A) Determine whether the proposed 
placement meets the requirements of this rule and Education Code 
sections 48853.5 and 49069.5 and whether the proposed plan is based on 
the best interest of the child; (B) Determine what actions are 
necessary to ensure the child's educational and disability rights; and 
(C) Make the necessary findings and orders to enforce these rights, 
which may include an order to set a hearing under section 362 to join 
the necessary agencies regarding provision of services, including the 
provision of transportation services, so that the child may remain in 
his or her school of origin. (2) When considering whether it is in the 
child's best interest to remain in the school of origin, the court must 
consider the following: (A) Whether the parent, guardian, or other 
educational representative believes that remaining in the school of 
origin is in the child's best interest; (B) How the proposed change of 
placement will affect the stability of the child's school placement and 
the child's access to academic resources, services, and extracurricular 
and enrichment activities; (C) Whether the proposed school placement 
would allow the child to be placed in the least restrictive educational 
program; and (D) Whether the child has the educational supports 
necessary, including those for special education and related services, 
to meet state academic achievement standards. (3) The court may make 
its findings and orders on Findings and Orders Regarding Transfer From 
School of Origin (form JV-538). Rule 5.651 adopted effective January 1, 
2008.
Advisory Committee Comment
    This rule incorporates the requirement of, and rights established 
by, Assembly Bill 490 (Steinberg; Stats. 2003, ch. 862), Assembly Bill 
1858 (Steinberg; Stats. 2004, ch. 914), the Individuals With 
Disabilities Education Act (IDEA), the Americans With Disabilities Act 
(ADA), and section 504 of the Rehabilitation Act of 1973. This rule 
does not limit these requirements or rights. To the extent necessary, 
this rule establishes procedures to make these laws meaningful to 
children in foster care.
    With the passage of Assembly Bill 490, a child in, or at risk of 
entering, foster care has a statutory right to a meaningful opportunity 
to meet the state's academic achievement standards to which all 
students are held. To afford the child this right, the juvenile court, 
advocates, placing agencies, care providers, and educators must work 
together to maintain stable school placements and ensure that the child 
is placed in the least restrictive educational programs and has access 
to the academic resources, services, and extracurricular and enrichment 
activities that are available to other students. This rule, sections 
362 and 727, and rule 5.575 provide procedures for ensuring that the 
child's educational needs are met.
    Congress has found that improving the educational performance of 
children with disabilities is an essential prerequisite to ensuring 
their equality of opportunity, full participation in education, and 
economic self-sufficiency. Children in foster care are 
disproportionately represented in the population of children with 
disabilities and inherently face systemic challenges to attaining self-
sufficiency. Children in foster care have rights arising out of the 
IDEA, the ADA, and section 504 of the Rehabilitation Act of 1973. To 
comply with federal requirements regarding the identification of 
children with disabilities and the provision of services to those 
children who qualify, the court, parent or guardian, placing agency, 
attorneys, CASA volunteer, local education agencies, and educational 
representatives must affirmatively address the child's educational 
needs. The court must continually inquire about the education of the 
child and the progress being made to enforce any rights the child has 
under these laws.
2. Protections for Foster Youth At-Risk of Crossing Over Into the 
        Delinquency System
            California Welfare and Institutions Code Sec 241.1.
    (a) Whenever a minor appears to come within the description of both 
Section 300 and Section 601 or 602, the county probation department and 
the child welfare services department shall, pursuant to a jointly 
developed written protocol described in subdivision (b), initially 
determine which status will serve the best interests of the minor and 
the protection of society. The recommendations of both departments 
shall be presented to the juvenile court with the petition that is 
filed on behalf of the minor, and the court shall determine which 
status is appropriate for the minor. Any other juvenile court having 
jurisdiction over the minor shall receive notice from the court, within 
five calendar days, of the presentation of the recommendations of the 
departments. The notice shall include the name of the judge to whom, or 
the courtroom to which, the recommendations were presented.
    (b) The probation department and the child welfare services 
department in each county shall jointly develop a written protocol to 
ensure appropriate local coordination in the assessment of a minor 
described in subdivision (a), and the development of recommendations by 
these departments for consideration by the juvenile court. These 
protocols shall require, which requirements shall not be limited to, 
consideration of the nature of the referral, the age of the minor, the 
prior record of the minor's parents for child abuse, the prior record 
of the minor for out-of-control or delinquent behavior, the parents' 
cooperation with the minor's school, the minor's functioning at school, 
the nature of the minor's home environment, and the records of other 
agencies which have been involved with the minor and his or her family. 
The protocols also shall contain provisions for resolution of 
disagreements between the probation and child welfare services 
departments regarding the need for dependency or ward status and 
provisions for determining the circumstances under which a new petition 
should be filed to change the minor's status.
    (d) Except as provided in subdivision (e), nothing in this section 
shall be construed to authorize the filing of a petition or petitions, 
or the entry of an order by the juvenile court, to make a minor 
simultaneously both a dependent child and a ward of the court.
    (e) Notwithstanding the provisions of subdivision (d), the 
probation department and the child welfare services department, in 
consultation with the presiding judge of the juvenile court, in any 
county may create a jointly written protocol to allow the county 
probation department and the child welfare services department to 
jointly assess and produce a recommendation that the child be 
designated as a dual status child, allowing the child to be 
simultaneously a dependent child and a ward of the court. This protocol 
shall be signed by the chief probation officer, the director of the 
county social services agency, and the presiding judge of the juvenile 
court prior to its implementation. No juvenile court may order that a 
child is simultaneously a dependent child and a ward of the court 
pursuant to this subdivision unless and until the required protocol has 
been created and entered into. This protocol shall include: (1) A 
description of the process to be used to determine whether the child is 
eligible to be designated as a dual status child. (2) A description of 
the procedure by which the probation department and the child welfare 
services department will assess the necessity for dual status for 
specified children and the process to make joint recommendations for 
the court's consideration prior to making a determination under this 
section. These recommendations shall ensure a seamless transition from 
wardship to dependency jurisdiction, as appropriate, so that services 
to the child are not disrupted upon termination of the wardship. (3) A 
provision for ensuring communication between the judges who hear 
petitions concerning children for whom dependency jurisdiction has been 
suspended while they are within the jurisdiction of the juvenile court 
pursuant to Section 601 or 602. A judge may communicate by providing a 
copy of any reports filed pursuant to Section 727.2 concerning a ward 
to a court that has jurisdiction over dependency proceedings concerning 
the child. (4) A plan to collect data in order to evaluate the protocol 
pursuant to Section 241.2.
                                 ______
                                 

        Foster Care Education Advocacy--Crossover Youth Project

    Foster youth face unending obstacles to obtaining consistent 
education services and are many times segregated into special education 
schools rather than education in the public education system with their 
peers. As a result, LRLC provides direct education advocacy to ensure 
foster youth are not segregated into special education schools and also 
provides support with the Crossover Youth Project, which is outlined 
below.
Crossover Youth Project
    Learning Rights Crossover Youth Project was created when LRLC was 
asked to participate in the AB129 pilot program sponsored by the Los 
Angeles County Juvenile Court system. The goal of the pilot is to 
prevent ``at-risk youth'' in the foster care system from ``crossing 
over'' to the delinquency system by offering a multidisciplinary 
approach to evaluating their needs. A multidisciplinary team (``MDT'') 
including representatives from the Los Angeles County Department of 
Child and Family Services (``DCFS''), the Probation Department, and the 
Department of Mental Health, a placement specialist from the Los 
Angeles County Department of Child and Family Services, and an 
educational specialist from LRLC was established to evaluate the needs 
of youth referred to the program, make recommendations regarding 
placement and services deemed appropriate for the youth, and monitor 
the implementation of the recommendations.
    As a member of the MDT, LRLC evaluates the educational history of 
youth referred to the program and creates a report detailing the 
youth's education history, suspected educational needs, and potential 
concerns regarding the youth's current educational placement and 
services. Learning Rights then makes recommendations for improvement 
and monitors implementation of the recommendations by providing 
technical assistance to social workers, probation officers, and 
education consultants hired by DCFS.
    The AB129 pilot program began accepting referrals in May of 2007. 
Since then some preliminary statistics have been gathered for 25 youth 
receiving services from the MDT and a control group of 25 youth not 
receiving services from the MDT. This data suggests that basic 
educational facts necessary to ensure a youth is receiving appropriate 
educational services are not being gathered for at-risk foster youth 
not involved in the pilot program. 80% of the control group youth did 
not have an education rights holder identified. When a youth's parents 
are not involved in their life, an education rights holder must be 
identified to make educational decisions for the youth. These decisions 
include requesting and consenting to educational assessments and 
changes in placement. Only 10% of youth involved in the pilot did not 
have an education rights holder identified.
    Additionally, over 60% of the youth involved in the pilot were 
identified as having irregular school changes. This includes changes 
that occur at irregular times during the school year for either 
behavior concerns or placement transfers. This does not include changes 
that occur at the end of the school year for reasons such as graduating 
from middle or elementary school. Despite the age and background 
similarities of the control group and the youth involved in the pilot, 
only 25% of the control group youth were identified as having irregular 
school changes. This suggests not that they actually had fewer 
irregular school changes, but that fewer changes were identified for 
them, meaning their educational history was not evaluated as 
thoroughly.
    Finally, while nearly 50% of the youth involved in the pilot were 
identified as eligible for special education services, only 30% of 
youth not involved in the pilot were identified as eligible for special 
education services. Again, this tends to suggest not that fewer youth 
were actually eligible for special education, but that fewer youth were 
identified by the foster care system as eligible, meaning, again, that 
their educational history was not evaluated as thoroughly.
    These statistics show that without the presence of Learning Rights 
on the MDT, the educational needs of this population would continue to 
be overlooked.
    Although data from the pilot program is still being collected, to 
date, no youth involved in the pilot program have ``crossed-over'' from 
the dependency system to the delinquency system.
Education Not Incarceration--School to Prison Pipeline Reversal Project
    LRLC provides direct advocacy to youth involved in the juvenile 
justice system. As part of our advocacy we have investigated the 
schools in the juvenile halls and camps throughout Los Angeles. We 
participate in the Education Reform Committee with the Probation 
Department. We advocate for youth who are detained to have appropriate 
education services. Two programs which service youth in the juvenile 
justice system will be outlined below:
UCLA Juvenile Justice Partnership Project
    LRLC is a community partner of UCLA. Through the Juvenile Justice 
Project, UCLA School of Law Professor Jyoti Nanda jointly supervises 
law students with LRLC staff members to address the needs of youth 
involved in the juvenile justice system.
    Los Angeles County has one of the highest youth incarceration rates 
in the country. Up to 90% of the county's juvenile justice youth are 
Latino or African American, and up to 70% of incarcerated youth 
nationally are said to have some kind of disability. In recent reports, 
the Department of Justice (DOJ) has highlighted the need for community 
based partnership programs as a viable option to lower incarceration 
and recidivism rates. In response to this need, the Los Angeles 
Probation Commission, acting under the Board of Supervisors, is 
affirmatively committed to implementing community-based measures that 
focus on prevention and avert entrance into the juvenile justice system 
rather than on punitive strategies. The purpose of the Juvenile Justice 
Project (JJP) is to prevent entry into the juvenile justice system. 
Utilizing the resources of UCLA Law School, the JJP will alleviate 
demand for critical services and create diverse career options for UC-
LAW graduates.
    The JJP will provide law students with critical practical 
experience in an area of unprecedented need. Students will research the 
juvenile justice system in order to examine pertinent civil rights 
issues and to publish effective advocacy tools for parents of at-risk 
youth. Students will also engage in educational advocacy for 
disadvantaged, low-income, special needs children. The JJP will 
culminate with student research presentations at forums such as the 
UCLA Critical Race Symposium to promote cross-disciplinary community 
dialogue about civil rights issues relevant to the delinquency system 
and to train educational advocates.
The School to Prison Reversal Project
    The School-to-Prison Pipeline Reversal Project (``Reversal 
Project'') is a pilot project being launched at Barry J. Nidorf 
Juvenile Hall and Sylmar Juvenile Court. The project aims to address 
the staggering numbers of youth with undiagnosed or untreated mental 
health concerns and/or learning disabilities entering the juvenile 
justice system. The project utilizes a collaborative multi-disciplinary 
approach, bringing together the expertise of Child and Family Guidance 
Center, a well-established San Fernando Valley based mental health 
provider, and LRLC to assess and identify the unique socio-emotional, 
mental health and educational needs of San Fernando Valley youth 
charged with ``low risk'' crimes.
Eligibility Criteria
    The Reversal project is limited to youth residing in the San 
Fernando Valley Area who are considered low risk offenders (i.e non 
707(b) felony offenses), are currently not detained (i.e released on 
Community Detention Program) and are at the pre-disposition stage of 
the court process.
The Process and the Product
    Once a youth is referred to the Reversal Project, either by 
Probation, a juvenile judge, a local Community Based Organization (CBO) 
or by a child's attorney, a Reversal Project representative will make 
contact with the parent to determine whether he/she qualifies and is 
interested in participating in the project. Once we have parental 
consent, an Education Advocate will gather education records and 
conduct a document review. Meanwhile, a therapist from Child and Family 
Guidance Center will work with the youth and their family to conduct a 
comprehensive mental health assessment. The information gathered from 
the education review and the mental health assessment will be used to 
create a Multi-Disciplinary Report and Recommendations (``Report'').
    The Report will be prepared by LRLC Education Advocate Shantel 
Vachani, JD/MSW, in collaboration with Child and Family Guidance 
Center. The Report will be submitted to the court and copies will be 
made available to all relevant parties prior to the adjudicatory 
hearing. The information in the Report is meant to provide all relevant 
parties with a more complete and holistic understanding of the youth's 
needs, and in doing so, take the first step toward ensuring that these 
needs are considered in the adjudication, disposition and post-
disposition process.
                                 ______
                                 
    [Whereupon, at 12:20 p.m., the subcommittees were 
adjourned.]

                                 <all>

</pre></body></html>
